<html>
<title> - THE ROLE OF BIOTECHNOLOGY IN COMBATING POVERTY AND HUNGER IN DEVELOPING COUNTRIES</title>
<body><pre>[Senate Hearing 106-766]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-766

                        THE ROLE OF BIOTECHNOLOGY
                    IN COMBATING POVERTY AND HUNGER
                        IN DEVELOPING COUNTRIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON INTERNATIONAL ECONOMIC
                   POLICY, EXPORT AND TRADE PROMOTION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 12, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                    U.S. GOVERNMENT PRINTING OFFICE
68-041 CC                   WASHINGTON : 2001


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

             SUBCOMMITTEE ON INTERNATIONAL ECONOMIC POLICY,
                       EXPORT AND TRADE PROMOTION

                    CHUCK HAGEL, Nebraska, Chairman
CRAIG THOMAS, Wyoming                PAUL S. SARBANES, Maryland
BILL FRIST, Tennessee                JOHN F. KERRY, Massachusetts
RICHARD G. LUGAR, Indiana            BARBARA BOXER, California

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Ashcroft, Hon. John, U.S. Senator from Missouri, press release 
  entitled ``State Department Endorses Ashcroft Bill To Expand 
  Food Production in Developing Nations,'' July 12, 2000.........    26
    Letters to Senator Ashcroft in support of Senate bill S. 
    2106:
      Dr. Roger N. Beachy, Donald Danforth Plant Science Center..    69
      Amb. Andrew Young, GoodWorks, International, LLC...........    70
      Peter McPherson, president, Michigan State University......    70
      Prof. Jeffrey Sachs, director and Dr. Calestous Juma, 
        program director, Center for International Development at 
        Harvard University.......................................    72
Beachy, Roger N., Ph.D., director, Donald Danforth Plant Science 
  Center, St. Louis, MO..........................................    35
    Prepared statement...........................................    39
Bond, Hon. Christopher S., U.S. Senator from Missouri............    32
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement     3
Halweil, Brian, staff researcher, Worldwatch Institute, 
  Washington, DC.................................................    42
    Prepared statement with attachments..........................    45
Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................     7
New York Times article by President Jimmy Carter entitled ``Who's 
  Afraid of Genetic Engineering?'', August 26, 1998..............    33
Progressive Farmer article by Senator Richard G. Lugar entitled 
  ``Let's Not Ignore Sound Science,'' February 2000..............    33
Sandalow, Hon. David B., Assistant Secretary of State for Oceans 
  and International Environmental and Scientific Affairs, 
  Department of State, Washington, DC............................     8
    Prepared statement...........................................    11
Sarbanes, Hon. Paul S., U.S. Senator from Maryland, prepared 
  statement......................................................     4
Science magazine article by Senator Christopher Bond entitled 
  ``Politics, Misinformation, and Biotechnology,'' February 18, 
  2000...........................................................    68
Washington Post article by Marc Kaufman entitled ``Report Says 
  Biotech Fails To Help Neediest Farmers,'' July 11, 2000........    24
Wayne, Hon. E. Anthony, Assistant Secretary of State for 
  Economics and Business Affairs, Department of State, 
  Washington, DC, prepared statement.............................    14
Young, Hon. Andrew, chairman, GoodWorks International, Atlanta, 
  Ga.............................................................    27
    Prepared statement...........................................    29

                                 (iii)

  

 
THE ROLE OF BIOTECHNOLOGY IN COMBATING POVERTY AND HUNGER IN DEVELOPING 
                               COUNTRIES

                              ----------                              


                        WEDNESDAY, JULY 12, 2000

                           U.S. Senate,    
     Subcommittee on International Economic
                Policy, Export and Trade Promotion,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Chuck Hagel 
(chairman of the subcommittee) presiding.
    Present: Senators Hagel, Lugar, Ashcroft, and Sarbanes.
    Senator Hagel. Good afternoon. First I would like to 
welcome all of our distinguished witnesses.
    This afternoon the subcommittee will look at the role of 
biotechnology and what role biotechnology can play in combating 
poverty, hunger, and environmental degradation in developing 
countries. Our first witness will be the Honorable David 
Sandalow, Assistant Secretary of State for Oceans and 
International Environmental and Scientific Affairs. Before 
coming to the State Department, he served as Associate Director 
for the Global Environment at the National Security Council and 
as Senior Director for Environmental Affairs at the White House 
Council on Environmental Quality. Prior to his work at the 
White House he worked in the General Counsel's Office at the 
Environmental Protection Agency.
    On the second panel is the Honorable Andrew Young. 
Ambassador Young is chairman of GoodWorks International. 
GoodWorks International is a consulting group based in Atlanta 
that works with governments, companies, and individuals 
throughout Africa to help raise living standards and expand 
productivity, capacity, and individual opportunity. In this 
capacity, Ambassador Young has become personally involved in 
Africa's increasing interest in biotechnology.
    Ambassador Young is well known to most Americans. In the 
1960's he was a top aide to Dr. Martin Luther King, Jr. In the 
early 1970's he was elected to the House of Representatives 
from Georgia and during the Carter administration he served our 
Nation as U.S. Ambassador to the United Nations.
    The second panel also includes Dr. Roger Beachy, president 
of the Danforth Plant Science Center of St. Louis, Missouri, 
and a member of the National Academy of Sciences. At the 
Danforth Center Dr. Beachy is working on a virus-resistant 
cassava plant for Africa as well as other agricultural products 
for developing countries. Many consider Dr. Beachy to be the 
father of modern crop biotechnology. While on the faculty of 
Washington University in the 1980's, Dr. Beachy's work led to 
the development of the world's first genetically altered food 
group.
    Prior to his current position, Dr. Beachy headed the 
Division of Plant Biology at the Scripps Research Institute in 
La Jolla, California. He was also the director of the 
International Laboratory for Tropical Agriculture 
Biotechnology.
    Our final witness is Mr. Brian Halweil, staff researcher in 
Food and Agriculture Issues at the Worldwatch Institute in 
Washington, DC. Mr. Halweil joined the Institute in 1997 as the 
John Gardner Public Service Fellow from Stanford University. 
His publications include an article on genetically engineered 
crops, ``The Emperor's New Crops,'' in the summer 1999 issue of 
Worldwatch Magazine.
    Before coming to the Institute in 1997, Mr. Halweil 
established a student-run organic farm on the Stanford 
University campus and traveled extensively in Mexico, Cuba, and 
Central America studying indigenous farming techniques.
    So, welcome to all our witnesses. Before I ask my friend 
and colleague Senator Lugar to present an opening statement or 
any comments he wishes, allow me to make a brief statement that 
I hope we will expand on during the course of the hearing.
    Virtually all scientists agree that biotechnology offers 
great hope for developing new vaccines, improving nutrition, 
and improving crop yields while reducing the need for the 
application of expensive pesticides and fertilizers. The 
question has been whether there are risks inherent to 
biotechnology that exceed any possible advantages it may 
provide.
    Clearly, biotechnology offers a great opportunity for the 
American economy, American farmers, and American workers. The 
United States leads the world in this technology, in its 
application in both pharmaceuticals and in agriculture, and in 
the export of biotech commodities and products. This advantage 
will continue even as the technology is adopted abroad.
    Few, however, have been looking specifically at 
biotechnology's promise for developing countries. The 
technology was perfected in North America and Europe. It has 
been adopted primarily by Australia and countries in North and 
South America. But its application may be most needed in 
developing nations.
    But for biotechnology to fulfill its promise in less 
developed countries, it must be tailored to meet the market 
needs of those countries. This point was made in a story in 
yesterday's Washington Post. This article reported on a largely 
positive white paper just released by the National Academy of 
Sciences. It was prepared jointly with the national academies 
in Britain, Brazil, China, India, and Mexico, together with the 
Third World Academy of Sciences.
    The report concludes that without using biotechnology it 
will be impossible to feed the world's poor in the future 
without destroying the environment. It warned, however, that 
governments and biotech companies need to do more to make the 
technology relevant and useable by farmers in these same poor 
countries. Even though world population growth is slowing, the 
world's current population of six billion will grow by at least 
another two billion in the next 30 years. Virtually all that 
growth will occur in developing countries.
    Traditional cross-breeding techniques produced the Green 
Revolution of the 1960's that led to significant increases in 
productivity in agriculture. The Green Revolution, however, 
depended on the adoption of new farming techniques and 
expensive applications of fertilizer. For this reason, its 
success was mixed in the developing world. African countries 
particularly reaped few benefits from the Green Revolution.
    Further gains in productivity and nutrition can be made 
through biotechnology, which also offers the hope of reducing 
the need for agricultural inputs. For this reason, 
biotechnology also offers hope for avoiding the need for 
further environmental degradation in developing countries. 
Without the kind of productivity improvements offered through 
biotechnology, many developing countries will clear ever more 
tropical forests and plant on ever more marginal lands. We 
should be seeking better productivity from existing high 
quality crop lands in America as well as in developing 
countries.
    I believe that biotechnology is good for both the American 
farmer and the developing country farmer.
    Again, I welcome our distinguished witnesses and I look 
forward to your testimony. With that, let me welcome the 
distinguished ranking Democrat on the subcommittee, Senator 
Sarbanes from Maryland, and Senator Lugar, who I think everyone 
knows is chairman of the Senate Agriculture Committee. Senator 
Lugar, would you care to offer any comments?
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    I would like to welcome our distinguished witnesses here today. 
This afternoon, the subcommittee will look at the role biotechnology 
can play in combating poverty, hunger and environmental degradation in 
developing countries.
    Our first witness will be the Honorable David Sandalow, Assistant 
Secretary of State for Oceans and International Environmental and 
Scientific Affairs. Before coming to the State Department, he served as 
Associate Director for the Global Environment at the National Security 
Council and as Senior Director for Environmental Affairs at the White 
House Council on Environmental Quality. Prior to his work at the White 
House, he worked in the General Counsel's Office at the Environmental 
Protection Agency.
    On the second panel is The Honorable Andrew Young, Chairman of 
GoodWorks International. GoodWorks International is a consulting group 
based in Atlanta that works with governments, companies and individuals 
throughout Africa to help raise living standards and expand productive 
capacity and individual opportunity. In this capacity, Ambassador Young 
has become personally involved in Africa's increasing interest in 
biotechnology.
    Ambassador Young is well known to most Americans. In the 1960s, he 
was a top aide to Dr. Martin Luther King, Jr. In the early 1970s, he 
was elected to the House of Representatives, and during the Carter 
administration, he served our nation as U.S. Ambassador to the United 
Nations. Since then, Ambassador Young has been Mayor of Atlanta, Co-
Chairman of the 1996 Olympic Games, and an international businessman, 
and human rights activist.
    The second panel also includes Dr. Roger Beachy, President of the 
Danforth Plant Science Center in St. Louis, Missouri, and a member of 
the National Academy of Sciences. At the Danforth Center, Dr. Beachy is 
working on a virus-resistant cassava plant for Africa, as well as other 
agricultural products for developing countries.
    Many consider Dr. Beachy to be the father of modern crop 
biotechnology. While on the faculty of Washington University in the 
1980s, Dr. Beachy's work led to the development of the world's first 
genetically altered food crop, a tomato that was modified for disease 
resistance. Prior to his current position, Dr. Beachy headed the 
Division of Plant Biology at the Scripps Research Institute in La 
Jolla, California, where he was also the Co-Director of the 
International Laboratory for Tropical Agriculture Biotechnology.
    Our final witness is Mr. Brian Halweil, staff researcher in food 
and agriculture issues at the World Watch Institute in Washington, DC. 
Mr. Halweil joined the Institute in 1997 as the John Gardner Public 
Service Fellow from Stanford University. His publications include an 
article on genetically engineered crops, ``The Emperor's New Crops,'' 
in the summer 1999 issue of World Watch Magazine. Before coming to the 
Institute in 1997, Mr. Halweil established a student-run organic farm 
on the Stanford University campus, and traveled extensively in Mexico, 
Cuba and Central America studying indigenous farming techniques.
    Virtually all scientists agree that biotechnology offers great hope 
for developing new vaccines, improving nutrition, and improving crop 
yields while reducing the need for the application of expensive 
pesticides and fertilizer. The question has been whether there are 
risks inherent to biotechnology that exceeds any possible advantages it 
might provide.
    Clearly, biotechnology offers a great opportunity for the American 
economy, American farmers and American workers. The United States leads 
the world in this technology, in its application in both 
pharmaceuticals and in agriculture, and in the export of biotech 
commodities and products. This advantage will continue, even as the 
technology is adopted abroad.
    Few, however, have been looking specifically at biotechnology's 
promise for developing countries. The technology was perfected in North 
America and Europe. It has been adopted primarily by Australia and 
countries in North and South America. But its application may be most 
needed in developing nations.
    But for biotechnology to fulfill its promise in less developed 
countries, it must be tailored to meet the market needs of those 
countries. This point was made in a story in yesterday's Washington 
Post. This article reported on a largely-positive White Paper just 
released by the National Academy of Sciences. It was prepared jointly 
with National Academies in Britain, Brazil, China, India, and Mexico 
together with the Third World Academy of Sciences. The report concludes 
that without using biotechnology it will be impossible to feed the 
world's poor in the future without destroying the environment. It 
warned, however, that governments and biotech companies need to do more 
to make the technology relevant and usable by farmers in poor 
countries.
    Even though world population growth is slowing, the world's current 
population of 6 billion will grow by at least another 2 billion in the 
next 30 years. Virtually all of that growth will occur in developing 
countries.
    Traditional cross-breeding techniques produced the Green Revolution 
of the 1960s that led to significant increases in productivity in Third 
World agriculture. The Green Revolution, however, depended on the 
adoption of new farming techniques and expensive applications of 
fertilizer. For this reason, its success was mixed in the developing 
world. African countries particularly, reaped few benefits from the 
Green Revolution.
    Further gains in productivity and nutrition can be made through 
biotechnology, which also offers the hope of reducing the need for 
agricultural inputs. For this reason, biotechnology also offers hope 
for avoiding the need for further environmental degradation in 
developing countries. Without the kind of productivity improvements 
offered through biotechnology, many developing countries will clear 
ever more tropical forests and plant on ever more marginal lands. We 
should be seeking better productivity from existing high-quality crop 
lands--in America as well as in developing countries. I believe that 
biotechnology is good for both the American farmer and the developing 
country farmer.
    Again, I welcome our distinguished witnesses, and I look forward to 
your testimony.

    [The prepared statement of Senator Sarbanes follows:]

             Prepared Statement of Senator Paul S. Sarbanes

    Thank you, Mr. Chairman, for holding this important hearing. I also 
welcome the distinguished panel of experts, from the public and private 
sectors, before our subcommittee.
    Biotechnology is a promising field and holds great potential for 
mankind. My own state of Maryland has a large and diverse biotechnology 
industry--it ranks among the top five states in the nation in terms of 
biotechnology concentration--so I am acutely aware of the benefits 
which have and will come from this part of our technology sector. 
Indeed, the National Institutes of Health, our universities, and 
numerous firms, many of which are on the cutting edge of research and 
many of which are in the application stage, are all making an enormous 
difference in our medicine, our health practices, the food we eat, and 
the amount we produce. So I am very proud to say that Maryland and its 
biotechnology sector play a significant role in the progress we are 
making in getting more nutrient-rich foods to those in need.
    The issue before us today is how biotechnology can help alleviate 
poverty and hunger in the developing world. This is indeed a timely 
topic. Unfortunately, the news from the developing world is decidedly 
mixed, and often negative. There are some countries in the developing 
world that have begun the process of lifting themselves out of poverty. 
Others, however, are mired in debt, disease, and drought. Last week's 
articles in the Washington Post about the AIDS epidemic in Africa is a 
telling reminder of some of the terrible problems that the ``have-
nots'' in the world are encountering on a daily basis.
    Biotechnology has led to higher food production in our country and 
thus can lead to greater exports of food to the developing world, where 
it is desperately needed. At the same time, biotechnology can help 
farmers in the developing world grow more and healthier crops on less 
land. This picture is seemingly a ``win-win'' situation for all 
concerned. However, like most things in life, the actual situation is 
not so simple.
    Right now, the United States accounts for three-fourths of all 
``transgenic'' cropland, meaning areas that are producing biotech 
crops. Argentina and Canada make up most the remainder of such 
cropland. There is very little cropland in Africa devoted to biotech 
farming.
    If our goal is to help alleviate poverty in stricken areas like 
large parts of sub-Saharan Africa, then I believe we must work toward 
the goal of re-establishing stable farming communities in these lands. 
Ideally, farmers in these areas should be provided with biotech seeds, 
at low prices, so that they can produce high yields. We must also 
ensure that the introduction of biotechology in these areas does not 
upset other organisms. For example, some biotech pesticides, if not 
properly administered, can led to the suppression of other plants and 
affect grazing animals.
    I raise these issues to highlight the great potential of biotech 
farming and to encourage all of us here to zero in on how best to 
address the food needs of the world's poorest citizens. In this way, we 
can truly have a ``win-win'' situation. I look forward to the testimony 
of our panelists.
    Thank you, Mr. Chairman.

    Senator Lugar. Well, thank you, Mr. Chairman. I would ask 
consent that my statement be made a part of the record.
    I simply want to comment from our work in the Agriculture 
Committee that we have taken a look at some of these issues, 
and this is why I welcome these distinguished witnesses today. 
Dr. Borlaug, of the Green Revolution that you referenced, has 
been a regular before the committee describing the remarkable 
changes in China and India in his experience, projects in 
Mexico dealing with maize and those in the Philippines dealing 
with rice, all with the cooperation of our country.
    I have often referenced anecdotally, at least in our 
committee, my own farm situation. We have 604 acres in Marion 
County, Indiana, where my dad got about 40 bushels to the acre 
in the 1930's. He passed away in the fifties. I have been 
responsible for the farm for the last 44 years. We have seen an 
increase in productivity to an average of about 140 bushels to 
the acre on that same farmland during my lifetime.
    USDA points out that the gains in yields in our country 
have been roughly of that order, about three times, in basic 
crops--corn, soybeans, and wheat. I make that point because 
others who have come before our committee--and each of you as 
expert witnesses may have some estimates of your own. But given 
anticipated world population changes in the coming half 
century, even given high, medium, and low demographic 
estimates, lead many to feel that yields may need to be 
increased by three times again. That is, on the Lugar farm what 
is now 140 bushels per acre may have to be more routinely 400.
    This is quite a stretch. It is not clear how you get there. 
It is all very clear that the need will be there unless a lot 
of people starve in this world or we have terrible plagues that 
change the demographics in horrible ways. We already understand 
from testimony to our committee that even as we lament the 
potential loss of the rain forests of the world, they are being 
routinely chopped down in southern Mexico and elsewhere. 
Documentation and papers here indicate that before people 
starve, they chop down the rain forests. It is a basic 
question, therefore, of human nutrition.
    Having said that, the fact is that all of us in agriculture 
have approached this issue as a production agricultural 
problem, namely how do we got from 40 bushels to 140 bushels 
per acre. As a corn farmer, I was not as interested as I should 
have been in consumers of this corn. I am a lot more interested 
in that subject having seen this remarkable article from Dr. 
Delapena in the Science Magazine, who has been before our 
committee. He noted that 250 million children in the world, 
mostly in developing countries, suffer from vitamin A 
deficiency and, as a result, 500,000 children in the world are 
blinded each year. Through biotechnology, through staple foods, 
vitamin A literally can become a part of their diets.
    Looked at from the standpoint of health and humanitarian 
causes, these are remarkable changes. But in the ag production 
community or even in the processed foods community, that was 
not our marketing objective. We were talking about production 
and we were talking about interesting foods for the diets 
principally of the American people or Europeans or others.
    We will not only have to shift gears, because now we are 
faced with a reaction of persons who are engaged in a near-
theology that somehow God has put together a corn seed in a 
certain form and that alteration is likely to lead to terrible 
results for humanity. That has to be examined, and it has been 
examined backward and forward now for many, many years.
    We have not had a single instance of testimony before the 
Agriculture Committee that a single change of biotech has in 
any way harmed a single person on this Earth over all these 
years. But that has not quieted the anxiety for a moment. Now, 
I have visited extensively as a member of this committee, as 
have Senators here, with representatives from France and 
Germany. I have talked to their agriculture people, their 
ministers of agriculture, their committees, others who are 
responsible, and they understand the argument perfectly well. 
But they also say to me as a practicing politician: You have 
got to understand, we have got a lot of fearful people who are 
in a tizzy over biotech and we do not really feel our 
leadership skills are sufficient right now to tackle this 
thing. In due course, be patient.
    Well, fair enough, but in the meanwhile years go by and the 
problems of those who are to be served and to be helped are 
manifested.
    So I am hopeful, at least in this country, that those of us 
who feel deeply about this will be thinking about consumers in 
terms of health, humanitarian concerns, as well as the shear 
quantities required to feed the world and how that will happen. 
We had testimony today from Dr. Frist, a member of our 
committee, who was in Sudan last week, a remarkable witness. 
Very few people have seen Sudan as Dr. Frist saw it last week. 
Even our Ambassador to the United Nations, Mr. Holbrooke, has 
not gotten into those places.
    People are being routinely starved as a matter of foreign 
policy. So that goes on in other parts of the world, too. This 
is not an open flow in which all of us are thinking about how 
we feed people; but on occasion we do get on that track, thank 
goodness. Hopefully, we will get better at it in terms of both 
distribution and politics of food, even as we work out what we 
have here.
    So, Mr. Chairman, I welcome your calling this hearing. I 
think it is tremendously important. It is a foreign policy 
problem of great dimensions, in addition to an agriculture and 
nutrition problem, a problem of health and humanitarian concern 
that others of our colleagues will want to take up.
    [The prepared statement of Senator Lugar follows:]

             Prepared Statement of Senator Richard G. Lugar

    As we consider the debate surrounding agricultural biotechnology, 
there are a few important points that come to mind. First, opposition 
frequently accompanies technological innovation. Opposition arises from 
fact, myth or cherished belief. The obvious difficulty is to determine 
an elusive truth. Second, technologies that eventually win acceptance 
do so after demonstrating a clear benefit to society with few risks. 
Lastly, technology, spawned by the limitless bounds of human intellect, 
continues to evolve as knowledge and understanding of our world 
increases.
    Agricultural biotechnology has inspired controversy but the debate 
has become polarized and reactionary so as to preclude reasoned public 
debate over merits of the new technology versus possible risks.
    Exactly why agricultural biotechnology has attracted intense levels 
of opposition, especially in Europe, deserves consideration. Testimony 
received by the Senate Agriculture Committee during hearings last 
October strongly suggests that biotechnology holds enormous potential 
to improve the human condition. A prime example was the testimony about 
research on the use of biotechnology to increase the vitamin content of 
certain staple crops like rice and corn. In an article published in 
Science magazine, Dr. Della Penna of the University of Nevada-Reno 
noted that 250 million of the world's children, mostly in the 
developing world, suffer from Vitamin A deficiency. As a direct result, 
some 500,000 children are blinded each year. If staple foods that these 
poorest of the poor children eat each day could be fortified with 
additional Vitamin A through the application of biotechnology, a 
worldwide scourge of blindness from dietary deficiencies could be 
alleviated.
    Biotech products on the market are already providing significant 
societal benefits, such as reduced use of pesticides. These are 
benefits for the farmers and their families who have had to handle 
these chemical products and for the environment in general.
    It is necessary to consider the environmental implications of not 
developing agricultural biotechnology. Demographers predict that the 
population of the United States will double over the next 100 years and 
world population is set to increase 50% by 2050. Development and the 
need for housing will place an inexorable pressure on land that now 
constitutes a significant percentage of America's treasured open 
spaces. Simultaneously, more food will be required to support 
population growth and improving standards of living. If agricultural 
efficiency remains static, then more land will be needed to grow more 
food. Faced with the choice of starvation or cutting down forests, 
mankind will have few options. An alternative does exist, and if 
developed with the intent to improve the lives of people everywhere, 
biotechnology can increase agricultural efficiency, reduce use of 
chemical pesticides and improve food's nutritional value.
    Agricultural biotechnology is a difficult public policy challenge, 
and difficult issues require that we act in a conscientious and 
responsible manner. This hearing today provides another opportunity for 
us to review this important issue in a rational and thoughtful way.

    Senator Hagel. Senator Lugar, thank you. You bring an 
insightful perspective from both the committees that you have 
either chaired or currently chair, plus your real life 
experience as a real live farmer. So thank you.
    Senator Lugar. Thank you.
    Senator Hagel. Senator Ashcroft from Missouri. Senator.
    Senator Ashcroft. Well, first of all, Senator, thank you 
for holding this very important hearing. I want to commend not 
only you, but the chairman of the Agriculture Committee, for 
his attention to these issues and these matters. A lot of 
members of this committee have been long-time advocates for 
biotechnology, which is advancing developments in 
pharmaceuticals, food, clothing, and energy. A number of us 
from the Midwest have seen what these advancements can do for 
rural agriculturally based economies, and we want developing 
countries to have the capacity to obtain these same 
agriculture-related development benefits.
    Biotech can be used as a tool to help in the fight against 
poverty, in the fight against hunger, malnutrition, birth 
defects, disease. Just a few months ago this committee approved 
on March 23 a bill which I introduced that is designed to 
promote sustainable development in Third World countries. S. 
2106, which is a bill entitled ``Advancing Global Opportunities 
for Biotechnology in Agriculture,'' is supported by Chairman 
Helms as well as the ranking member of this committee, Senator 
Biden.
    I have had the privilege of working on this initiative with 
two of the witnesses on the second panel, Ambassador Young and 
Dr. Beachy, and their support has been critical to the broad 
support the bill has gained.
    So I thank you for this. I think to the extent that we can 
be a part of helping underdeveloped nations which have such 
great challenges relating to simply human survival, to the 
extent that we can help them in any way we ought to be finding 
ways to do it, and it is consistent with the United States and 
what we stand for. The humanitarian decency of the American 
people can be reflected in our eagerness to provide secure, 
safe opportunities to not only help in the survival skills, but 
in terms of avoiding some very serious problems. The wrong 
vitamin deficiencies result in some children, numerous 
children, being born blind needlessly, and we need to try and 
think of ways to address these issues, to demonstrate that the 
United States of America is a culture and society that has a 
compassion that goes beyond the Atlantic and the Pacific, but 
extends around the world.
    So I thank you for this very important hearing and I look 
forward to participating.
    Senator Hagel. Senator Ashcroft, thank you.
    Secretary Sandalow, please proceed.

  STATEMENT OF HON. DAVID B. SANDALOW, ASSISTANT SECRETARY OF 
STATE FOR OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC 
          AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Sandalow. Thank you, Mr. Chairman, Senator Lugar, 
members of the subcommittee. Thank you for the opportunity to 
discuss the role of biotechnology in combating hunger and 
poverty in developing countries. This is a vitally important 
topic. Every day more than 800 million people on this planet go 
to bed hungry. More than one billion people live in abject 
poverty on incomes of less than one dollar per day.
    There is no single cause of this misery. Poor education, 
pests, drought, disease, food distribution problems, and, as 
Senator Lugar was suggesting, civil strife are all in part to 
blame. But the enormity of the problem cannot stop us from 
shaping a response. As we search for solutions, we must explore 
all means available.
    Mr. Chairman, in fighting hunger and poverty modern 
biotechnology must be part of our arsenal. In the past several 
months alone, the news has been filled with indications of the 
great promise of this technology. Researchers have found ways 
to enhance the vitamin A content of rice, promising great 
strides in the fight against blindness and other diseases. A 
working draft of the sequence of the human genome itself has 
now been mapped, offering tremendous potential in using the 
science of genetics to help fight disease.
    At the same time, we must proceed with wisdom and caution. 
Biotechnology presents both potential benefits and risks. In 
the United States, we have had a strong and effective 
regulatory system to address environmental and other concerns 
from biotechnology for many years. As this technology advances, 
we will continue to refine our regulatory processes. For 
biotechnology to do the most good for the most people, we must 
encourage and support credible science-based regulatory systems 
around the world.
    Today I will briefly address three topics: first, how 
biotechnology can contribute to the fight against hunger and 
poverty; second, barriers that must be overcome; and third, the 
U.S. Government programs in this area. I have a written 
statement which, with your permission, Mr. Chairman, I will 
submit for the record. I also have a supplementary statement 
from my colleague Tony Wayne, the Assistant Secretary of State 
for Economics and Business Affairs, whose office has 
substantial responsibilities in this area. With your permission 
I will submit that for the record as well.
    Senator Hagel. We will include both statements in the 
record.
    Mr. Sandalow. First, how can biotechnology contribute to 
the fight against hunger and poverty? There are many ways. As 
has already been suggested, some of the potential benefits 
include: enhancing the nutritional benefits of foods, 
increasing crop yields, reducing the need for chemical and 
water inputs, increasing resistance to crop stress, and 
producing medicines and vaccines that are more affordable and 
accessible.
    Among the most promising applications of modern 
biotechnology are those that can enhance the nutritional 
content of food. Vitamin A-enriched rice has recently been 
developed and received much attention. Other possibilities 
include vitamin A-enhanced oil, vitamin A-enhanced tomatoes, 
and iron-enriched rice. Modern biotechnology can be used to 
fight the many scourges that accompany malnutrition around the 
world.
    Some have questioned the need for such products, arguing 
that poor people need balanced diets, not vitamin-enriched 
rice. But we should not let the perfect become the enemy of the 
good. Sadly, access to balanced diets is limited in many 
countries by poverty, food distribution problems, and other 
complex and entrenched social conditions. Staples such as rice 
may be the only foods available. As we attack all causes of 
hunger and malnutrition, increasing the nutritional content of 
staple foods can make a difference in people's lives.
    In addition, modern biotechnology can be used to develop 
crops that are resistant to pests, drought, and disease. 
Already, in the developed world and indeed in China the 
technology is being used widely to reduce pesticide inputs, 
helping to improve agricultural productivity and protect the 
environment. Biotech pharmaceuticals can also make a 
difference.
    Mr. Chairman, I could go on at length about these potential 
benefits. But rather than doing so, I would like to read some 
words that especially struck me as I read them yesterday. They 
were written by Florence Wambugu, director of an African 
agricultural institute with expertise in biotechnology. She 
wrote last year in Nature: ``The African continent more than 
any other urgently needs agricultural biotechnology, including 
transgenic crops to improve food production. Africa missed the 
``Green Revolution.'' Africa cannot afford to be excluded or to 
miss another major global technological revolution. It must 
join the biotechnological endeavor.''
    Her comments are quite consistent, indeed similar to, the 
comments that you offered, Mr. Chairman, on the African 
Continent.
    A second important question: What are the barriers to the 
use of modern biotechnology in the developing world? I would 
note in particular three: cost, adequate regulatory structures, 
and lack of knowledge and fear.
    A threshold issue is cost: To gain the benefits of modern 
biotechnology, adequate financing must be found. Many experts 
have noted that, as with many technologies, initial 
applications of biotechnology have primarily benefited those 
with purchasing power in wealthier countries. For modern 
biotechnology to help the poor farmer, we must find ways to 
finance the use of this technology for the farmer's benefit.
    Part of the answer to this challenge lies in the public 
sector. We must find ways to support the work of universities, 
research institutions, and in particular the Consultative Group 
on International Agricultural Research, whose work has been 
instrumental in fighting hunger and poverty for many years.
    Part of the answer must be found in the private sector as 
well. Private companies, of course, often have fiduciary 
responsibilities to shareholders and have a very different role 
than public sector institutions or charities. But we must find 
creative solutions looking to public-private partnerships and 
other tools. One encouraging example of work to date is the 
collaboration between Monsanto, USAID, and the Government of 
Kenya to develop a disease-resistant sweet potato that will 
likely be among the first genetically engineered crops tested 
in sub-Saharan Africa.
    A second issue is the need for adequate regulatory 
structures. Like any new technology, modern biotechnology 
presents risks that must be managed. Environmental testing is 
important, for example, to ensure gene transfer issues and 
other matters are addressed. This administration is deeply 
committed to helping developing countries build adequate 
regulatory systems to manage and address biotechnology. Our 
commitment is one reason that I am especially pleased that the 
administration is strongly supporting Senator Ashcroft's bill, 
S. 2106, its major thrust and intent, in advancing the global 
opportunities for biotechnology in agriculture 2000. We look 
forward to discussions among staff to resolve some technical 
issues and then to working together to secure passage of this 
important legislation.
    A final barrier, one that I believe is critically 
important, is lack of knowledge and fear. Around the world we 
have seen lack of knowledge and fear emerge as major factors in 
the development of modern biotechnology. In my view we should 
neither minimize nor bemoan this important fact. We should 
recognize and address it. We should work to promote scientific 
cooperation and reasoned dialog on this topic. We should 
recognize that this topic can implicate ethical and religious 
issues for some. In the long run, modern biotechnology cannot 
promote a better tomorrow unless people from around the world 
understand it and have a stake in the technology's future.
    Mr. Chairman, the third topic is what the Government is 
doing today to address these issues. In light of time, I will 
leave that largely to my written statement and any questions 
that you and the panel would like to ask.
    Let me conclude by saying that modern biotechnology is not 
a panacea, but it can help to make a difference in the fight 
against hunger and poverty. Using this new technology, we can 
feed hungry children, raise incomes, fight disease, and protect 
the environment. But these results are not guaranteed. To 
realize the full potential of modern biotechnology, we will 
need wisdom and creativity in the years ahead. We must find 
ways to overcome obstacles and address concerns.
    This country should be proud to be a global leader in this 
remarkable new technology. In the years ahead, let us pursue a 
rational and open dialog on this topic, applying the lessons of 
science and respecting all points of view. If we do so, we will 
leave a better world behind for our children and theirs.
    Thank you.
    [The prepared statement of Mr. Sandalow and supplementary 
statement of Mr. Wayne follow:]

              Prepared Statement of Hon. David B. Sandalow

                              introduction
    Good afternoon, Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to discuss the role of biotechnology in 
combating hunger and poverty in developing countries.
    This is a vitally important topic. Every day, more than 800 million 
people on this planet go to bed hungry. More than one billion people 
live in abject poverty--on incomes of less than $1 per day.
    There is no single cause of this misery. Poor education, pests, 
drought, disease, food distribution problems and civil strife are all 
in part to blame. But the enormity of the problem cannot stop us from 
shaping a response. As we search for solutions, we must explore all 
means available.
    In fighting hunger and poverty, modern biotechnology must be part 
of our arsenal.
    In the past several months alone, the news has been filled with 
indications of the great promise of this technology. Researchers have 
found ways to enhance the Vitamin A content of rice, promising great 
strides in the fight against blindness and other diseases around the 
world. A working draft of the sequence of the human genome has now been 
mapped, offering tremendous potential in using the science of genetics 
to help fight disease.
    At the same time, we must proceed with wisdom and caution. 
Biotechnology presents both potential benefits and risks. In the United 
States, we have had a strong and effective regulatory system to address 
environmental and other concerns from biotechnology for many years. As 
the technology advances, we will continue to refine our regulatory 
processes. For biotechnology to do the most good for the most people, 
we must encourage and support credible, science-based regulatory 
systems around the world.
    Today I will briefly discuss three topics: how biotechnology can 
contribute to the fight against hunger and poverty; barriers that must 
be overcome; and U.S. government programs in this area.
                    how biotechnology can contribute
    How do we feed a growing population--which some estimate will reach 
9 billion in the next 30 years--when most arable land on the planet is 
already under cultivation?
    How do we find new ways to deliver desperately needed medicines to 
desperately poor people?
    Modern biotechnology is part of the answer. Some of the potential 
benefits of this technology include:

  <bullet> Enhanced nutritional benefits of common staple foods.

  <bullet> Increased crop yields.

  <bullet> Reduced need for chemical and water inputs.

  <bullet> Increased resistance to crop stress, such as drought.

  <bullet> Smaller losses from spoilage and longer shelf lives.

  <bullet> Increased income generation and rural development.

  <bullet> Medicines and vaccines that are more affordable and 
        accessible.

    Among the most promising applications of modern biotechnology are 
those that can enhance the nutritional content of foods. Vitamin A-
enriched rice has recently been developed and received much attention; 
other possibilities include vitamin A-enhanced oil, vitamin A-enhanced 
tomatoes, and iron-enriched rice. Modern biotechnology can be used to 
fight the many scourges that accompany malnutrition around the world, 
including illness, blindness, developmental problems and death.
    Some have questioned the need for such products, arguing that poor 
people need balanced diets, not vitamin-enriched rice. But we should 
not let the perfect become the enemy of the good. Sadly, access to 
balanced diets is limited in many countries by poverty, food 
distribution problems and other complex and entrenched social 
conditions. Staple foods such as rice may be the only foods available. 
As we attack all causes of hunger and malnutrition, increasing the 
nutritional content of staple foods can make a difference in people's 
lives.
    Drought and disease plague developing country farmers around the 
world. Here, too, modern biotechnology can make a difference. 
Scientists are exploring ways to make mangoes, cassava, plantains and 
other tropical crops resistant to drought and virus-born diseases.
    Pests are also a significant barrier to agricultural productivity 
around the world. By using modern biotechnology, scientists can insert 
natural pesticides such as Bt into crops, reducing loss due to insect 
damage. This technology is already helping farmers increase 
productivity, while reducing pesticide usage, here in the United 
States. In the developing world, the technology can help promote food 
security and increase incomes among poor farmers.
    Part of biotechnology's promise is to produce plants that are more 
productive with fewer inputs (such as chemicals and water). Such 
applications would reap enormous benefits for poor farmers, who could 
use their scarce resources to produce crops that would better feed 
their families while lessening or removing the need to convert new 
lands to agriculture. And, these applications would help to protect 
farmers from environmental fluctuations, such as drought. Such vagaries 
of agriculture have had extremely serious impacts on the poor, as we 
are seeing right now in parts of Africa, where drought is again taking 
a terrible toll. The ability to stabilize yields will obviously offer 
great benefits to U.S. farmers and consumers as well.
    An eloquent statement on this topic comes from Florence Wambugu, 
director of an African agricultural institute with expertise in 
biotechnology. She wrote last year in Nature:

          The African continent, more than any other, urgently needs 
        agricultural biotechnology, including transgenic crops, to 
        improve food production . . . Africa missed the Green 
        Revolution . . . Africa cannot afford to be excluded or to miss 
        another major global technological revolution. It must join the 
        biotechnological endeavor.

    Biotech pharmaceuticals can also make a difference. Biotechnology 
is being used to create a variety of medicines, such as new vaccines, 
anti-cancer drugs and human insulin. Developing countries will benefit 
by biotechnology's ability to produce a broader range of medicines in a 
more timely and cost-effective manner. Vaccines for malaria and better 
treatments for HIV/AIDS may both be on the horizon.
  barriers to the use of modern biotechnology in the developing world
    Nevertheless, there are barriers to the use of modern biotechnology 
in the developing world. These include:

  <bullet> Cost.

  <bullet> Adequate regulatory structures.

  <bullet> Lack of knowledge/fear.

    A threshold issue is cost. To gain the benefits of modern 
biotechnology, adequate financing must be found. Many experts have 
noted that--as with many technologies--initial applications have 
primarily benefited those with purchasing power in wealthier countries. 
For modern biotechnology to help the poor farmer in developing 
countries, we must find ways to finance the use of this technology for 
the farmer's benefit.
    Part of the answer to this challenge lies in the public sector. We 
must find ways to support the work of universities, research 
institutions and other organizations with expertise in this area. In 
particular, we must support the Consultative Group on International 
Agricultural Research, whose work has been instrumental in fighting 
hunger and poverty for many years.
    Part of the answer must be found in the private sector as well. 
Private companies, of course, often have fiduciary responsibilities to 
shareholders and have a very different role than public sector 
institutions or charities. But we must find creative solutions, looking 
to public-private partnerships and other tools. We must find programs 
that improve the lives of the poor, promote long-term acceptance of 
this technology and help advance the goals of all concerned. One 
encouraging example of work to date is the collaboration between 
Monsanto, USAID and the Government of Kenya to develop a disease-
resistant sweet potato that will likely be among the first genetically-
engineered crops tested in sub-Saharan Africa.
    A second issue is the need for adequate regulatory structures. Like 
any new technology, modern biotechnology presents risks that must be 
managed. Environmental testing is important, for example, to ensure 
gene transfer issues are addressed. Issues related to pest resistance 
may be important.
    This administration is deeply committed to helping developing 
countries build adequate regulatory systems to manage and address 
biotechnology. Our commitment is one reason I'm pleased to announce 
that the administration strongly supports the major thrust and intent 
of S. 2106, ``Advancing the Global Opportunities for Biotechnology in 
Agriculture of 2000,'' introduced by Senator Ashcroft. We look forward 
to discussions among staff to resolve technical issues and to working 
together to secure passage of this legislation. The programs described 
in S. 2106 can help developing countries establish regulatory systems 
to assess the opportunities and potential risks associated with modern 
biotechnology.
    A final barrier is lack of knowledge and fear. Around the world, 
we've seen lack of knowledge and fear emerge as major factors in the 
development of modern biotechnology. In my view, we should neither 
minimize nor bemoan this important fact: we should recognize and 
address it. We should work to promote scientific cooperation and 
reasoned dialogue on this topic. We should recognize that this topic 
can implicate ethical and religious issues for some. In the long run, 
modern biotechnology cannot promote a better tomorrow unless people 
from around the world understand it and have a stake in the 
technology's future.
                      how u.s. is addressing issue
    This Administration is strongly committed to finding ways for 
modern biotechnology to help fight hunger and poverty. Our work in this 
area cuts across many agencies, including the U.S. Agency for 
International Development (USAID), the U.S. Department of Agriculture 
(USDA) and the Department of State.
    USAID spends roughly $7 million a year on agricultural 
biotechnology in developing countries. USAID's work emphasizes two 
aspects--cooperative research and technology development, and the 
promotion of science-based regulatory systems. Cooperative research and 
technology development efforts link U.S. universities and companies 
with research and government institutions in developing countries. It 
is important that developing countries have the technical and 
institutional ability to access the potential of biotechnology for 
themselves. Creating ownership over the technology helps diffuse the 
political issues, and provides the basis for a science-driven 
regulatory system. In addition, USAID supports the development of 
biosafety regulatory systems and legal and management policies for 
addressing intellectual property rights associated with biotechnology.
    USDA spends more than $60 million annually on biotechnology 
research, providing education programs to current and emerging 
agricultural biotechnology markets, and on cooperative efforts with 
researchers in developing countries. USDA has implemented special 
programs for a targeted group of developing countries, and it conducts 
training seminars, which provide a balanced view of biotechnology to 
selected consumer, producer, processor, trader or regulator 
representatives. In addition, USDA directs efforts toward educating 
regulators and journalists on the science-based regulatory process 
practiced in the U.S. for biotech crops and products, and it brings 
interested stakeholders for U.S.-based training. The Agricultural 
Research Service (ARS) of USDA not only conducts its own research into 
biotechnology, it also manages a germplasm system that shares germplasm 
freely with developing countries.
    For example, USDA recently signed an agreement with sub-Saharan 
African countries and Tuskegee University to facilitate technology 
transfer related to agricultural biotechnology. Over $280,000 is also 
spent annually on biotech outreach efforts in developing countries, 
which includes biosafety symposia on the potential environmental risks 
of biotechnology. USDA has also implemented special programs for a 
targeted group of developing countries (including Thailand, Vietnam, 
Indonesia, Philippines, Malaysia, Chile, Uruguay, South Africa, Mexico, 
Czech Republic, Romania, Hungary, and Poland). USDA conducts training 
seminars, which provide a balanced view of biotechnology to selected 
consumer, producer, processor, trader or regulator representatives.
    The Department of State is actively engaged as well, helping to 
promote the beneficial application of this technology through many 
channels. Our Public Diplomacy and Public Affairs Bureau has been 
working hard--organizing speaker programs, digital video conferences, 
an international visitors program, fact sheets on U.S. agricultural 
biotechnology regulatory processes for Embassy distribution, and 
multiple websites, including an electronic journal. To enhance 
information-sharing efforts, the Department of State recently allocated 
$360,000 toward assisting with the effective implementation of the 
Biosafety Clearing House. This web-based database of information 
concerning living modified organisms (LMOs), provides a means for 
sharing scientific and regulatory information among countries.
    The issue of biotechnology in developing countries involves 
questions of trade, and our Economic Bureau has been proactively 
addressing this issue through multiple international mechanisms. These 
include the establishment of a U.S.-EU Consultative Forum on 
biotechnology, and the Secretary's Advisory Committee on International 
Economic Policy (ACIEP) Working Group on Biotechnology. Our Economic 
Bureau is also working to ensure that current discussions of 
biotechnology in international negotiations, such as recent OECD 
discussions, are driven by science.
                               conclusion
    Modern biotechnology is not a panacea, but it can help make a 
difference in the fight against hunger and poverty. Using this new 
technology, we can feed hungry children, raise incomes, fight disease 
and protect the environment.
    But these results are not guaranteed. To realize the full potential 
of modern biotechnology, we will need wisdom and creativity in the 
years ahead. We must find ways to overcome obstacles and address 
concerns.
    This country should be proud to be a global leader in this 
remarkable new technology. In the years ahead, let us pursue a rational 
and open dialogue on this topic, applying the lessons of science and 
respecting all points of view. If we do so, we'll leave a better world 
behind for our children and theirs.

                                 ______
                                 

              Prepared Statement of Hon. E. Anthony Wayne

    Dear Chairman Hagel:
    Thank you for the opportunity to address for the record the 
potential of biotechnology in agriculture to help alleviate global 
hunger and poverty. As with any promising new technology with broad 
application, we have seen that there are legitimate questions and 
concerns. The United States Government has learned from experience the 
importance of ensuring public safety and confidence in new products 
while maintaining a climate conducive for economic growth and 
innovation. In the international arena as at home, we favor the 
consistent science-based, rules-based approach to assessing the 
opportunities and risks associated with new technologies, particularly 
those that affect food security and consumer welfare.
    Biotechnology holds great promise to help alleviate poverty and 
hunger globally. To explore its potential effectively, we encourage the 
international community to avoid unnecessary restrictions or barriers 
to new technologies such as biotechnology, while proceeding with wisdom 
and care. We believe this can be done while protecting our domestic 
regulatory programs. We need transparency and the effective use of 
science-based decision making. Undue or unworkable trade restrictions 
or regulatory barriers, especially on agriculture, could raise food 
costs substantially and slow the safe development of biotechnology. It 
is true that many governments and companies are investing heavily in 
biotechnology--on which the U.S. has a strong start--and so it is 
obvious that its promise is not completely unknown abroad.
    We believe it is important to enhance and share international 
understanding on the science of biotechnology. We also think that the 
consensus among scientists--that bio-engineered foods are as safe as 
other foods--is finally getting traction. We have worked hard to 
encourage a balanced, calm, apolitical discussion of biotechnology. 
Many fears about bio-engineered foods reflect a lack of complete 
knowledge about our solid regulatory system and about the basic science 
of biotechnology. The issue of biotechnology has serious implications 
for U.S. agricultural exports, for the trading system more generally, 
for global food security and development, and for how we manage 
effectively the international approaches to the safety and 
environmental aspects of promising new technologies. For these reasons, 
the State Department is fully engaged.
    Our Under Secretary for Economic Affairs Alan Larson and I work 
closely in the interagency process on food safety and agricultural 
trade issues. We also take a coordinated approach on the environmental 
aspects of biotechnology with our Under Secretary for Global Affairs 
Frank Loy and with Assistant Secretary Sandalow's Bureau of Oceans and 
International Environmental and Scientific Affairs. We also work with 
Under Secretary for Public Diplomacy Evelyn Lieberman, who has 
organized an interagency ``public diplomacy working group'' to help 
coordinate the biotech issue internationally. We interact regularly 
with USDA, the FDA, Commerce, EPA, USAID, USTR, and both the NEC and 
OSTP at the White House on international discussions and negotiations 
on biotechnology. The Secretary of State has also engaged directly with 
her counterparts, and with interested stakeholders, to be sure we take 
a balanced and inclusive approach to this pathbreaking technology. And 
we are responding to many calls by U.S. constituents that we do still 
more.
    We are making a very specific effort to address the interests of 
developing countries. Recently, we created a biotechnology working 
group under our Advisory Committee on International Economic Policy 
(ACIEP) comprised of 60 members. Among other items, it will consider 
how we can better work with developing countries so that they benefit 
safely from biotechnology's potential contributions to health, 
nutrition, food security and agricultural productivity. We have 
supported USAID, which is playing a very constructive role on 
biotechnology, to continue assisting in building the capacities of 
developing countries to adapt and use appropriately biotechnology to 
meet critical needs. Under Secretary Larson has met with UN Food and 
Agriculture Organization (FAO) Director General Diouf and discussed 
what his organization can do to better support biotechnology in 
developing countries.
    We have successfully pressed for attention to the interests of 
developing countries in recent discussions of biotechnology in both the 
Organization for Economic Cooperation and Development (OECD) and the G-
8.
    It is important to remember that while foods derived from bio-
engineered inputs or processes have been on the U.S. grocery shelves 
for less than a decade, farmers have been creating new plant species 
through genetic modification for centuries. Whether we call it risk-
based decision making or scientific uncertainty, the precaution concept 
has been embedded in U.S. health and safety programs since 1906, and 
continues to be an essential element of the U.S. regulatory approach to 
food and environmental programs. American farmers are proud of their 
long-standing commitment to providing customers with products of the 
highest quality and safety in the world. They have every incentive to 
maintain that quality--including in our exports--and the consumer 
confidence that it engenders.
    President Clinton has underscored that this Administration, with 
the help of our outstanding regulatory agencies, will continue to 
maintain the highest standards of food safety, including biotechnology 
food products. The U.S. National Academy of Sciences published a report 
on April 6 that confirmed that the biotech food products currently on 
U.S. grocery shelves (estimated at 30,000 products, or 70% of all food 
sold in the U.S.) are as safe as traditional foods. Acknowledging that 
no new technology is risk-free, the study also stated the need for 
greater consideration of environmental risks and for continued 
assessment of regulatory approaches to food safety. We believe that 
such ongoing regulatory efforts will only improve our food safety 
system. We have also encouraged others in the international community 
to consider the value to consumer confidence and scientific innovation 
of having apolitical, science-based regulatory structures.
    With the global population positioned to top nine billion or more 
in 30 years (up from six billion today), food security is of paramount 
concern. Land is fixed, water is scarce and malnutrition seriously 
impacts child development in many developing countries. As Ismael 
Serageldin of the World Bank has noted, biotechnology plants and micro-
organisms are fundamental tools to help improve food production to meet 
the growing demand for basic and nutritionally-improved food, while 
reducing stresses on the environment caused by chemical pesticides and 
herbicides, over-tillage, water runoff, and conversion of existing wild 
habitats to agricultural uses.
    Today an estimated 18% of the population in the developing world 
does not have access to sufficient food to meet their caloric and 
nutritional needs. Malnutrition kills 40,000 people every day. 
According to a number of studies, biotechnology has increased select 
crop yields by about 20% in particular areas (primarily due to 
reduction of loss to pests, increased flexibility in crop management, 
modification of plant architecture and development, and tolerance to 
salinity and drought).
    Biotechnology may also already be contributing to a dramatic 
reduction of applications of chemical pesticides and herbicides. 
According to a study by the National Center for Food and Agricultural 
Policy, U.S. soybean growers made 16 million fewer active ingredient 
chemical applications in 1998 compared to 1995 (a 19% reduction). 
Scientists at the University of Arizona reported that U.S. biotech 
cotton farmers enjoyed a 22% yield increase and an average 30% 
reduction in pesticide use in 1998.
    Improved food distribution and reduced energy consumption are other 
benefits from the use of biotechnology since scientists have 
successfully introduced genetic traits in fresh produce that prolong 
shelf life. Biotechnology is projected to be of major importance in the 
health care sector, where trials are advancing to store and deliver 
malaria and other vaccines worldwide--embedded in bananas, for 
example--thereby reducing the need for costly refrigeration, storage 
and distribution. It would be irresponsible and inhumane not to try 
hard to develop safely the incredible benefits which biotechnology may 
be able to bring to people of all income brackets everywhere. We are 
convinced that it is important to do so, with care and cooperation.
    On July 6, the 1,800 member International Society for Plant 
Molecular Biology joined more than 2,400 other scientists (including 
Nobel Prize winners Norman Borlaug and James Watson) in signing a 
petition endorsing biotechnology as a ``powerful and safe technology 
that can contribute substantially to agriculture, health care and the 
environment.'' On July 5, the Wall Street Journal reported that many 
scientists in the developing world have embraced the enormous potential 
of biotechnology. For example, Mexican researchers have bio-engineered 
the world's first acid-soil crops, which reportedly could significantly 
boost yields on half the arable land in the tropics and save huge 
tracts of the forests.
    Yet, globally, the U.S. Government and others who see the potential 
of biotechnology for agriculture are facing challenges, including from 
some in the European Union, that threaten to slow the dissemination of 
this promising technology. The European Union's ambiguous approach to 
precaution is incongruent with the science-based, rules-based approach, 
which has served Americans and others very well.
    Some believe recent EU actions are in part due to the serious food 
safety scandals that have eroded European consumer confidence in the 
regulatory agencies of the 15 EU member states, and to reports in 
Europe media which continue to link alleged risks of ``Frankenfoods'' 
with such real fears as beef from ``mad cows.'' Heightened consumer 
fears in this atmosphere have heavily influenced public policy-making. 
The crisis in consumer confidence in Europe has overtaken the 
legislative and regulatory process. In addition, there are interest 
groups in Europe (such as subsidized industrial agriculture, and 
organic production supporters) with their own agenda that are pleased 
to support these developments. The result creates problems for the 
United States in terms of trade, and could affect the world's ability 
to benefit from the development of this technology.
    A European Commission White Paper on Food Safety published last 
February projects that over 200 new food safety regulations will be 
proposed by 2001, affecting biotech seeds, crops, commodities, and 
processed food and feed products. While the U.S. has adapted and 
successfully implemented a risk-based approach to food and 
environmental safety, the EU approach is currently based on a notion 
they call the ``precautionary principle'' which is vague and undefined 
and seems to leave product approval open to political judgement rather 
than science-based evidence. Discussion in the EU of new standards for 
agricultural biotechnology could impose fresh regulatory burdens on EU 
economies and even slow or derail the development of the technology 
worldwide, without scientific documentation of the potential risks. The 
impact is already evident; no bio-engineered crops have been approved 
in EU countries for over two years.
    In the EU, the costs of production--and ultimately food prices--may 
rise. Dependence on heavy pesticide use may continue. The much-lamented 
``brain drain'' of European scientists and academicians leaving to 
conduct their research in the U.S. may continue.
    There would also be consequences beyond Europe. Many long-
anticipated biotech breakthroughs may be delayed, as the EU works to 
convince others of its approach. ``Golden rice,'' for example, was 
funded and developed by the Rockefeller Foundation and the EU--and the 
scientists pledged to find ways to adapt this technology to the 
developing world. (``Golden rice'' contains additional beta-carotene to 
prevent the severe Vitamin A deficiency that contributes to blindness 
or death for millions of children per year and the iron deficiency that 
causes birth complications for a billion women and their babies.) 
However, according to the Journal of Science, under pressure by groups 
opposed to biotechnology, the EU has now diminished funding for plant 
biotechnology research. ``Golden rice'' research was among the projects 
that did not get further funding. USAID now plans to support the 
adaptation of ``golden rice'' to the developing world.
    Another aspect of this problem is the very serious access problem 
the Europeans have created for U.S. bio-engineered crops. U.S. corn 
exporters are losing $200 million annually in exports since 1998, and 
other agricultural sectors are threatened because of the internal EU 
paralysis over handling biotechnology and agriculture. Not only this, 
the EU is endeavoring to convince others to adopt its restrictive and 
ambiguous approach.
    As a result, U.S. Government agencies have become extremely active 
in the international arena, through organizations such as the U.N. Food 
and Agriculture Organization and World Health Organization-sponsored 
Codex Alimentarius to ensure that biotech agricultural products and 
foods are not singled out, demonized, or over-regulated and, at the 
same time, that actual risks are appropriately controlled. Here, too, 
we are working with developing countries to understand their viewpoints 
and interests, and to share our concerns.
    We are making strenuous efforts through the OECD process and the G-
8 Summits of major industrialized nations. We have also proposed that 
biotechnology be addressed in the ongoing agriculture negotiations at 
the World Trade Organization.
    We will continue to seek workable paths forward with the EU to 
overcome their concerns, while explaining our reservations with their 
proposed approaches. President Clinton discussed biotechnology with EC 
President Prodi last October and at the December 1999 U.S.-EU Summit. 
The President and his EU counterparts committed to establishing a 
``two-track'' approach to addressing biotechnology issues. The first 
track consists of a government-to-government dialogue among senior-
level officials from U.S. agencies and the European Commission to help 
resolve some of the problems and move the issue forward. The second 
track consists of the creation of a Consultative Forum of eminent non-
government persons from both sides of the Atlantic to address a variety 
of issues related to biotechnology and to provide a report in time for 
the December 2000 U.S.-EU Summit. The forum may also address related 
aspects of the agricultural biotechnology issue, including consumer 
choice, environmental factors, ethics and the interests of developing 
countries.
    The United States participants in the U.S.-EU Consultative Forum 
include eminent persons such as Nobel laureate Norman Borlaug and the 
Rockefeller Foundation's Gordon Conway. We hope that the work of this 
Forum of respected experts in their fields will help Europe move toward 
a reasoned discussion of the issues related to biotechnology, 
particularly agricultural biotechnology and its potential benefits for 
sustainable development. We have also engaged bilaterally with the EU 
through the Transatlantic Economic Partnership (TEP) Biotechnology 
Working Group.
    We have also launched energetic diplomatic and outreach efforts to 
urge a careful, science-based approach to bolster international 
consumer confidence that biotech products are regulated effectively, 
and with a view toward maintaining high U.S. standards for food safety 
and environmental protection. Our program consists of the creation and 
maintenance of a website on biotech issues, and the initiation of 
seminars, visitors programs, op eds, and videoconferences worldwide. We 
have also initiated ongoing outreach to foreign press and non-
government organizations.
    Our Embassies around the world are doing yeoman's work to help 
raise awareness on this issue and to convey that we seek a balanced 
approach to fair market access while addressing consumer and 
environmental concerns. We have encouraged an awareness of the current 
and potential benefits of this technology, stressed that we believe it 
can play a very positive role in developing countries, and made clear 
that we seek to ensure that the concrete benefits of biotechnology 
agriculture are shared worldwide, while assuring a careful, science-
based regulatory approach.
    Since February, the State Department's Bureau of Economic and 
Business Affairs assumed responsibility for coordinating the U.S. 
government's interaction with the Transatlantic Consumer Dialogue 
(TACD) to further the exchange of ideas between policy-makers and non-
government organizations. Biotechnology has been one of the main topics 
of discussion by U.S. and EU government officials, along with U.S. and 
European consumer groups, comprising the TACD. U.S. consumer groups in 
the TACD trade working group discussed biotechnology when they met June 
21 and the U.S. consumer groups in the TACD food working group will 
likely discuss the issue with U.S. government officials July 19. We 
expect the U.S. and EU government and NGO participants in the TACD to 
examine biotechnology issues again when they meet September 14-15 in 
Paris.
    Despite these efforts, we are aware we are in an age where sound 
bites shape public opinion and that more is needed to convey our 
arguments for a careful, science-based approach and to make them 
comprehensible to consumers--and even to many policymakers in developed 
and developing countries. We will continue to focus our energy to 
ensure that short-term political pressures surrounding the biotech 
issue do not endanger our longstanding rules-based, science-based 
approach to trade. The rules-based approach has allowed trade and 
innovation to flourish and is the best means for the promise of 
biotechnology to contribute to the fight against hunger and poverty 
around the world.
    Per capita food production has risen 25% since 1990, without 
commensurate increase in land use, and global food trade has kept 
prices down and hunger in check in many countries. All of which has 
provided great benefits for people worldwide. To sustain and multiply 
these positive results, the Department of State will, working closely 
with other government agencies, remain vigorously committed to 
resolving outstanding issues in a rational, science-based way in the 
multilateral fora where biotechnology and agriculture are being 
addressed.
    We hope these efforts will contribute significantly to alleviate 
global hunger and poverty. Thank you Chairman Hagel for the opportunity 
to address these important issues.

    Senator Hagel. Mr. Secretary, thank you.
    I would like to begin with a couple of questions from your 
written testimony before I ask my colleagues for their 
questions. Could you frame up for the committee what in fact 
the administration is doing to provide leadership in this area. 
I think you harnessed it in your statement, but now if you 
could develop your answer in some detail because I think there 
is some agreement that this technology represents a tremendous 
amount of hope for the future of mankind. Unless we are able to 
implement it and process it and get to the productive capacity 
that these nations need, then it will not do much good.
    So with that, have at it, Mr. Secretary.
    Mr. Sandalow. Thank you, Mr. Chairman. This is a critically 
important topic and our work in this area cuts across a number 
of Agencies. I would emphasize three where there is significant 
work that is going on: USAID, USDA, and the Department of 
State.
    USAID spends roughly $7 million a year on agricultural 
biotechnology in developing countries, and its work emphasizes 
two aspects: cooperative research and technology development 
and the promotion of science-based regulatory systems. The 
cooperative research and development takes place in part in 
efforts to link U.S. universities and companies with research 
and government institutions in developing countries. USAID also 
has a critical role in funding the work of the Consultative 
Group on International Agricultural Research as part of these 
efforts.
    USDA, the U.S. Department of Agriculture, spends over $60 
million in this area and that is annually. It is an annual 
figure. It is work that relates to research primarily, biotech 
research, but also outreach efforts in developing countries, 
research into biotech and training and education programs. USDA 
actually maintains a germ plasm data base which is very useful 
in this area.
    The Department of State, where I am privileged to work, has 
had an aggressive diplomatic program in this area for quite a 
while now. Our public diplomacy section has worked hard and at 
great length around the world to get out the message about 
biotechnology and its benefits and how it can be appropriately 
managed. That has included hosting major conferences, 
organizing speaker programs, digital video conferences, and 
more.
    We have allocated $360,000 recently toward assisting with 
the effective implementation of the Biosafety Clearinghouse, 
which is a very innovative web-based site to gather information 
about biosafety for countries around the world, and this money 
will go toward training developing countries to participate.
    Our Economic Bureau has been very engaged with this area. 
We have worked on the U.S.-EU Consultative Forum. The 
Secretary's Advisory Committee on International Economic Policy 
has a subgroup that relates directly to this issue and is 
actively involved in OECD discussions as well.
    That is a brief summary, Mr. Chairman, and I am happy to 
provide more information if you like.
    Senator Hagel. You mentioned in your statement that the 
final barrier we are dealing with is ``lack of knowledge and 
fear.'' What specifically is the administration doing to deal 
with that? I heard what you said regarding the three agencies 
and I suspect all three are dealing with the underpinning of 
misinformation and knowledge and fear. But specifically, how do 
you get--specifically how do you get underneath that, and then 
tie that to the international scope of this.
    Mr. Sandalow. Our work in this area, Mr. Chairman, cuts 
across all levels within the Government from the President on 
down. The President has spoken to this issue publicly. He has 
spoken to this issue in his private diplomacy as well. This is 
an area where the Department of State has been working 
energetically.
    In January, just as one example, there was a major 
conference held in The Hague, I believe, in The Netherlands on 
this topic, gathering together opinion leaders and experts from 
around Europe to try to seek a rational dialog on the topic of 
biotechnology on the Continent, where that has been very 
challenging. Around the developing world, our embassies have 
been doing this same type of activity, working with opinion 
leaders actively to try to generate greater understanding of 
this topic.
    Another important element of our work is scientific 
cooperation. We have done that diplomatically through the 
Department of State as well as through USDA and elsewhere. This 
is a big project and it is a long-term project. I think it is 
imperative that we approach this on a bipartisan basis and that 
we work together with the rest of the world to have reasoned 
and sound dialog on this topic.
    I think we have a real opportunity in this country. It is 
an opportunity to have a more reasoned and rational debate than 
has occurred elsewhere. I welcome this hearing, Mr. Chairman, 
as part of that process and I hope that we can spread the 
message around the world.
    Senator Hagel. What role, if any, does the EPA play in 
this?
    Mr. Sandalow. EPA has an important regulatory function, 
particularly on some of the pesticide issues related to 
agricultural biotechnology. I am not aware of specific efforts 
with respect to EPA's activities in the developing world, but 
would be happy to ask them and submit that information for the 
record, Mr. Chairman.
    Senator Hagel. Thank you.
    [The following response was subsequently supplied:]

                   Response of Hon. David B. Sandalow

    I am informed that EPA does not have a specific program regarding 
biotechnology in developing countries, although it has assisted 
developing countries in the creation of effective domestic regulations 
on certain products of biotechnology.

    Senator Hagel. I suspect you have had an opportunity to at 
least see the Washington Post story yesterday that I referred 
to in my comments. I do not know how deeply you have gotten 
into the report and what the National Academy of Science has 
said, but I would be interested in your reflection on what that 
story was about and the potential of what the National Academy 
of Sciences, along with its brother and sister agencies from 
other countries, had to say.
    Mr. Sandalow. I have had a chance to look at the report 
quickly and I think the report emphasizes the important 
opportunities in biotechnology in the developing world. Its 
conclusions, which are stated right up front, emphasize that 
biotechnology can make a big difference and that we need to 
pursue biotechnology in the developing world. I think it is 
particularly important that this report comes not just from the 
American National Academy of Sciences, which is of course an 
esteemed body, but also from national academies from about six 
or seven other countries, including developing countries. So it 
represents a broad-based consensus on this important topic.
    Some of the issues in the article you referred to are 
important. They are ones that need to be addressed. The 
intellectual property issues in particular are ones that are 
going to have to be worked on over time. But I have not had the 
chance to review the report closely or to gather together my 
colleagues in the government to do a more comprehensive 
assessment. But based upon a quick review of the report itself, 
I think it sends a very strong message that this is a 
technology with tremendous potential that we should be working 
to pursue in the years ahead.
    Senator Hagel. What can we do that we are not now doing to 
harness the resources of both government and the private sector 
to work more closely together on this issue?
    Mr. Sandalow. I think I said this a moment ago, but perhaps 
the most important piece is having rational, reasoned 
discussions like the one we are having right now. I think 
another important piece, Mr. Chairman, is passing Senator 
Ashcroft's very important piece of legislation once we have had 
our technical discussions on them. I think that type of effort 
can really help in the developing world.
    Fully funding the President's international affairs budget 
would help as well. It would help us get the message out around 
the world. There is a variety of activities we can do that can 
make a difference, Senator.
    Senator Hagel. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. Just 
following along your line of questioning, I was intrigued by 
your written testimony, Secretary Sandalow, on how the United 
States is addressing the issue. You have pointed out the money 
is being spent by USAID, by USDA, and the trade agencies having 
an interest in this.
    I suppose the question that keeps coming back to me, 
however, is how the administration is coordinating an effective 
strategy, given all of these disparate elements. Harking back 
to the Agriculture Committee experience, we had USDA, EPA, FDA 
sort of shoulder to shoulder at the table, because these are 
all elements trying to think through both the production, the 
safety, and the trade aspects, and to testify on the efficacy 
of biotech, which they all did and it was helpful.
    Interestingly enough, industry people who were witnesses 
that day wanted to do more. This is almost counterintuitive, 
that people who feel they are often overregulated on this 
occasion want government officials who were giving testimony 
perceived as credible on the basis of their scientific studies, 
the hundreds of hearings, regulatory tests, and what have you, 
to do more in safe and healthy.
    Now, the point was made that other countries do not have an 
FDA, or may have something equivalent to an EPA, but they may 
or may not. There may not have, in other words, credible 
government agencies, officials, or inspections, so that myths 
can abide for a long time. There may be no touchstone with a 
degree of credibility in the government.
    Now, our problem it seems to me is huge in this respect, 
and I do not fault this administration or anybody else. I am 
just trying to think it through. Who is to be the spear-carrier 
for all of this? For example, the Secretary of State may visit 
with her counterpart, Mr. Fischer in Germany, and talk about 
this, and he is very knowledgeable about the issue. Likewise, 
Charlene Barshefsky with the trade people. Secretary Glickman 
routinely goes to Europe to talk about this to the EU people.
    I would say they have made virtually no headway. When I 
follow along in a much more modest way and talk to the same 
people, not only has the ball not moved, but the so-called 
Montreal Protocol adopted last year made it virtually 
impossible for the United States even to export a bushel of 
seed corn. We have had protectionist problems with Europe for a 
long time with regard to corn generally. But in the past, we 
exported a few bushels of seed corn and, given the warning and 
efficacy labels and so forth, they can keep that at the dock 
here.
    So we are dead in the water. Some would say, well, you 
cannot mix together foreign policy problems, science problems, 
economic problems. These all ought to be conveniently 
separated. Certainly you would not ever want to mention NATO 
and anything we do with European countries that has to do with 
security and sort of fundamental relationships with Europe.
    But at some level somebody has to do this. I am just 
thinking aloud with you, but I wonder in the administration 
have people tried to think this problem through, despite the 
fact that you are doing some good things with a little money 
here, a little money there, a dab of this or that? The fact is 
after the Seattle events or the events here in Washington at 
the time of the IMF and the World Bank meetings, there are a 
great number of people in the streets that do not like this 
subject at all. As a matter of fact they are a rather volatile 
demonstration of what appears in much more gentile language in 
the New York Times ad.
    I saw one ad, for example, in February. It was the sixth of 
a series. I had missed the first five. It suggested seriously 
that agriculture, food and safety have gotten out of hand in 
this world; we would be better off, rather than having 100-acre 
farms, to have 30-acre farms, to deliver food to the doorstep, 
to get rid of all chemicals, to get rid of all exports and, 
therefore, end the spread of difficulties that might come from 
whatever experiments we have been doing.
    This is being seriously argued with a whole host of 
foundations and very reputable Americans signing their names to 
this. This is serious. This is in our own country. This is not 
the Europeans, whether they are theologically disposed or 
simply protectionist, or Third World countries saying you have 
left us behind, you have been so worried about your own 
commerce and your own profits that you really did not think 
about us at all, and therefore we really want some attention.
    This is, I think, a very big issue, which is being met I 
think superficially. What has happened in the administration? 
What sort of talks have you had with Secretary Albright or 
Secretary Glickman or Ms. Barshefsky or the President or 
anybody to address this issue. If allowed to continue, it could 
have debilitating effects not only on our trade with Europe, 
but on the feelings of many Americans toward Europeans, many of 
them my constituents, who as a matter of fact are more worried 
right now about the fact that there is no trade in beans and in 
corn than they are with whether NATO subsists or survives. They 
have changed their focus, and this is a serious issue.
    Mr. Sandalow. Thank you, Senator. You made a comment that I 
want to be sure to highlight because it is so important. You 
noted that there are many countries that do not have food 
regulatory agencies that have the public confidence that our 
FDA has here in the United States and that that plays a role in 
this issue. From my travels in Europe, I would underscore that 
that is a central factor in the issue of biotechnology in 
Europe.
    Unfortunately for American farmers, unfortunately for 
Europeans, I believe unfortunately for the rest of the world, 
in Europe this issue has gotten caught up in an entirely 
unrelated set of issues involving food safety, and that is 
unfortunate. It is something that we are working on on a hard 
and sustained basis.
    You asked about coordination and I want to strongly agree 
with and underline the premise of your question, which is that 
this is a remarkably cross-cutting issue, the issue of 
biotechnology. And I think that is in part because 
biotechnology has so many potential impacts across so many 
corners of our lives. Biotechnology can help improve crop 
productivity, biotechnology can help with medicine, 
biotechnology has trade impacts, biotechnology raises issues 
domestically, biotechnology raises foreign policy issues.
    As a result of that, we find biotech issues arising across 
the Government. As a result of that fact, the White House has 
pulled together a team which is helping to coordinate that and 
the different policy councils in the White House coordinate 
work on this issue as they do work on other issues. That is one 
of their classic functions. It is critically important that 
they do that.
    You asked about Secretary Albright and the President's 
activities. I have had the privilege to talk to each of them on 
this topic. Secretary Albright, most recently has been deeply 
engaged on this topic, and has hosted lunches. The State 
Department makes this a regular part of her diplomacy and a 
priority, I might say.
    In closing, Senator Lugar, you mentioned the so-called 
Biosafety Protocol that was adopted up in Montreal. That is not 
the topic of this hearing, but I would ask you just to keep an 
open mind on this agreement and I would like to make two points 
about it. It has, first, an unambiguous savings clause with 
respect to the World Trade Organization, so nothing in that 
agreement will in any way compromise any trade rights that we 
have.
    Second, I believe it is an important part of the long-term 
confidence-building around the world about biosafety. In the 
long run this issue is not solved by only opening markets. This 
issue is only solved when markets are open and there is public 
acceptance of this product around the world, and part of the 
public acceptance process I think is this type of international 
regulatory structure.
    Senator Lugar. Thank you.
    Senator Hagel. Senator Lugar, thank you.
    We have been joined by the distinguished senior Senator 
from Missouri, Senator Bond. I think on our second panel you 
are going to introduce Dr. Beachy, and if it is appropriate I 
am going to ask your friend and colleague Senator Ashcroft to 
go ahead and present his questions to Secretary Sandalow. Nice 
to have you with us.
    Senator Bond. I appreciate being invited as an officious 
intermeddler and I am delighted to be here and follow something 
on which I have been working. I just want to compliment the 
Assistant Secretary on the work that has been going on. We were 
in Thailand earlier this year and one of the key concerns there 
was making sure that the people of Thailand had the ability to 
assure for themselves that the food was safe. We have asked the 
very fine Ambassador, Ambassador Richard Hechlinger, to work 
with you to build the capacity in Thailand so Thailand's 
scientists can assure the people of Thailand that the food is 
safe. Very exciting, and I will talk more later.
    Thank you, Mr. Chairman.
    Mr. Sandalow. Thank you, Senator.
    Senator Hagel. Senator Bond, thank you. You always bring a 
certain amount of stature with you and we are grateful for that 
at this humble committee.
    Senator Ashcroft.
    Senator Ashcroft. Thank you, Mr. Chairman. I would 
stipulate that it is a high degree of stature.
    May I inquire--Secretary Sandalow mentioned the item from 
the Washington Post and you had mentioned it earlier. I think 
we were all focused on that. Has anyone submitted that for the 
record?
    Senator Hagel. I think you are doing so and it will be 
included.
    [The Washington Post article follows:]

           [From the Washington Post, Tuesday, July 11, 2000]

           Report Says Biotech Fails To Help Neediest Farmers

panel calls for allowing seed saving, other steps to eliminate barriers 
                         to technology sharing

                           (By Marc Kaufman)

    Commercial considerations are keeping advances in biotechnology 
from the poor farmers in developing countries who need them the most, 
according to a joint report, by the National Academy of Sciences and 
seven other academies around the world.
    In addition, contentious issues regarding who owns modified plant 
genes, and whether biotech seeds can be re-used, are slowing the 
process of making genetically improved forms of staples such as rice, 
and cassava available to the 800 million people worldwide who don't 
have enough to eat, according to the report.
    ``This is a situation where major change and a lot more energy are 
needed,'' said president Alberts, of the U.S. Academy. ``The new plant 
technologies are not being used in many parts of the developing world 
where the needs are greatest.''
    The ``white paper''--prepared by a working group from the academy, 
the Royal Society of London, the national academies of science of 
Brazil, China, India, Mexico and the Third World Academy of Sciences--
will be released today, in London. The report generally embraces 
biotechnology and rues the ``backlash'' against the technology in 
Europe and elsewhere. Without gene modification technnology, the report 
concludes, it will be impossible to feed the world's poor in the future 
without destroying the environment.
    But so far, most genetically modified crops have been grown in 
North America and other developed areas where private companies selling 
high-tech, high-yield seeds can earn profits, but where widespread 
hunger is not a problem.
    To change that dynamic, the report strongly encourages private 
corporations to share their technologies with scientists and farmers in 
developing countries. It specifically calls for loosening some patent 
and intellectual property restrictions, and for farmers in developing 
nations to be allowed to re-use biotech seeds--a practice that is 
sometimes forbidden now.
    And the report calls on wealthy nations to substantially increase 
funding to the Consultative Group for International Agricultural 
Research, a World Bank-sponsored group that supports 16 international 
agricultural research centers that have been losing financial aid 
steadily for years. While the ``Green Revolution'' that increased crop 
yields greatly in the postwar period was largely engineered by the 
public sector, most agricultural biotechnology today is funded and 
controlled by private companies.
    ``I think the [biotech] companies are ready to share some 
technologies as long, as it doesn't backfire on them commercially,'' 
said Alberts. ``They are suffering from public pressure now and want to 
do some things that are a public service.''
    Val Giddings, vice president of the Biotechnology Industry 
Organization, which represents 900 companies and academic centers, 
agreed that ``the technology is not being used as it could and should 
be, and that's a very real problem.''
    But he said it is ``not fair to look to the private sector to solve 
problems, of international assistance'' and that governments need to 
increase their own funding of agricultural biotechnology. He said that 
many international biotech sharing programs are already underway, 
including some involving ``golden'' rice high in vitamin A, and virus-
resistant papaya and sweet potatoes.
    Regarding the intellectual property issues that the report 
stresses, Giddings said they were a ``red herring'' that has generated 
much theoretical concern but little on-the-ground difficulty ``The 
argument that they present some kind of barrier has been way 
overblown,'' he said.
    Scientists now routinely splice genes from different species into 
crops to help them grow faster and ward off pests and diseases. These 
engineered crops at first were embraced by U.S. farmers, who planted 
them on 70 million acres in 1999.
    But the crops have also become increasingly controversial, 
especially in Europe. Opponents fear crops that produce their own 
pesticides might cause insects to become more resistant, creating a 
need for more or stronger chemicals in the future. One recent study 
suggested that such crops could kill Monarch butterflies. To address 
enviromnental and public health concerns, the report said that every 
nation should have a regulatory system in place to watch for any 
adverse effects.
    The European concerns are definitely effecting the spread of 
biotechnology to the developing world, Alberts said. European 
Governments have been generous donors to international agricultural 
research programs, but they have grown reluctant to finance 
biotechnology projects they would not undertake themselves.
    According to the report, researchers are working on new crops 
useful to developing nations, including salt-resistant corn modified 
with a gene from mangrove trees, potatoes and bananas produced with 
vaccines against infectious diseases, and a variety of dwarf crops that 
increase the edible parts of plants while reducing the vegetative 
parts.
    The U.S. National Academy of Sciences is a private, nonprofit 
organization chartered by Congress with a mandate to advise the federal 
government on scientific and technical issues.

    Senator Ashcroft. I am grateful to Ambassador Young for 
having brought me a copy, although all of us have been focused 
on this. I am very pleased to see this kind of reporting. It is 
of note that this is not just from seven different countries. 
There are seven other academies, including the Third World 
Academy of Sciences, which I think helps us a lot.
    Let me thank Secretary Sandalow for appearing before the 
committee. As an individual that has been a proponent for 
biotech issues for the administration, you are very aware of 
the need to help developing countries set up science-based 
regulatory systems and obtain adequate education on the uses 
and potential of biotechnology. I do believe your statement, 
that it is important for us to have discussions that are 
science-based and that emphasize the rational, and to have 
opportunities such as the one you described with the USAID, 
Monsanto, and Kenya relating to the consortium to develop 
disease-resistant sweet potatoes.
    It seems to me that those are the kinds of--are likely to 
create the stubborn facts that will be the friends of hungry 
people, of people who need help. I thank you for that.
    I once, not long ago, had a meeting with a delegation from 
Nigeria. I met with the Nigerian Ambassador, Ambassador Aminu, 
the Federal Minister of Science and Technology, and the Senate 
chairman of Commerce, Science, and Technology Committee, and 
their main point was yield. They said that enhanced crop yields 
resulting from the use of agricultural biotechnology could help 
feed a growing population and bolster economic development that 
is so very promising.
    They also recognized that bio-enhanced foods could assist 
in combating diseases specific to developing countries. I am 
very pleased with that.
    I want to thank you very much for your statements about S. 
2106. You joined the Nigerian delegation in saying that they 
welcome a science-based approach and that we should encourage 
science-based approaches in developing countries. I appreciate 
the administration's strong endorsement of the measure. We look 
forward to working toward its implementation as quickly as 
possible.
    I would just like to say that if you could comment on what 
you think would--how this would likely be implemented, comment 
on the goals to encourage more educational and technical 
assistance to developing countries on genetically enhanced 
sustainable agriculture, and particularly I would suggest that 
I would like to work as expeditiously as possible. I would like 
to try and work to get something done this year. Do you feel 
like a timeframe that includes our efforts this year is within 
the expectation of the administration?
    Mr. Sandalow. Thank you, Senator. I hope so. The need is so 
great, the opportunities for implementation are enormous. They 
would include working in developing countries with experts on 
the ground. They would include scientific cooperation. They 
would include funding for additional research, the building of 
regulatory programs. The list is lengthy, and I hope this is 
something that we can work together on very, very quickly.
    Senator Ashcroft. One other insight, and I do not mean to 
consume all my time. You said that we have a greater 
opportunity for a reasoned understanding of this issue than has 
been made in other settings. This is certainly a place where we 
must have reason to prevail. So not only should we have these 
discussions here, but I think the legislation is designed to go 
to those other settings and provide a reasonable and rational 
scientific base.
    I think what we have seen is, in the absence of science-
based reasons, these other discussions fill what otherwise 
would be a void, and the light of the truth and the light of 
fact and reason and science must dispel an environment which 
allows the panic and unreasonable to be propagated.
    So I thank you very much.
    Mr. Chairman, I am deeply grateful for your willingness to 
participate in this issue in this way. I do not want to 
underestimate it. This really is not about science; this is 
about human beings who are suffering because we have not had an 
adequate understanding of science. The real bottom line here 
are countries and communities and families and individual human 
beings who are in serious difficulty, absent health, absent 
nutrition. And we can help correct this by just making sure 
that the truth of reason and science is the basis for 
decisionmaking.
    Thank you very much.
    [A press release from Senator Ashcroft follows:]

                       [Wednesday, July 12, 2000]

                press release from senator john ashcroft

 State Department Endorses Ashcroft Bill To Expand Food Production in 
                           Developing Nations

State Department, Ambassador Young, Danforth Center's Dr. Beachy 
Testify about Importance of Ashcroft Legislation

    Washington, DC.--U.S. Senator John Ashcroft's efforts to help 
developing nations expand food production and combat global hunger 
today won the endorsement of the U.S. State Department.
    Testifying in Congress today, David Sandalow, Assistant Secretary 
of State for Oceans and International Environmental and Scientific 
Affairs, announced the Administration's strong support for legislation 
sponsored by Ashcroft. Ashcroft's bill will encourage developing 
nations to make appropriate use of American biotechnology products, a 
field in which Missouri-based Monsanto is a world leader.
    Ashcroft, a member of the Senate Foreign Relations Committee, said: 
``U.S. agriculture biotechnology holds the prospect for substantial 
benefits to the world in a number of critical areas. Enhanced crop 
yields resulting from the use of agricultural biotechnology will help 
feed a growing global population and help fight world hunger. Healthier 
bio-enhanced foods also will assist in combating diseases specific to 
the developing world that arise from vitamin and other nutritional 
deficiencies. I'm pleased that the Administration is behind our efforts 
to help developing nations see the benefits of biotech.''
    The Ashcroft-sponsored ``Advancing the Global Opportunities for 
Biotechnology in Agriculture Act'' (S. 2106) assists developing 
countries in setting up regulatory systems to review the benefits and 
potential risks of genetically-enhanced agriculture. Such systems will 
allow third world countries to establish standards that judge new 
products based on objective scientific principles, and not on the 
protectionist approach of the European Union. To accomplish this, the 
Ashcroft bill sets aside $6 million (FY2001) in U.S. AID's budget for 
agricultural development.
    In addition to Sandalow, former UN Ambassador Andrew Young, now of 
GoodWorks International, and Dr. Roger Beachy of the Danforth Plant 
Science Center in St. Louis testified today before the Senate Foreign 
Relations Subcommittee on International Economic Policy, Export and 
Trade Promotion. Young has discussed with Ashcroft the need to assist 
African nations with biotech products to help combat debilitating 
illnesses such as river blindness and HIV/AIDS.
    Along with fighting world hunger and combating diseases, 
agriculture biotechnology in third world countries will have 
environmental benefits. Pest and disease resistant crops developed 
through biotech will reduce the need for herbicides and pesticides. 
Plus, greater agricultural yields will minimize the need for additional 
farmland to feed and clothe the world's growing population.
    The Senate Foreign Relations Committee in March approved the 
Ashcrofi bill as an amendment to the Technical Assistance, Trade 
Promotion, and Anti-Corruption Act (S. 2382), which has since been 
referred to the Senate Banking Committee.

    Senator Hagel. Senator Ashcroft, thank you.
    Unless any of my colleagues have further questions for 
Secretary Sandalow, we will allow you to escape with the caveat 
that we might have some additional questions for the record. 
Mr. Secretary, thank you.
    Mr. Sandalow. Thank you very much, Mr. Chairman.
    Senator Hagel. We appreciate your good work.
    If the second panel would come forward, we will get 
started. Thank you.
    Gentlemen, thank you and again welcome. We are grateful 
that you would take time to come up and share with us some of 
your thoughts. Ambassador Young, please proceed.

      STATEMENT OF HON. ANDREW YOUNG, CHAIRMAN, GOODWORKS 
                   INTERNATIONAL, ATLANTA, GA

    Ambassador Young. Mr. Chairman, I am really grateful for 
your invitation to convene these hearings and to this 
distinguished committee. I come not as a scientist or a 
technology expert. I am basically a preacher, and I hope you 
will forgive me if I try to put this in the kind of context 
that I think I see evidence of already in this hearing.
    Our mandate is to feed the hungry, clothe the naked, heal 
the sick. As I tried to do that, I ended up in first civil 
rights, then in politics, only to realize that when I was in 
Congress we were very short of money. So that when I went to be 
mayor of a city I realized that the private sector was the 
source of much of the money, much of the technology, and that 
only by working together, the nongovernmental agencies, the 
political process, and the private sector, could we really make 
any headway.
    We have had a tremendous success of that. In the South 
dealing with civil rights, it was the business community long 
before the government that was responsive, and religious 
nongovernmental agencies far more sensitive. I end up applying 
the same social strategy to dealing with the problems of the 
developing world. I read that there is a crisis brought on 
essentially by the health of the African Continent, and we tend 
to be somewhat removed from that. Last Christmas the Minister 
of Health from Senegal came by to visit me in Atlanta and asked 
for help. I said: I do not know what I can do, but if you have 
a few of the Ministers of Health from African countries that 
would like to come visit with us in Atlanta, we can probably 
host you and get the Center for Disease Control and some others 
to sit with you.
    We ended up with 32 Ministers of Health from the African 
Continent coming, and we ended up as we sent out invitations, 
we got responses not only from the governmental agencies 
dealing with health and nutrition and CARE and the Red Cross 
and the Carter Center, but we also got a very good response 
from the corporations that are involved on the African 
Continent.
    One of the reasons was that poverty, nutrition, disease are 
becoming increasingly workplace security issues. So we have 
found that with some of these ad hoc coalitions, including 
particularly the biotechnology area, that we have American 
businesses, American universities, American religious 
institutions, trying things together.
    There are no guarantees, but it was a situation of 
desperation. So the missionaries from Church World Service came 
and said they had discovered a tree that was indigenous to the 
African Continent--they happened to be located there in 
Elkhart, Indiana, Senator--and that this tree has amazing 
properties of iron and vitamin A and C. So they are planting 
tree forests and planting trees near people's homes, where they 
might use these leaves and the roots and the flowers in their 
diet.
    The representative from Monsanto, I think it was, came from 
Johns Hopkins and said that one tablet of vitamin A would 
probably cut the death rate of malaria by 30 percent. So that 
the efforts to put vitamin A into rice or into cassava or into 
corn become both nutritional and medical. We found that African 
Ministers of Health and their science and technology divisions 
were very interested in being involved and getting some of 
their scientists involved in looking at things that they can do 
with their crops and looking for our help.
    We also found that the disease factors could be a national 
security issue, that much of our oil security now is, our 
backup is West Africa, from Nigeria down to Angola. Ninety 
percent of the workers in those oil fields are Africans, are 
trained by mostly American and British and French companies. 
They are not immune to the diseases of the region. But if you 
think of the economic problem that oil companies that are 90 
percent indigenous Africans with the other 10 percent coming 
from my home State of Louisiana and East Texas, down in the 
Gulf, that if they had to bring another 10 percent of the work 
force from the United States what would it do to the price of 
oil?
    The American companies that are involved on the African 
Continent in development with some success all see a pending 
crisis and are beginning to work together in some ways to 
address the questions of disease. But in the absence of a cure, 
what can you do to keep people healthy? We have found that 
nutrition is secondary prevention in AIDS, that when you are 
involving people who are HIV-positive in good nutrition, even 
when there is not yet a cure, it makes them responsible for 
their disease, it encourages them, it involves them in units 
not unlike our experience with Alcoholics Anonymous, where 
people who are victims of a disease, instead of giving in in 
despair, decide to take on the challenge of preventing the 
disease in others.
    So that creating that kind of consortium between our 
scientists, our churches, our universities, and our politics is 
one of the things that we have been engaged in at GoodWorks. We 
do not have any results to report, except that everybody is 
interested and anywhere we get together to try anything almost, 
it works, in terms of the kinds of crops that we have been 
experimenting with.
    Before the awful war between Ethiopia and Eritrea I was 
there and, in spite of the fact that the Ethiopians were 
leading the assault on biotechnology in the Montreal Protocol, 
there were 11 million farm families that had been organized by 
Norman Borlaug and Jimmy Carter and the Ethiopian Government. 
Agriculture in Ethiopia was largely involving genetically 
enhanced seeds and crops and doing it quite successfully.
    So that we have in the real world people dealing with real 
problems coming together, trying to find something that could 
work, that works, in a sense of desperation. On the other side, 
I think there are theoretical fears and hearings like this I 
think come together and help us have some clarification of 
those.
    [The prepared statement of Ambassador Young follows:]

                Prepared Statement of Hon. Andrew Young

    Good afternoon. First, let me thank Senator Chuck Hagel and members 
of the Senate Foreign Relations Subcommittee on International Economic 
Policy, Export and Trade Promotion for inviting me here today to speak 
about the role of biotechnology in combating poverty and hunger in the 
developing world.
    I am not here as a scientist, a technology expert or a farmer, but 
as a concerned citizen who has spent a great deal of his life devoted 
to work in Africa. As the world population continues to increase and 
infectious diseases pose a growing threat to Africa and other 
developing nations, I believe that we in the industrialized world have 
a responsibility to help. We have a responsibility to harness all the 
tools and resources that modern technology can offer to combat the 
plight of the world's hungry and sick populations--for their sake and 
for the sake of global stability.
    I am sure that most of you here read some or all of last week's 
Washington Post series on HIV/AIDS in Africa. By any account, the 
figures are shocking, and a solution to this pandemic seems a distant 
reality.
    Of the more than 34 million people in the world living with HIV/
AIDS, almost 25 million are in sub-Saharan Africa--that is almost 74% 
of the global HIV/AIDS population. To-date, Africa has suffered 83 
percent of all deaths due to HIV/AIDS, and is subject to nine out of 
ten new infections.\1\ What does this mean in terms of practical 
realities? It means that every day in sub-Saharan Africa, 5,500 people 
die from the AIDS virus.\2\ It means that health care costs for AIDS in 
struggling democracies are consuming budgets that could otherwise be 
used for preventative care, or to combat other curable illnesses and 
disease. It also means that food security in these countries is further 
threatened as adults fall sick and die--resulting in a decline in 
agricultural productivity due to the loss of farm labor.
---------------------------------------------------------------------------
    \1\ Food and Agriculture Organization of the United Nations.
    \2\ The Washington Post, July 5, 2000.
---------------------------------------------------------------------------
    In Nigeria, for example, President Obasanjo is fighting for 
democratic reform after years of military dictatorship. But the country 
he has been elected to lead includes 2.7 million people infected with 
the AIDS virus. Likewise, South Africa is home to 4.2 million people 
with HIV/AIDS--more than any other nation in the world.\3\ The impact 
of this disease on the most productive segments of these societies, 
many of whom are largely engaged in agriculture and represent the 
mainstay of many African economies, requires further attention and 
consideration. Thus, in addition to preventing the spread of the 
disease and caring for those already infected, African leaders must 
rapidly look past conventional approaches to agriculture, which may 
soon become obsolete in the face of declining rural populations.
---------------------------------------------------------------------------
    \3\ UNAIDS Region Fact Sheet 2000.
---------------------------------------------------------------------------
    Why has this pandemic exacted such a high toll in Africa and other 
developing countries? Much of it is related to poverty, the primary 
threat to development. It makes people more vulnerable to infectious 
disease through malnutrition, family break-ups, and homelessness--all 
of which are high-risk factors. Furthermore, when you are struggling 
with daily survival, your immune system is weakened, access to medical 
care is scarce, and education and awareness are low.
    Clearly, poverty, malnutrition and disease go hand-in-hand. Poverty 
remains the root cause of hunger and malnutrition throughout the 
developing world. For example, in sub-Saharan Africa--one of the 
world's poorest regions--nearly one-third of all children are 
malnourished and about 20% of women are underweight.\4\ A dangerous 
consequence of malnutrition is that it weakens the immune system and 
leaves populations more susceptible to infectious diseases, such as 
HIV/AIDS, malaria, and other forms of illness. Without access to 
nutritious foods and much-needed cash crops, Africa has little hope of 
battling the poverty and malnutrition fueling the spread of HIV/AIDS 
throughout the continent.
---------------------------------------------------------------------------
    \4\ UNICEF, 1998 State of the World's Children.
---------------------------------------------------------------------------
    Now let me get to the point of this testimony--the role of 
biotechnology in combating hunger, poverty and disease in the 
developing world. At hand is the question of how new technologies can 
empower Africa and other developing countries to engage in sustainable 
agricultural practices that will feed their growing populations, while 
also helping protect against disease.
    I contend that the answer to this question requires a three-fold 
approach: (1) improving agricultural production, resulting in higher 
yields of food and cash crops; (2) enhancing the nutritional content of 
staple foods; and (3) introducing new pharmaceutical products, such as 
oral vaccines, to developing nations. Biotechnology can make a critical 
difference for developing nations in all of these areas.
    It is indisputable that steps must be taken to improve agricultural 
production in the developing world. As populations in the world's 
poorest regions continue to grow by nearly 90 million per year, the 
International Food Policy Research Institute estimates that farmers 
will have to produce 40% more grain globally by 2020 to keep up with 
rising food demands. Furthermore, the United Nations predicts that by 
2020 more than half the people in the developing world will live in 
cities. While today up to 80% of the people in sub-Saharan Africa and 
South Asia grow the food they eat, in 25 years, up to 60% of that food 
will have to be supplied through market channels.\5\
---------------------------------------------------------------------------
    \5\ Daleep Mukarji, Christian Aid.
---------------------------------------------------------------------------
    These truths come to us at a time when we are running out of new 
fertile lands to cultivate, and a history of poor farming practices 
have damaged arable lands in much of the developing world. We are also 
at a time in which staple crops are being decimated by viruses and 
pests before they can be harvested for hungry populations. Throughout 
Africa, for example, approximately 60% of the cassava crop--an 
important staple and source of calories--was lost to the cassava mosaic 
virus in 1998.\6\ In Kenya alone, it is estimated that 40%-60% of crop 
yields are lost to pests annually. And, as I mentioned earlier, 
countries stricken with AIDS are rapidly losing much of their rural 
farm labor--the backbone of traditional farming.
---------------------------------------------------------------------------
    \6\ Council for Biotechnology Information.
---------------------------------------------------------------------------
    Faced with these truths, the answer cannot be for farmers in the 
developing world to continue traditional practices, such as clear-
cutting temperate and tropical forests or boosting the use of chemicals 
which can contaminate groundwater supplies. The answer can be found in 
new technologies that increase crop productivity in the poorest 
countries by up to 25% without increasing labor, while also reducing 
the use of pesticides and insecticides. The answer can also be found in 
the development of new crops, which resist other natural challenges 
such as drought and changing weather patterns, or which offer novel 
nutritional benefits.
    Let me give you two examples of concrete successes in Africa of 
biotechnology applications that are already making improvements to 
agricultural production possible.

  <bullet> In the Makathini Flats area of KwaZulu Natal, South Africa, 
        the improvements to production by small landholders using a 
        genetically enhanced cotton variety have been significant, with 
        economic savings on average of $140 U.S. per hectare. Farmers 
        are capturing these savings by reducing agricultural inputs 
        such as pesticides, and through higher yields. As a result, the 
        adoption rate of this cotton variety among farmers growing on 
        just one to five hectares of land has increased dramatically--
        from 60 during the 1998-99 growing season to more than 600 
        during the 1999-2000 season.\7\ Enhancing production of such an 
        important cash crop helps alleviate poverty among these small 
        landholders, many of whom are women, which can be directly 
        linked to improved nutrition and a better quality of life for 
        the community.
---------------------------------------------------------------------------
    \7\ The Monsanto Company.

  <bullet> In Kenya, the Monsanto Company partnered with the Kenya 
        Agriculture Research Institute and the U.S. Agency for 
        International Development to develop genetically improved 
        varieties of sweet potato resistant to virus infections (these 
        viruses have traditionally destroyed 50%-80% of the continent's 
        sweet potato production). As a result of this collaborative 
        effort, a Kenyan variety of sweet potato was recently approved 
        by the Kenya Biosafety Committee for import, and field trials 
        will soon be underway to ensure that the new variety is 
        properly evaluated under local conditions and local 
---------------------------------------------------------------------------
        regulations.

    While improved agricultural production is essential to ensure an 
increased and sustainable source of food for the developing world, 
biotechnology also has the potential to make crops more nutritious. 
This is critically important when vitamin A deficiency affects 125 
million children globally, and causes irreversible eye damage in 14 
million children everyday.\8\
---------------------------------------------------------------------------
    \8\ Ismail Serageldin, CGIAR Vice President, The World Bank, March 
29, 2000.
---------------------------------------------------------------------------
    Many of you may already have heard about ``Golden Rice,'' a strain 
of rice that contains more iron and beta-carotene, a precursor of 
vitamin A. AstraZeneca, the maker of Golden Rice, has approached more 
than 80 developing nations across Asia, Africa and Latin America with 
regard to donations of the Golden Rice seeds, and has received a strong 
welcome for this new technology.\9\ For countries in which rice is a 
staple, families will have a source of vitamin A provided to them in 
their daily meals, which can reduce the staggering rate of river 
blindness among children, or the high-risk factors facing children of 
iron-deficient mothers, such as physical and mental retardation, 
premature births and infant mortality.
---------------------------------------------------------------------------
    \9\ Zeneca Ag Products.
---------------------------------------------------------------------------
    In the pipeline is technology to enrich African maize varieties 
with beta-carotene, much like the technology which has been 
successfully employed in the development of high beta-carotene canola 
and Golden Rice. Approaches such as these will enable African 
governments to employ food-based nutritional strategies which can help 
in the fight against infectious diseases such as AIDS and malaria, in 
addition the chronic problems of river blindness and malnutrition 
generally.
    One of the most amazing breakthroughs in biotechnology, though, is 
the oral vaccine, which will allow consumers in the developing world to 
become inoculated against deadly diseases through locally-grown food 
crops for a small fraction of the cost of traditional vaccines. For 
example, Professor Charles Arntzen of Cornell University is currently 
developing a hepatitis vaccine in bananas. Just imagine . . . bananas 
are foods that are eaten by infants and children, as well as adults. 
They can be eaten raw, and they are widely available throughout the 
developing world.
    If Dr. Arntzen's project is successful, the banana could deliver 
the vaccine at two cents a dose, compared to about $125 for a 
traditional vaccine injection.\10\ Right now, an estimated 300 million 
people globally carry the hepatitis virus and as many as one third of 
them will die from its effects within the year. Furthermore, by using 
biotechnology to develop edible vaccines, you bypass the needs for 
distribution, refrigeration, or the sterilization of needles that are 
ongoing hurdles to traditional vaccination programs in much of the 
developing world.
---------------------------------------------------------------------------
    \10\ Dr. Charles Arntzen, President, Boyce Thompson Institute for 
Plant Research.
---------------------------------------------------------------------------
    For those of us fortunate to live in the United States or Europe, 
it is difficult to comprehend the realities of daily life for the 
people of sub-Saharan Africa and other developing regions. While we 
grow an abundance of food for consumption and enjoy three meals a day, 
there are more than one billion who currently live on less than a 
dollar a day, and between two and three billion who live on less than 
two dollars a day.\11\
---------------------------------------------------------------------------
    \11\ Ismail Serageldin, CGIAR Vice President, The World Bank, March 
29, 2000.
---------------------------------------------------------------------------
    Poverty, malnutrition and disease go hand-in-hand, and we must 
fight it head-on with all the tools at our disposal.
    With 800 million people--mostly women and children--chronically 
malnourished,\12\ we have a responsibility to share technologies that 
will empower the small landholder to grow higher yields of more 
nutritious foods through sustainable practices. That is what 
biotechnology can offer, and that is the reality that we must embrace.
---------------------------------------------------------------------------
    \12\ Food and Agriculture Organization of the United Nations.
---------------------------------------------------------------------------
    Thank you.

    Senator Hagel. Mr. Ambassador, thank you, and we will come 
back around with a series of questions.
    Senator Bond.

   STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR FROM 
                            MISSOURI

    Senator Bond. Thank you, Mr. Chairman. Thank you first of 
all for holding this hearing, because I can think of no more 
important subject to deal with in this committee or in this 
body, in this Congress, than how we can do something that would 
be of significant assistance to the people in the developing 
parts of this world who live in grinding poverty, experience 
malnutrition, experience the impact of diseases, and a whole 
series of programs, problems, that are very difficult to deal 
with.
    I believe that biotechnology has, plant biotechnology, has 
the opportunity to do things. What Ambassador Young talked 
about really was laid out very well. I do not know if you all 
have looked at it, but I sat down and watched a four-part 
series by the BBC talking about biotechnology. It presented the 
negative side, the opposition on BBC, the opposition to plant 
biotechnology, people saying: We do not want to disrupt the 
lives of the indigenous farmers in Africa. And the camera crew 
went out to look at the farmers who were trying to eke out a 
subsistence living in Africa, one family where the grandchild 
had not eaten for 3 days, and they fed them before they could 
even interview them, and they showed the impact of diseases, of 
invasive weeds, the problems that they have with those crops.
    We know the statistics around the world, the tremendous 
number of people who are suffering from malnutrition, can be 
helped significantly, and the first and probably the most 
exciting one is the Golden Rice, the beta carotene-enriched 
rice which provides the vitamin A that can reduce significantly 
the five million deaths of infants from malnutrition, the half 
a million cases of blindness every year that are caused by 
malnutrition, lack of vitamin A in the diets.
    I always travel with a number of very thoughtful articles 
and, Mr. Chairman, one that is particularly compelling is from 
Progressive Farmer, written by our distinguished colleague from 
Indiana. I would offer these to see if you want to include 
these, and an article by former President Jimmy Carter, that I 
think outline some of the challenges and the tremendous 
opportunities that biotechnology offers.
    Senator Hagel. We will first check the authenticity of 
this, of course, with Chairman Lugar, but they will be included 
in the record.
    [The material referred to follows:]

              [From the Progressive Farmer/February 2000]

                     my thoughts--a page of opinion

                     Let's Not Ignore Sound Science

                     (By Senator Richard G. Lugar)

    Galileo, if he is looking down from the heavens as he once gazed up 
at them, must find the current public discussion of the emerging 
science of biotechnology uncomfortably familiar. Myth, rather than 
scientific fact, has come to predominate the debate.
    The European press refers to genetically engineered grains as 
``Frankenstein food,'' and respected research scientists are accused of 
``playing God.''
    Galileo's crime was that he challenged the popular but mistaken 
belief that Earth was the center of the universe. It was a myth firmly 
ingrained in the societal values and institutions of his time. 
Eventually and inevitably, Galileo's science triumphed over myth. It 
offered an incalculable benefit to society.
    I recently held two days of hearings of the Senate Committee on 
Agriculture, Nutrition and Forestry to begin sorting the facts about 
biotechnology from the myths.
    The testimony the committee received suggests, in sharp contrast to 
what has been written in the popular press in Europe, that 
biotechnology holds in its logic and ingenuity enormous potential to 
improve the human condition. Some of the country's leading scientists 
and the three federal agencies charged with the oversight of 
biotechnology spoke of the tremendous potential benefits that could 
result from the genetic engineering of crops.
    They detailed the approval and regulatory oversight processes, 
which evaluate new products in terms of food and environmental safety. 
They spoke of the hope that biotechnology offers to developing nations 
of the world.
    Dr. Bob Buchanan of the University of California-Berkeley believes 
the research he has been conducting could, in the not-too-distant 
future, result in nonallergenic forms of wheat. This could unburden 
millions of people who currently cannot eat this common food. Dr. Dean 
Della Penna of the University of Nevada-Reno is doing groundbreaking 
research on using bioengineering techniques to enhance basic foodstuffs 
with vitamins.
    Increased vitamin E in vegetable oil could potentially reduce the 
risk of heart disease or of certain cancers by significant amounts. 
Increased vitamin A in basic foods such as rice, corn and casava could 
help address serious diet deficiencies in the Third World that result 
annually in 500,000 children going irreparably blind.
    Witnesses also spoke of environmental benefits. Dr. Roger Beachy of 
the Danforth Plant Science Center in Missouri, told how insect-
resistant potatoes, cotton and corn are removing millions of pounds of 
chemical insecticides from the environment. Dr. Ray Bressan of Purdue 
University discussed his research on making crops more drought 
resistant, which would help prevent human incursion on marginal and 
environmentally sensitive lands.
    I only wish there had been greater media coverage of our hearings, 
because the public deserves to hear both sides and to understand the 
promise of biotechnology. The hallmark of a progressive society is the 
ability to engage in an informed, logical and balanced discussion. It 
has been written that the greatest enemy of the truth is not the 
intentional falsehood, but rather the pervasive and enduring myth.
    Myth has, heretofore, characterized the European debate over 
biotechnology, and we must take great care that it does not prevent a 
truly informed discussion here.

                                 ______
                                 

               [From the New York Times, August 26, 1998]

                  Who's Afraid of Genetic Engineering?

                      (By President Jimmy Carter)

    Atlanta.--Imagine a country placing such rigid restrictions on 
imports that people could not get vaccines and insulin. And imagine 
those same restrictions being placed on food products as well as on 
laundry detergent and paper.
    As far-fetched as it sounds, many developing countries and some 
industrialized ones may do just that early next year. They are being 
misled into thinking that genetically modified organisms, everything 
from seeds to livestock, and products made from them are potential 
threats to the public health and the environment.
    The new import proposals are being drafted under the auspices of 
the biodiversity treaty, an agreement signed by 168 nations at the 1992 
Earth Summit in Rio de Janeiro. The treaty's main goal is to protect 
plants and animals from extinction.
    In 1996, nations ratifying the treaty asked an ad hoc team to 
determine whether genetically modified organisms could threaten 
biodiversity. Under pressure from environmentalists, and with no-
supporting data, the team decided that any such organism could 
potentially eliminate native plants and animals.
    The team, whose members mainly come from environmental agencies in 
more than 100 different governments, should complete its work within 
six months and present its final recommendation to all the nations (the 
United States is not among them) that ratified the treaty. If approved, 
these regulations would be included in a binding international 
agreement early next year.
    But the team has exceeded its mandate. Instead of limiting the 
agreement to genetic modifications that might threaten biodiversity, 
the members are also pushing to regulate shipments of all genetically 
modified organisms and the products made from them.
    This means that grain, fresh produce, vaccines, medicines, 
breakfast cereals, wine, vitamins--the list is endless--would require 
written approval by the importing nation before they could leave the 
dock. This approval could take months. Meanwhile, barge costs would 
mount and vaccines and food would spoil.
    How could regulations intended to protect species and conserve 
their genes have gotten so far off track? The main cause is anti-
biotechnology environmental groups that exaggerate the risks of 
genetically modified organisms and ignore their benefits.
    Anti-biotechnology activists argue that genetic engineering is so 
new that its effects on the environment can't be predicted. This is 
misleading. In fact, for hundreds of years virtually all food has been 
improved genetically by plant breeders. Genetically altered 
antibiotics, vaccines and vitamins have improved our health, while 
enzyme-containing detergents and oil-eating bacteria have helped to 
protect the environment.
    In the past 40 years, farmers worldwide have genetically modified 
crops to be more nutritious as well as resistant to insects, diseases 
and herbicides. Scientific techniques developed in the 1980's and 
commonly referred to as genetic engineering allow us to give plants 
additional useful genes. Genetically engineered cotton, corn and 
soybean seeds became available in the United States in 1996, including 
those planted on my family farm. This growing season, more than one-
third of American soybeans and one-fourth of our corn will be 
genetically modified. The number of acres devoted to genetically 
engineered crops in Argentina, Canada, Mexico and Australia increased 
tenfold from 1996 to 1997.
    The risks of modern genetic engineering have been studied by 
technical experts at the National Academy of Sciences and World Bank. 
They concluded that we can predict the environmental effects by 
reviewing past experiences with those plants and animals produced 
through selective breeding. None of these products of selective 
breeding have harmed either the environment or biodiversity.
    And their benefits are legion. By increasing crop yields, 
genetically modified organisms reduce the constant need to clear more 
land for growing food. Seeds designed to resist drought and pests are 
especially useful in tropical countries, where crop losses are often 
severe. Already, scientists in industrialized nations are working with 
individuals in developing countries to increase yields of staple crops, 
to improve the quality of current exports and to diversify economies by 
creating exports like genetically improved palm oil, which may someday 
replace gasoline.
    Other genetically modified organisms covered by the proposed 
regulations are essential research tools in medical, agricultural and 
environmental science.
    If imports like these are regulated unnecessarily, the real losers 
will be the developing nations. Instead of reaping the benefits of 
decades of discovery and research, people from Africa and Southeast 
Asia will remain prisoners of outdated technology. Their countries 
could suffer greatly for years to come. It is crucial that they reject 
the propaganda of extremist groups before it is too late.

    Senator Bond. Let me make just a couple of comments about 
Roger Beachy. His record and his credentials and his works will 
speak for themselves, but I had the pleasure of traveling to 
Southeast Asia with Dr. Beachy, who is now heading our very 
promising Danforth Plant Science Center in St. Louis. When we 
were there it was obvious that we did not need to have a 
biographical sketch, because the scientific leaders in 
Singapore and in Bangkok knew of Dr. Beachy. He has already 
worked with them and trained many of the scientists. The hope 
and the promise that he brings, along with all of his 
colleagues in this field, are really very significant and 
exciting.
    I want to mention to my colleagues that, at my request, the 
Senate Foreign Operations Appropriations Subcommittee has 
included $30 million for funding biotech research and 
development initiatives to combat the maladies that plague the 
world--hunger, malnutrition, and drought. We specifically 
designated $5 million for the International Rice Research 
Institute in the Philippines to bring this development into 
full production. We put in, included a designation for 
University of California at Davis for control of parasitic 
weeds in Africa, to Tuskegee University to identify gene 
technology applications for combating hunger and malnutrition, 
the International Laboratory for Tropical Agriculture 
Biotechnology at the University of Missouri in St. Louis to 
work on diseases threatening rice, tomatoes, cassava, and a 
million dollars for the Danforth Plant Science Center to work 
with researchers from Thailand and elsewhere to help them 
develop genetically engineered products which can resist 
diseases.
    Dr. Beachy with his team have, I believe it was, tomatoes 
that could be resistant to the viruses destroying the crop in 
Thailand, and he has a tremendous story to tell. I believe that 
this technology is not recreational. It is to solve the world's 
health, humanitarian, environmental challenges.
    I thank this committee for holding the hearing and I am 
very proud to present a man who is well known throughout the 
world in plant biotechnology, Dr. Roger Beachy, to address the 
committee.
    Senator Hagel. Senator Bond, thank you.
    Dr. Beachy.

STATEMENT OF ROGER N. BEACHY, PH.D., DIRECTOR, DONALD DANFORTH 
              PLANT SCIENCE CENTER, ST. LOUIS, MO

    Dr. Beachy. That is a hard one to follow, Senator Bond. 
Thank you for the introduction.
    Senator Hagel, thank you for calling this subcommittee 
hearing and for allowing me to make a few remarks to Senator 
Lugar and Senator Ashcroft and others that are here today.
    The Danforth Center was established in 1998 and is 
formatted on the model of the great independent biomedical 
research institutions that have come to drive the biomedical 
research community. The Danforth Center is devoted to research 
in plant biology to improve human nutrition and sustainable 
agriculture production.
    In many ways the Danforth Plant Science Center is unique in 
its mission because it has dedicated 10 percent of resources as 
well as 10 percent of the physical facility to conduct research 
specifically related to the needs of agriculture in developing 
countries. This effort includes training scientists to increase 
intellectual and technical capabilities that are relevant to 
their home countries. Training is provided in plant science and 
biotechnology in areas which they request.
    I welcome the opportunity to present testimony on the 
importance of research in plant sciences, agriculture, food, 
and nutrition. In particular, my focus today will be on the 
areas related to the importance for the benefit of the poor and 
developing countries and as an essential step in the fight 
against hunger and disease.
    Few of us in this room will deny that there are tremendous 
needs around the world for adequate amounts of nutritious food. 
Adequate food and nutrition are essential to ensure the 
physical and intellectual growth and development of children 
that eventually lead to healthy and productive adults, as 
Ambassador Young has indicated. It is well known that 
malnutrition in utero leads to increased diabetes, 
hypertension, and heart disease. Malnutrition in utero can 
cause deleterious effects two generations subsequent to a 
poorly fed mother, with impacts on intelligence and on 
learning. Two generations. We must get started on addressing 
the needs.
    Low intake of calories leads to kwashiorkor, marasmus, 
edema, and other conditions. Vitamin A deficiencies have 
already been discussed today. Deficiencies in dietary folic 
acid, a B vitamin, leads to reduced intelligence because it is 
important for the development of neuronal cells.
    It is estimated that 850 million people currently are 
undernourished or malnourished in the world. Sixty percent of 
the undernourished are in marginal environments where intensive 
agriculture is not likely to be established or successful. The 
challenge is to meet the current needs. But, think of the needs 
that are in front of us for the eventuality of a world whose 
population may be as great as 9 billion in 2040. Yet, there is 
limited land on which to produce food without further 
destroying the important forest and wilderness areas that 
produce life-giving oxygen, that cleanse our air, to protect 
and sustain biodiversity, and assure that underground stores of 
water are sufficiently purified to be suitable for human 
consumption.
    Agriculture producers in the United States have a growing 
awareness of their duties as keepers of the environment. Many 
are actively reducing the use of harmful agrichemicals while 
maintaining highly efficient production of safe foods. Plant 
scientists and agriculturalists have developed better crops and 
improved production methods that have enabled farmers to reduce 
the use of insecticides and chemicals that control certain 
diseases. Methods such as integrated pest management and no-
till and low-till agriculture have been tremendously important 
in this regard.
    Some of the success has come through the judicious 
application of biotechnology to develop new crops that resist 
insects and can tolerate certain herbicides. You have heard of 
the work of biotechnology to develop cotton varieties and corn 
that resist the cotton boll worm and the corn borer. These 
varieties of crops have allowed farmers to reduce the use of 
chemical insecticides by between 1.5 and 2 million gallons 
since 1996 while retaining or increasing crop yields.
    Crops that tolerate certain friendly herbicides have 
increased no-till or low-till agriculture tremendously, saving 
valuable topsoil that we are going to rely on for the next 100 
years.
    Although biotechnology has increased productivity for 
American and Canadian farmers, the technologies are not widely 
available or more importantly are not adapted, for applications 
in parts of the world that could benefit the most. Those 
peoples who require more food and better nutrition are amongst 
those who are not seeing the rewards of scientific discovery. 
In Asia and Africa, where rice is the main food, stem borers 
and other insects and viruses and fungal diseases continue to 
suppress crop yields. Diseases caused by fungi and viruses 
decrease yields of crops such as groundnut, chickpeas, papaya, 
sweet potatoes, yams, cucumbers, melons.
    However, modern methods of crop improvement, coupled with 
better farming practices, can make a real and significant 
difference in crop production in all areas of the world. 
Biotechnology can be used to reduce crop losses due to disease, 
to insects, and post-harvest deterioration and rotting of 
foods. This is perhaps best demonstrated by several examples. 
Start with the virus that causes a severe disease in papaya, a 
ring spot disease. It reduces papaya production and kills trees 
in Asia and in parts of Latin America and in Africa. In 
northern Thailand papaya is a major staple vegetable, and is 
used in green salads. Consider the leaf curl disease of white 
potatoes in all producing areas, and the virus that causes 
yellowing of leaves in sweet potatoes throughout East and 
Central Africa. Consider the virus that causes stunting and 
yellowing in rice, a disease that is known as tungro, 
throughout Central Asia. Each of these important diseases can 
be controlled through biotechnology.
    Consider also the production of cotton in India, Pakistan, 
and Egypt and other countries where the boll worm and boll 
weevil can reduce yields and farmers' profits. We have learned 
that in some parts of India farmers commit suicide rather than 
face the consequences that come with financial losses that are 
caused by insect attack. When smallholder farmers in China and 
South Africa grew native cotton varieties that contain the B.t. 
gene for insect resistance that was introduced via 
biotechnology farmers realized between $150 and $200 per 
hectare increased profits. It is estimated that more than a 
million farmers in those two countries have benefited from the 
use of the B.t. gene in cotton. The increased profits come 
because the farmers did not need to purchase insecticides to 
control the pests.
    An important preliminary study that came out of China found 
that farmers that used fewer pesticides also had fewer medical 
problems and required fewer trips to doctors' offices--not 
often considered in the savings that biotechnology brings.
    Perhaps the most striking examples of biotechnology are yet 
to come. We have heard of the benefits of beta-carotene 
enriched rice. There is great hope and expectation that 
consumption of foods that have higher levels of vitamins, 
whether in improved canola oil or rice or other crops, will 
have the benefits that have been mentioned in various 
presentations today.
    Researchers have also developed foods that can deliver 
certain types of therapeutic substances, such as vaccines, that 
can stimulate the body's defense against diseases.
    During the past 20 years I have been privileged to 
participate in the development of knowledge that contributed to 
certain biotechnologies. In the early eighties my lab at 
Washington University in St. Louis, in collaboration with 
scientists at Monsanto Company, developed methods to produce 
virus-resistant crops. Later my labs at the Scripps Institute 
made relevant discoveries in gene regulation, disease 
resistance, and vaccine development.
    From the mid-1980's I made a committed effort to apply 
those technologies to improve agriculture for peoples in 
developing countries. The reasons I made that decision are 
several: First, there was a growing need to improve the 
efficiency of food production while decreasing reliance on 
agrichemicals worldwide
    Second, there was a need to increase the nutrition and 
healthiness of people around the world.
    Third, there was a great need for more well-trained 
scientists in developing countries to use modern methods to 
improve food production.
    All of us recognize that there are many challenges to the 
production, preservation, distribution of adequate foods of 
high nutrition. And science can only be part of the solution. 
Nevertheless, we determined to use our technology to benefit 
agriculture in Africa, Asia, and Latin America.
    In 1988, with a small grant from the Rockefeller Foundation 
and the agreement of the French Government's organization known 
as ORSTOM--now known as IRD--one of their scientists, Dr. 
Claude Fouquet, joined my group at Washington University. 
Fouquet had spent 13 years working in agriculture in Africa 
before coming to us. In 1991, Fouquet and I then established a 
program called the International Laboratory for Tropical 
Agriculture Biotechnology. Between 1991 and today we have 
trained more than 130 scientists from 19 countries. More than 
80 percent have been repatriated to their home institutions 
where they are working hard to develop indigenous science to 
apply to local crop production.
    The last thing I want to leave you with is my opinion that 
the United States has not kept apace with the rapid growth of 
science and technology that is needed to ensure its utility and 
its acceptance. We have not looked ahead to address the issues 
of acceptance of transgenic crops. Many of us in the scientific 
community stand ready to participate in whatever manner we can 
to provide the expertise and technologies necessary to improve 
food production, nutrition, and food safety, in developing 
countries. We are anxious to provide training environments, and 
to communicate electronically and otherwise, to send the 
information where it can be best used. In short, we want to be 
relevant to agriculture outside of the United States as well as 
to agriculture within the United States.
    What is in short supply--and we are very grateful to the 
efforts of Senator Ashcroft and Senator Bond in this regard--is 
a commitment from our Government to provide the training and 
modest infrastructure that allows scientists to create 
knowledge, and to develop crops that enable them to feed 
themselves. We cannot simply send the wheat from which those 
that are hugry can make bread. What we must do is create an 
atmosphere for collaboration, as opposed to colonialization, in 
science. We must work together to further the production of 
sufficient food of high nutritional content to meet the needs 
of those that request our help.
    Only when food needs are met will people be prepared to 
face the health issues. Only then will vaccines be successful 
and anti-HIV drugs and other pharmaceutical treatments reach 
their full potential. Make no mistake about it, food and 
nutrition are absolute keys to health, productivity, and social 
stability.
    It is not too late for the United States to recognize the 
issues and to chart the way to collaboration and to be the 
world leader in implementing important and meaningful solutions 
to the challenges of a growing world population.
    Again, thanks for your attention and your dedication to 
make this happen.
    [The prepared statement of Dr. Beachy follows:]

              Prepared Statement of Roger N. Beachy, Ph.D.

    Senator Hagel, members of the subcommittee, and others in 
attendance, thank you for the invitation to appear before the 
Subcommittee on International Economic Policy, Export and Trade 
Promotion. I am Roger N. Beachy, Ph.D., President of the Donald 
Danforth Plant Science Center, St. Louis, Missouri. The Danforth Center 
was established in 1998 as an independent, not for profit institution, 
formatted on the model of the great independent biomedical research 
institutes in the U.S. The goal of the Danforth Center is the discovery 
of new knowledge in plant biology and applications of that knowledge to 
develop more sustainable agriculture, to improve human nutrition and 
human health, and to encourage commercial development of research 
discoveries. In many ways the Danforth Center is unique in its mission, 
as it has dedicated 10% of its resources and facilities to conduct 
research specifically related to the needs of agriculture in developing 
countries. This effort includes training scientists in the development 
of intellectual and technical capacities that are relevant to their 
home countries in the areas of plant science and biotechnology. The 
website of the Center, www.danforthcenter.org provides current 
information about our charter and mission statement, and the status of 
current research faculty and research programs.
    I welcome the opportunity to present testimony on the importance of 
research on plant sciences, agriculture, food and nutrition. The 
particular focus of my remarks relates to the importance of research 
for the benefit of the poor in developing countries and as an essential 
step in fighting hunger and disease. Few of us deny that there are 
tremendous needs around the world for adequate amounts of food. 
Adequate food and nutrition are essential to ensure the physical and 
intellectual growth and development of children, and leading to healthy 
and productive adults. For example, it in known that:

  <bullet> Malnutrition in utero leads to increased diabetes, 
        hypertension, and heart disease.

  <bullet> Malnutrition in utero can cause effects two generations 
        subsequent to the mother, with probable impacts on intelligence 
        and learning.

  <bullet> Low calorie intake leads to kwashiorkor, marasmus, edema and 
        other conditions.

  <bullet> Vitamin A deficiencies can lead to blindness; Folic acid (a 
        B vitamin) deficiencies reduce intelligence.

    It is estimated that 850 million people currently are 
undernourished or malnourished worldwide. Seventy percent of the 
world's poor are in rural areas, 60% of which are in marginal 
environments where intensive agriculture is not likely to be 
established. The challenge is to meet the current needs, and to prepare 
for the eventuality that by 2040 the world's population will reach 9 
billion. Yet, there is limited land on which to produce food without 
further destroying the important forests and wilderness areas that 
produce life-giving oxygen, cleanse our air, protect and sustain 
biodiversity, and assure that groundwater enters the underground stores 
sufficiently purified to be suitable for human consumption.
    Agricultural producers in the U.S. have a growing awareness of 
their duties as keepers of the environment; many are actively reducing 
the use of harmful agrichemicals while maintaining highly efficient 
production of safe foods. Plant scientists and agriculturists have 
developed better crops and improved production methods that have 
enabled farmers to reduce insecticides and chemicals that control 
certain diseases. Methods such as integrated pest management, no-till 
or low-till agriculture have been tremendously important in this 
regard. Some of the success has come through the judicious application 
of biotechnology to develop new varieties of crops that resist insects 
and that tolerate certain herbicides. For example, biotechnology was 
used to develop varieties of cotton and corn that are resistant to 
attack by cotton bollworm and corn borer. These varieties have allowed 
farmers to reduce the use of chemical insecticides by between 1.5 and 2 
mil gallons, while retaining or increasing crop yields. Crops that are 
tolerant to certain ``friendly'' herbicides have increased no-till and 
low-till agriculture, reducing soil erosion and building valuable 
topsoil to ensure the continued productivity of our valuable 
agricultural lands.
    Although biotechnology has increased productivity for American and 
Canadian farmers, the technologies are not widely available or not 
adapted for application in parts of the world that could benefit most. 
Those peoples who most require more food and better nutrition are 
amongst those that are not seeing the rewards of scientific discovery. 
In Asia and Africa where rice is the main food, stem borers and other 
insects, and virus and fungal diseases continue to suppress crop 
yields. Diseases caused by fungi and viruses destroy crops and decrease 
yields of crops such as groundnut, chickpeas, papaya, sweet potato, 
yams, cucumbers, melons, and a host of other fruits and vegetables. 
However, modern methods of crop improvement, coupled with better 
farming practices, can make a real and significant difference in crop 
production in the tropical, poor regions of the world. Biotechnology 
can be used to reduce crop losses due to disease, insect attack, and 
post-harvest deterioration and rotting.
    This is best demonstrated by several examples. Consider the virus 
disease that causes a severe ringspot disease in papaya--the disease 
reduces papaya production and kills the trees in Asia, in parts of 
Latin America, and in Africa. Consider the virus leaf curl disease on 
white potatoes, the virus that causes leaf yellowing in sweet potatoes 
throughout each and central Africa. Consider the virus that causes 
stunting and yellowing in rice, a disease referred to as tungro, 
throughout central Asia. Each of these important diseases can be 
controlled through biotechnologies that increase the resistance of 
these plants to the viruses.
    Consider the production of cotton in India, Pakistan, Egypt and 
other countries wherethe boll worm, boll weevil and other insect pests 
can reduce yields and farmer profits, to the point where farmers in 
some parts of India commit suicide rather than face the effects that 
come with financial losses. When smallholder farmers in China and South 
Africa grew their native cotton varieties that contain the B.t. gene 
for insect resistance that was introduced by biotechnology, farmers 
realized between $150 and $200 per hectare increased profits. It is 
estimated that more that a million farmers (combined) in these two 
countries have benefited from insect resistant varieties of cotton. The 
increased profit came because the farmer did not need to purchase or 
apply insecticides to control the pests. A related study implies that 
farmers that used fewer pesticides also had fewer medical problems and 
required fewer trips to doctor's offices. These are real and tangible 
benefits of biotechnology.
    Perhaps the most striking examples of how biotechnology can improve 
human nutrition are found in rice varieties, and varieties of canola 
that have been improved by biotechnology to increase the amounts of 
beta-carotene. This precursor of Vitamin A is in short supply in diets 
in many parts of the world. There is great hope and expectation that 
consumption of foods from these crops will alleviate or reduce the 
chronic Vitamin A deficiencies in the diets of many of the poor in Asia 
and Africa. Other research is underway to use similar types of 
biotechnologies to increase the levels of other vitamins, and to 
improve the amount of proteins in crops that have low levels of 
protein, such as potatoes and cassava. Researchers are also developing 
foods that can deliver certain types of therapeutic substances, such as 
vaccines, that stimulate the body's defense against certain endemic 
diseases.
    During the past 20 years I have been privileged to participate in 
the development of knowledge that contributed to establishment of 
certain agricultural biotechnologies. For example, in the early 1980s 
my laboratory at Washington University in St. Louis, in collaboration 
with scientists at Monsanto Company, developed a method to produce 
plants that resist infection by certain types of virus diseases, using 
biotechnology. My labs at Washington University and later at The 
Scripps Research Institute (La Jolla, CA) also made relevant 
discoveries in the areas of gene regulation, disease resistance, and 
vaccine development.
    From the mid-1980s, when we made some of the early discoveries in 
biotechnology, I have made a committed effort to apply them to improve 
agriculture and human health of peoples in developing countries. The 
reasons for this decision are obvious: First, there is a growing need 
to improve the efficiency of food production worldwide, while 
decreasing reliance on agrichemicals. Second, there is a need to 
increase the nutrition and healthiness of peoples around the world. 
Third, there is a great need for more well trained scientists in 
developing countries that can develop and use modern methods to improve 
food production and quality in developing countries. All of us here 
recognize that there are many challenges to the production, 
preservation and distribution of adequate food of high nutrition, and 
to ensure food security for all peoples. Science can provide only part 
of the solution, but nevertheless, we determined to do what we could to 
address the needs of agriculture in Africa, Asia and Latin America.
    In 1988, with the aid of a small grant from the Rockefeller 
Foundation and the agreement of the French government's public research 
organization ORSTOM (now known as IRD) an ORSTOM scientist joined my 
group at Washington University and we initiated a research project on 
rice tungro virus disease. This project expanded to include developing 
efficient methods for transgenic rice, and methods for tissue culture 
and transformation in cassava, also known as manioc. In 1991 the 
project was relocated with me to The Scripps Research Institute. 
Through the increased support of ORSTOM, the Rockefeller Foundation and 
a modest amount of support from USAID provided via a project at 
Michigan State University we built a strong research group: it was 
designated the ``International Laboratory for Tropical Agricultural 
Biotechnology'' (ILTAB). ILTAB was relocated to the Danforth Center 
early in 1999. Between 1991 and today, ILTAB has trained more that 130 
scientists from 19 countries, including from Africa, Asia, and Latin 
America; more than 70% have returned to their home institutions and 
maintain contact with the Center. Trainees have participated in 
research programs that are directly related to the research needs of 
their home institutions.
    Research at ILTAB has produced a number of successes, including:

  <bullet> DNA diagnostic tools to detect plant geminiviruses.

  <bullet> Worldwide database for geminiviruses and potyviruses.

  <bullet> Convenient techniques for developing transgenic rice plants.

  <bullet> Transgenic varieties of rice that are tolerant to rice 
        tungro disease.

  <bullet> Transgenic varieties of rice that are resistant to bacterial 
        blight.

  <bullet> First transgenic cassava plants.

  <bullet> Transgenic varieties of cassava that exhibit resistant to 
        African cassava mosaic virus and east African cassava mosaic 
        virus.

  <bullet> Collaborations with scientists from around the world on 
        research projects on crops such as sweet potato, yams, banana, 
        tomato, sugar cane.

    These projects have been successful because of support, largely 
from the French government and the Rockefeller Foundation, and because 
of excellent colleagues in other countries. For example, greenhouse and 
field studies being conducted in China and other countries in Asia are 
made possible because regulatory approval for tests has been given by 
local governmental agencies, most of which have adapted U.S. guidelines 
and superimposed local scientific oversight. In other countries 
regulations are not yet in place and testing cannot be conducted. Many 
countries in Asia and Africa simply do not have the scientific 
infrastructure in place to judge the safety issues that have come to be 
associated with the use of biotechnology in food production. We, the 
U.S., have not kept apace with the rapid growth of science and 
technology. We have not looked ahead to address the issues of 
acceptance of transgenic crops and foods derived therefrom, or to the 
acceptance of biotechnology in general. We, the scientific community, 
stand ready to participate in whatever manner we can to provide the 
scientific expertise and technologies that are relevant to improve food 
production, nutrition, and food safety to those from developing, poor 
countries. We are anxious to provide training environments, to conduct 
research on tropical crops, to participate in electronic communications 
that can build bridges and transfer much needed information. In short, 
we want to be relevant to agriculture outside of the U.S. as well as 
within the U.S. What is in short supply, however, are the funds that 
can make this happen. We need the commitment from our government to 
provide the training, and modest infrastructure, that allows scientists 
to create knowledge to feed themselves bread, rather than sending only 
wheat from which to make bread. What we must do is create the 
atmosphere of collaboration in science, as opposed to colonialization 
in science, and work together to further the production of sufficient 
food of high nutritional content to meet the needs of those that 
request our help. Only when such needs are met will they be prepared to 
face their health needs. Only then will vaccines be successful, and 
anti-HIV drugs and other pharmaceutical treatments reach their full 
potential. Make no mistake about it; food and nutrition are absolute 
keys to health, productivity, and social stability. It is not too late 
for the U.S. to recognize the issues, to chart the way to 
collaboration, and to be the world leader to implement meaningful 
solutions.
    Thank you for your attention and your dedication.

    Senator Hagel. Dr. Beachy, thank you.
    Mr. Halweil--is it ``HAL-well'' or ``HALL-weil''?

   STATEMENT OF BRIAN HALWEIL, STAFF RESEARCHER, WORLDWATCH 
                   INSTITUTE, WASHINGTON, DC

    Mr. Halweil. ``HALL-wile.''
    Senator Hagel. Well, please proceed, Mr. Halweil.
    Mr. Halweil. Thank you, Mr. Hagel, Mr. Chairman. Good 
afternoon and good afternoon, Senator Lugar and other members 
of the subcommittee. Thank you very much for this opportunity 
to testify on the role of biotechnology in combating poverty 
and hunger in developing nations, a subject that I consider 
central to the broader debate on the use of agricultural 
biotechnology.
    In searching for a biotech fix for hunger, we are pursuing 
an agricultural will-'o-the-wisp, a seemingly attractive-
sounding goal that is simply not well connected to the products 
which the biotech industry has brought to market. Instead of 
looking to as yet unproven and nonexistent biotech 
breakthroughs, we should be looking at the extremely full body 
of research that shows quite clearly those policies and 
agricultural interventions that will help to reduce poverty and 
eliminate hunger.
    There are four points that I wish to make in my 
presentation. First, the dominant causes of hunger around the 
world are not technological in nature. They are rooted in basic 
socioeconomic realities. Development economists have 
persuasively argued that poverty, rather than food shortages, 
is frequently the underlying cause of hunger, and that point 
has already been made here today.
    In a report released on World Food Day last year, the 
United Nations showed that nearly 80 percent of all 
malnourished children in the developing world live in countries 
with food surpluses. In other words, people often go hungry 
even where food is readily available. Poverty limits people's 
access to food or to the land, credit, and other resources 
needed to produce it. Poverty also means poor access to health 
care, education, and a clean living environment, which 
increases the likelihood of hunger. Medical conditions like 
diarrhea, for example, which is usually the result of an 
unclean water supply, prevent a child from absorbing available 
nutrients.
    Poverty often strikes hardest among women, the nutritional 
gatekeepers in many families and the primary food producers in 
the Third World. Yet, because women have little or no access to 
land ownership, credit, agricultural training, and social 
privileges in general, their ability to provide adequate 
nutrition for their families is handicapped. A 1999 study of 
malnutrition in 63 developing countries by the International 
Food Policy Research Institute, the World Bank's agricultural 
policy arm, found that improvements in social factors--health 
environment, women's education, and women's status--accounted 
for nearly three-quarters of the reduction in malnutrition in 
these countries since 1970.
    This is not to say that technology, including 
biotechnology, plays no role in the alleviation of 
malnutrition. But there are clearly more immediate forces 
keeping people poor and keeping people hungry.
    My second point: The global biotechnology industry has 
funneled the vast majority of its investment into a limited 
range of products, for which there are large, secured markets 
within the capital-intensive farms of the first world, products 
which are of little relevance to the needs of the world's 
hungry. Despite tremendous growth, 99 percent of the global 
area planted to genetically engineered crops is still found in 
just three nations: the United States, Argentina, and Canada. 
And 72 percent is in the United States alone.
    The transgenic crops that currently dominate the global 
acreage are those that have been engineered to resist spraying 
of herbicides, those that have been engineered to turn out the 
B.t. insecticide, or crops that have been engineered to do 
both. In 1999, herbicide-resistant crops were planted on 71 
percent of the global transgenic area, B.t. crops were sown on 
22 percent, while crops with both these traits were planted on 
the remaining 7 percent.
    These crops offer large-scale industrial farmers reduced 
production costs or increased ease of crop management, which 
explains the exceptionally rapid adoption of transgenics in a 
few nations. But there is a basic disconnect between these 
sorts of research priorities and the alleged beneficiaries of 
genetically engineered crops, the world's hungry. Compare, for 
example, the $4 million that has been spent on developing a 
beta-carotene-enhanced rice for use in vitamin A-deficient 
populations with the $500 million spent on developing Roundup 
Ready soybeans, the dominant variety of herbicide-resistant 
crops.
    In addition, a joint report released yesterday, which has 
been referenced here today, by the National Academy of Sciences 
and seven other academies around the world concluded that 
transgenic plants are not being used in many parts of the 
developing world where the needs are greatest.
    There are other concerns associated with the technological 
landscape that is controlled almost exclusively by the private 
sector and defined by patent protection. Patents and similar 
legal mechanisms are giving a declining number of large firms 
substantial control over crop genetics, with worrisome 
implications for seed saving, farm incomes, and food security. 
And although Monsanto and AstraZeneca recently announced that 
they would not commercialize the so-called Terminator 
technology or other seed sterilization technologies, the 
biotech industry collectively owns at least three dozen patents 
that control either seed germination or other essential life 
functions.
    Without addressing inequitable land distribution, 
differential access to credit, and any other socioeconomic 
realities in the developing world, the consequences of 
introducing even the most promising biotechnology are likely to 
be less than desirable, and this is the lesson that we have 
learned from the Green Revolution.
    Third, if we are interested in eradicating hunger and 
poverty in the developing world, there are approaches other 
than investment in biotechnology that are better understood, 
less risky, and which may ultimately prove more cost effective. 
As mentioned earlier, land reform, improved access to 
reproductive health services, and improved educational 
opportunities for women are among those policies that have had 
a sizable impact on reducing poverty and hunger in the past and 
are likely to do so in the future. These same policies, I might 
add, are also the most effective ways to reduce birth rates and 
slow population growth, a problem that has been addressed many 
times here today.
    Investments in agriculture are clearly key to boosting 
incomes and ultimately reducing malnutrition, and this is 
particularly true in the poorest regions of the world--sub-
Saharan Africa and South Asia, where the majority of the people 
still make their living from agriculture and where the 
economies are still heavily dependent on agriculture. But many 
agricultural researchers in the developing world, including 
Pedro Sanchez, the director general of the International Center 
for Research in Agro-Forestry, one of the World Bank's CGIAR 
centers, in Nairobi, argues that the most investments are not 
in improved seeds, but rather improved natural resource 
management, including soil and water conservation, crop 
rotations, and nitrogen-fixing crops.
    Pedro notes that until these resource management issues are 
addressed, farmers in Africa, Asia, and Latin America cannot 
take full advantage of any potential offered by improved seeds, 
whether they were improved through genetic engineering or 
traditional crop breeding.
    In my testimony I have assembled a short list of 
agricultural interventions in the developing world that focus 
on improved resource management and that have all resulted in 
yield increases of 100 to 300 percent. These sorts of yield 
increases are considerably higher than any present results with 
biotech seeds and these interventions, in contrast to biotech 
interventions, depend on resources and know-how that is already 
available to resource-poor farmers. I offer these examples to 
demonstrate that there are alternatives to biotechnology for 
combating poverty and hunger.
    My final point: As an ecologist by training, I would like 
to make a brief statement about the ecological risks of 
genetically engineered crops. Once genetically engineered crops 
are planted in close proximity to sexually compatible wild 
relatives, the spread of genes from one plant to the other 
through cross-pollination is inevitable. This sort of gene 
spread has already been reported for transgenic canola in 
Europe and Canada. Must of the research needed to assess the 
potential impacts of such cross-pollination has simply not been 
done, so it is not entirely clear what will happen when a wild 
plant acquires the ability to produce the B.t. toxin or to do 
any number of things that transgenic crops are being designed 
to do.
    But whatever the short- or long-term impacts, one thing is 
clear: Because developing nations are home to the majority of 
the world's plant and crop biodiversity and because crops in 
the developing world often exist in close proximity to wild 
relatives, the risk of cross-pollination is greatest there.
    Mr. Chairman, taking a global perspective in my research, I 
have come across several publications on the subject of 
biotechnology and hunger from colleagues working in the 
developing world and I respectfully request that, in addition 
to my own testimony, two of these documents be submitted as 
part of the hearing record to complement my own brief 
statements.
    Senator Hagel. They will be included.
    Mr. Halweil. I would also like to bring to the attention of 
the committee members a forum sponsored by Representative Tony 
Hall on June 29 of this year entitled ``Can Biotechnology Help 
Fight World Hunger,'' and I have a program from that forum if 
you would also like that included in the hearing records.
    Senator Hagel. That will be included as well.
    Mr. Halweil. Thank you very much for this opportunity to 
testify. I would be happy to entertain any questions.
    [The prepared statement of Mr. Halweil with attachments 
follow:]

                  Prepared Statement of Brian Halweil

the role of biotechnology in combating poverty and hunger in developing 
                                nations
    Good afternoon, Mr. Chairman and other members of the Subcommittee.
    My name is Brian Halweil, and I am a staff researcher at the 
Worldwatch Institute. Worldwatch is an independent, nonprofit 
environmental research organization based here in Washington, DC. Our 
mission is to foster a sustainable society in which human needs are met 
in ways that do not threaten the health of the natural environment or 
future generations. To this end, Worldwatch conducts interdisciplinary 
research on emerging global issues, the results of which are published 
and disseminated to decision-makers and the media.
    At the Institute, I work primarily on issues related to food and 
agriculture, including the topics of malnutrition and biotechnology. 
Thank you for this opportunity to testify on the role of biotechnology 
in combating poverty and hunger in developing nations--a subject that I 
consider central to the broader debate on the use of agricultural 
biotechnology.
    In searching for a biotech fix for hunger, we are pursuing an 
agricultural will-o'-the-wisp, a seemingly attractive sounding goal 
that is simply not well connected to the products which the biotech 
industry has brought to market. Instead of looking to as yet unproven 
and nonexistent biotech breakthroughs, we should be looking at the 
extremely full body of research that shows quite clearly those policies 
and agricultural interventions that will help to reduce poverty and 
eliminate hunger.
    There are four basic points that I wish to make in my presentation. 
First, the dominant causes of poverty and hunger around the world are 
not technological in nature, but rooted in basic socioeconomic 
realities. This is not to say that technology--including 
biotechnology--plays no role in the alleviation of malnutrition, but 
there is no technology that can override the immediate forces keeping 
people poor and hungry.
    Second, the global biotechnology industry has funneled the vast 
majority of its investment into a limited range of products for which 
there are large, secured markets within the capital-intensive 
production systems of the First World--products which are of little 
relevance to the needs of the world's hungry.
    Third, if we are interested in eradicating hunger and poverty in 
the developing world, there are approaches other than investment in 
biotechnology that are better understood, less risky, and which may 
ultimately prove more effective.
    Fourth, because developing nations are home to the majority of the 
world's plant biodiversity, and because crops in the developing world 
often exist in close proximity to wild relatives, the risk of cross-
pollination between genetically engineered crops and wild relatives is 
greatest there.
    Development economists, including Nobel Laureate Amartya Sen, have 
persuasively argued that poverty--rather than food shortages--is 
frequently the underlying cause of hunger. In a report released on 
World Food Day last year, the United Nations showed that nearly 80 
percent of all malnourished children in the developing world in the 
early 1990s lived in countries that boasted food surpluses. In other 
words, people often go hungry even where food is readily available.
    The more important feature common to these hungry countries is 
pervasive poverty, which limits people's access to food in the market 
or to land, credit, and other resources needed to produce food. Poverty 
also means poor access to non-food services, including health care, 
education, and a clean living environment, which increases the 
likelihood of hunger. Medical conditions like diarrhea, for instance, 
which is usually the result of an unclean water supply, prevent a child 
from absorbing available nutrients.
    Poverty often strikes hardest among women, the nutritional 
gatekeepers in many families. The United Nations Food and Agriculture 
Organization estimates that more than half of the world's food is 
raised by women, and in rural areas of Africa, Latin America, and Asia, 
the figure soars to 80 percent. Yet, because women have little or no 
access to land ownership, credit, agricultural training, education, and 
social privileges in general, their ability to provide adequate 
nutrition for their families is handicapped.
    Eradicating hunger requires elimination of its root causes, 
including gender discrimination and desperate poverty which prevents 
access to food or the resources to produce it. A 1999 study of 
malnutrition in 63 countries by the International Food Policy Research 
Institute (IFPRI), the World Bank's agricultural policy arm, found that 
improvements in social factors--health environment, women's education, 
and women's status--accounted for nearly three quarters of the 
reduction in malnutrition in these countries since 1970. (This study 
noted that increased food availability was an important fourth factor, 
responsible for roughly one quarter of the reduction in malnutrition in 
these countries.)
    This having been said, consider where the majority of investment in 
agricultural biotechnology is going. The global area planted to 
genetically engineered crops has grown 23-fold since 1996, the first 
year of large-scale commercialization. Global area now stands at 39.9 
million hectares compared to 1.7 million hectares in 1996. Despite this 
tremendous growth, 99 percent of the current area is found in just 
three nations--the United States, Argentina, and Canada; 72 percent is 
in the United States alone.
    Dozens of crops--from apples to lettuce to wheat--have been 
genetically modified and are near commercialization, though only 
transgenic varieties of soybean, corn, cotton, canola, squash, and 
papaya are currently grown commercially. Of these seven crops, soybeans 
and corn account for 54 percent and 28 percent of the global transgenic 
area, respectively, while cotton and canola share most of the remainder 
with nearly 9 percent each.
    The transgenic crops currently being grown around the world have 
been engineered either to resist spraying of herbicides (herbicide-
resistant crops), to churn out the insecticide produced by the soil 
bacterium Bacillus thuringiensis (Bt) (Bt-crops), or to do both. In 
1999, herbicide-resistant varieties of soy, corn, cotton, and canola 
were planted on 71 percent of the global transgenic area, while Bt-corn 
and Bt-cotton were sown on 22 percent. Corn and cotton varieties that 
both produce Bt and resist herbicides were planted on the remaining 7 
percent. These traits offer large-scale industrial farmers reduced 
production costs or increased ease of crop management by lowering the 
need to scout for pests, cutting labor costs, allowing a shift to 
cheaper chemicals, and generally simplifying pest control--which 
explains the exceptionally rapid adoption of transgenics in a few 
nations.
    For the foreseeable future, these are the sorts of crops and traits 
that will dominate the global area planted to genetically engineered 
crops. There is very little connection between these applications and 
the needs of the world's hungry--modified soy and corn are mainly used 
in livestock production and processed foods; modified canola is pressed 
into oil and used in processed foods; and cotton is used for its fiber 
and oil. Herbicide-resistant crops, for example, are not helpful to 
poor farmers who rely on manual labor to pull weeds because they 
couldn't possibly afford herbicides. As a result, the immediate markets 
for biotech in the developing world are not the subsistence farmers, 
but the larger operations, which are often producing for export rather 
than for local consumption. The adoption of genetically engineered 
soybeans by Argentina's industrial export producers illustrates this 
point well.
    There is a basic disconnect between these research priorities and 
the alleged beneficiaries of genetically engineered crops--the world's 
hungry. Compare, for example, the $4 million that has been spent on 
developing a Beta-carotene enhanced rice for use in Vitamin A deficient 
populations with the $500 million spent on developing Roundup-Ready 
soybeans, the dominant herbicide-resistant variety. This $500 million 
spent on developing Roundup-Ready soybeans also compares with the $400 
million annual budget of the Consultative Group for International 
Agricultural Research (CGIAR), a consortium of international research 
centers that form the world's largest public-sector breeding effort. In 
addition, a joint report released yesterday by the National Academy of 
Sciences and seven other academies around the world concluded that 
transgenic plants are not being used in many parts of the developing 
world where the needs are greatest.
    There are other concerns associated with a technological landscape 
that is controlled almost exclusively by the private sector and defined 
by patent protection. Patents and similar legal mechanisms are giving a 
declining number of large private firms substantial control over crop 
genetics and farmers, with worrisome implications for seed saving, farm 
incomes, and food security. Although Monsanto and AstraZeneca recently 
announced that they would not commercialize the so-called 
``Terminator'' technology or other seed sterilization technologies, the 
biotech industry collectively owns at least three dozen patents that 
control either seed germination or other essential plant processes. 
This privatization of germplasm is already putting public sector 
agricultural research at a disadvantage, and might ultimately prove 
life-threatening to the majority of small farmers in Africa, Latin 
America, and Asia who depend on saved seed from year to year.
    In addition to this financial obstacle, there is a biological 
obstacle that may limit the potential of biotech to combat poverty and 
hunger. The crop traits that would be most useful to subsistence 
farmers tend to be very complex. The kinds of products that would make 
sense in a subsistence context include crop varieties responsive to low 
levels of soil fertility, crops tolerant of saline or drought 
conditions and other stresses of marginal lands, improved varieties 
that are not dependent on agrochemical inputs for increased yields, 
varieties that are compatible with small, diverse, capital-poor farm 
settings. In herbicide-resistant crops and Bt crops, the engineering 
involves the insertion of a single gene. Most of the more complex 
traits mentioned above are probably governed by many genes, and for the 
present at least, that kind of complexity is beyond the technology's 
reach.
    The experience of the Green Revolution has shown that if the 
introduction of agricultural technology is not sensitive to social and 
economic inequalities, then it can actually exacerbate existing 
inequalities, poverty and hunger, as the better off farmers grab the 
majority of the technology's benefits. Today, the majority of the 
world's hungry are those farmers in Africa, Asia, and Latin America who 
were bypassed, or even marginalized, by the Green Revolution package of 
seeds that were highly dependent on fertilizer and irrigation inputs. 
Without addressing inequitable land distribution or differential access 
to credit, for example, the consequences of introducing even the most 
promising biotechnology are likely to be less than desirable.
    I would like to point to some interventions other than 
biotechnology that may prove more effective at reducing poverty and 
hunger in the developing world. As mentioned earlier, land reform, 
improved access to reproductive health services, and improved 
educational opportunities for women are among those policies that have 
had a sizable impact on reducing poverty and malnutrition in the past 
and are likely to do so in the future. (These same policies are also 
the most effective ways to reduce birth rates and slow population 
growth.)
    Investments in agriculture are key to boosting incomes and 
ultimately reducing malnutrition. This is particularly true in the 
poorest regions of the world, Sub-Saharan Africa and South Asia, where 
the majority of people make their living from agriculture and where the 
gross national products are still heavily dependent on agriculture. 
Pedro Sanchez, the Director-General of the International Centre for 
Research in Agroforestry (ICRAF), one of the CGIAR centers based in 
Nairobi, argues that ``Third World farmers don't need improved seeds, 
but rather improved natural resource management, including soil and 
water conversation, crop rotations, and nitrogen-fixing crops.'' 
Sanchez notes that until these resource management issues are 
addressed, farmers in Africa, Asia, and Latin America will not be able 
to take full advantage of any potential offered by improved seeds, 
whether genetically engineered or traditionally bred.
    Below, I have assembled a short list of agricultural interventions 
in the developing world that focus on improved resource management and 
that have all resulted in large yield increases. These interventions 
are often characterized as ecological or agroecological, because they 
depend on building or harnessing the ecological processes--including 
crop diversity, nutrient cycling, plant and pest interactions, 
competition, and symbiosis--occurring in the field rather than on 
external chemical inputs.

  <bullet> A recent survey of agro ecological interventions in Latin 
        America revealed that yield increases of 100 to 300 percent are 
        not uncommon for a range of staple crops, including beans, 
        corn, rice, potato, and cassava.

  <bullet> A separate set of projects in Latin America that emphasized 
        locally adapted green manures and cover cropping have increased 
        maize yields from 1-1.5 tons/hectare to 3-4 tons/hectare.

  <bullet> More than 300,000 farmers in southern and western India 
        farming in dryland conditions, and now using a range of water 
        and soil management technologies, have tripled sorghum and 
        millet yields to some 2-2.5 tons/hectare.

  <bullet> Some 200,000 farmers across Kenya who as part of various 
        government and non-government soil and water conservation and 
        agroecology programs have more than doubled their maize yields 
        to about 2.5 to 3.3 tons/hectare. (Simultaneously, these Kenyan 
        farmers have substantially improved vegetable production 
        through the dry seasons, improving income generation and 
        household nutrition.)

    These sorts of yield increases are considerably higher than any 
present results with biotech seeds. And these interventions, in 
contrast to biotech interventions, depend on resources and know-how 
that is already available to resource-poor farmers, working in 
ecologically sensitive areas. I offer these examples to demonstrate 
that there are alternatives to biotechnology for combating poverty and 
hunger in developing nations.
    Finally, as a representative of an environmental research group and 
as an ecologist by training, I would like to make a brief point about 
the potential ecological risks of genetically engineered crops and how 
that might affect poor and hungry populations in developing nations. 
Once genetically engineered crops are planted in close proximity to 
sexually compatible wild relatives, the spread of genes from one plant 
to the other through cross-pollination is inevitable. This sort of gene 
spread has already been reported for transgenic canola in Europe and 
Canada. Much of the research needed to assess the potential impacts of 
such cross-pollination has simply not been done, so it is not entirely 
clear what the likely impact on an ecosystem will be when a wild plant 
acquires the ability to churn out the Bt toxin or to resist an 
herbicide or to do any number of things that transgenic crops are being 
designed to do. Whatever the short- or long-term impacts, one thing is 
clear: because developing nations are home to the majority of the 
world's plant biodiversity, and because crops in the developing world 
often exist in close proximity to wild relatives, the risk of cross-
pollination is greatest there. In other words, developing nations are 
likely to bear the brunt of any ecological impact because of the 
greater likelihood of gene spread.
    Mr. Chairman, in taking a global perspective in my research, I have 
come across publications on the subject of biotechnology and hunger 
from colleagues working in the developing world. I respectfully request 
that two of these documents be submitted as part of the hearing record 
to complement my own brief statements. In addition, I would also like 
to bring to the attention of the committee members a forum sponsored by 
Representative Tony Hall on June 29th of this year entitled, ``Can 
Biotechnology Help Fight World Hunger?'' I respectfully request that 
the program for this event be submitted as part of the hearing record.
    I would be happy to answer any questions. Thank you again for this 
opportunity to testify.

[Attachments.]

               Can Biotechnology Help Fight World Hunger?

                             June 29, 2000

Date

Thursday, June 29, 2000

Time

9 a.m.-12 noon

Place

The Gold Room, 2168 Rayburn House Office Building, Capitol Hill


Program             Introduction

9:00-9:30           Rev. David Beckmann, Moderator

                    Opening Remarks

                    (Each Member of Congress will speak for 5 minutes.)

                    Rep. Tony P. Hall
                    Sen. Richard G. Lugar
                    Rep. Dennis J. Kucinich
                    Rep. Robert L. Ehrlich, Jr.

9:30-10:20          Presenters

                    (Each presenter will speak for 10 minutes.)

                    Dr. Martina McGloughlin
                    Dr. Vandana Shiva
                    Dr. C.S. Prakash
                    Dr. Mae-Wan Ho

10:20-10:30         Questions & Answers Session I

10:30-11:40         Challengers

                    (Challengers will speak for up to 3-4 minutes.)

                    Ms. Therese St. Peter
                    Dr. Michael Hansen
                    Dr. Per Pinstrup-Andersen
                    Mr. Arthur Getz
                    Dr. Peggy Lemaux
                    Mr. Michael Pollan

11:40-11:50         Questions & Answers Session II

11:50-12:00         Concluding Remarks

                    Rev. David Beckmann



Participants (listed in alphabetical order):

Rev. David Beckmann-President, Bread for the World

Mr. Arthur Getz--Specialist, World Resources Institute

Dr. Michael Hansen--Research Associate, Consumers Union's Consumer 
        Policy Institute

Dr. Mae-Wan Ho--Science Advisor, Third World Network

Dr. Peggy Lemaux--Professor, University of California at Berkeley

Dr. Martina McGloughlin--Professor, University of California at Davis

Dr. Per Pinstrup-Andersen--Director General, International Food Policy 
        Research Institute

Mr. Michael Pollan--Contributing Writer, The New York Times Magazine

Dr. C.S. Prakash--Professor, Tuskegee University

Dr. Vandana Shiva--Director, Research Foundation for Science, 
        Technology & Ecology

Ms. Therese St. Peter--Specialist, Zeneca Ag Products, Inc.

                                 ______
                                 

Potentials and Threats of the Genetic Engineering Technology: Quest for 
          an African Strategy at the Dawn of a New Millennium

                             Hans R. Herren

  Director General, The International Centre of Insect Physiology and 
            Ecology (ICIPE), P.O. Box 30772, Nairobi, Kenya

                               background
    Do we need genetically engineered crops to feed the world? This 
question is at the centre of several major controversies, ranging from 
intellectual property rights to biodiversity conservation via social 
and economic considerations. The major question really lies in what 
choices are science, industry and governments proposing to the farmers 
and the consumers? In Africa's special case, what solutions to food 
security makes sense in this particular socio-economic and 
environmental setting? The scepter of a new fiasco lies very near, as 
the farmers are likely to be simply weaned from pesticides to be force 
fed biotech seeds, in other words, taken off one treadmill and set on a 
new one!
    According to a Monsanto-initiated publicity campaign, which seeks 
endorsement from African heads of state, the solutions to the elusive 
developing world food security problem are to be found in genetically 
engineered food crops. It claims the following: ``Biotechnology is one 
of tomorrow's tools in our hands today. Slowing its acceptance is a 
luxury our hungry world cannot afford.''
    What is really meant is that these biotechnology \1\ products--in 
this case seeds from genetically modified crops--will cater for the 
needs of an increased global population. The public sector has also 
joined the bandwagon, which reinforces my personal concern about the 
dangers of such a limited approach to food security issues. The trend 
towards a quasi-monopolization of funding in agricultural development 
into a narrow set of technologies is dangerous and irresponsible. Also, 
too many hopes and expectations are being entrusted in these 
technologies, to the detriment of more conventional and proven 
technologies and approaches that have been very successful.
---------------------------------------------------------------------------
    \1\ ``Biotechnology'' relates to the use of tissue culture for the 
rapid multiplication of improved varieties, through cell culture or the 
like. It also includes the use of naturally occurring microorganisms 
such as Bt (Bacillus thuringiensis), viruses, endophytes and others 
which may have been selected for their activity against certain plant 
pests and diseases, but which have not been genetically modified. 
Biotechnology may also include vaccines against parasites or vectors of 
animal and human diseases, diagnostic tests and gene marking tools for 
classical breeding. ``Genetic engineering'' refers to the creation of 
new plant types or transgenic varieties (tgvs) through genetic 
manipulation of the organism's gene pool by introducing non-species-
specific genes, often from other taxa/phyla.
---------------------------------------------------------------------------
    It is only too obvious to concerned scientists, farmers and 
citizens alike that we are about to repeat, step by step, the mistakes 
of the insecticide era, even before it is behind us. I would even argue 
that these new miracle technologies are mostly not necessary, let alone 
desirable, to solve the world's food security problem. I am not denying 
that in some instances they may be of use in increasing the qualities 
of food crop varieties, but this aspect has relevance only once 
abundance has been achieved. Africa needs a homegrown food security 
research, capacity and institution building and implementation strategy 
that is tuned to its economic and social constraints and is in harmony 
with its diverse environment.
                  the problems and possible solutions
    Despite the enormous investments to date, the progress in 
developing new crop varieties and livestock breeds and clones, although 
quite dramatic in scientific terms, has so far lagged behind 
expectations and promises, particularly in the genetic engineering 
sector. Transgenic crop varieties (tgvs) are already being used on 
rather wide areas in the developed countries and are here to stay and 
will certainly also be deployed by some farmers in Africa. We need, 
therefore, to deal with at least two major issues which have been 
neglected by the promoters of genetically modified organisms (GMOs), 
and unfortunately also by most donors: (i) the potentially negative 
impact of widespread use of these GMOs on health, the environment, food 
security and the economy, and (ii) the modalities of their utilization. 
This is what I would call, ``the other side of the coin.''
    When considering the many different products arising from 
biotechnology and genetic engineering, of particular concern are the 
newly developed transgenic varieties of common crops. We have here a 
typical example of a technology (genetic engineering) that is ``looking 
for an application,'' in other words, a stockholder/technology-driven 
rather than a problem-driven approach. The fact that there are many 
more efficient and sustainable, yet under-exploited, approaches readily 
available or easily researchable seems not to amount to much in the 
eyes of policymakers and many donor agencies.
    A good example could be the cassava mealybug, if the problem were 
to occur today. The solution of today's genetic engineers would be to 
insert some mealybug resistance genes into the cassava plant. I doubt 
that I would be able to sell the biological control approach today as I 
did 20 years ago. Note that through biocontrol, the mealybug problem 
has been eliminated once and for all. This environmentally ``soft'' 
biotech solution was applied over a period of 15 years, which included 
research and implementation across all of Africa. The latest reported 
cost-to-benefit ratio is 1:200. Hard to beat, even with the best tgvs!
    But why this shift in interest away from natural, sustainable 
solutions which re-emerged some 15 years ago, but which are now on the 
way out? My explanation is that most of these solutions are not 
considered marketable, by virtue of the very definition of the term 
``sustainable.'' The agro-industry obviously has in mind its 
shareholders, who are more interested in the short-term profitability 
than in the long-term sustainability of any given production system, 
even for their own food. Thus, if industry can sell a package that has 
to be bought over and over again, perhaps at an increasing number and 
cost per application, the better. This trend can be illustrated by the 
packaging of herbicide-resistant seeds and complementary herbicide. The 
latest development in this profit-to-use treadmill direction is the 
``terminator'' gene, which will ensure that a given transgenic crop 
variety will not germinate in the second season, forcing the farmer to 
buy new seeds every season. On the one hand this may assure better 
quality seeds, but on the other, what does it do for the sustainability 
of the African farming system, for the evolution of land races, and for 
the economics of the small farm and the ever poorer rural and urban 
populations.
    Most of the genetic material now being exploited by the agro-
industry came from those very land races that this same industry is now 
likely to bring to extinction with its plans to widely disseminate 
tgvs. It may be true that there are seed specimens of land races in 
freezers, which may serve as a potential gene source for some years to 
come, but can we tolerate mortgaging the food security of future 
generations without raising the red flag? The turf battles between the 
seed/agro-chemical giants and the intellectual property rights 
proponents are making it clear that sharing nature's wealth for the 
benefit of the poor is not around the corner. When it comes to 
utilization, conservation and equitable sharing of genetic resources, 
Dr. M.S. Swaminathan stresses that, ``What's important is not to clog 
the channel of cooperation, but to keep alive the very principle of 
evolution of agriculture of the past 10,000 years.''
    The narrow genetic base of the tgvs is another factor that speaks 
against them. Given the wide variety of agro-ecologies found in the 
tropics, Africa in particular, there is therefore a need for a broad 
range of ecologically suited varieties. Sufficient evidence already 
exists of past crop failures due to genetic uniformity to be worried: 
five in the last 25 years. It seems that here, also, there is a problem 
in learning from past experience.
    The use of new, high yielding and possibly pest- and disease-
resistant tgvs will bring with it the need to invest in extra inputs, 
as shown during the Green Revolution in Asia. With or without the tgvs, 
there will be a need for extra inputs, but the seed costs alone for 
high-yielding varieties--and more so for the transformed ones--is 
likely to be above the means of most African farmers. As it is, most 
Third World farmers can scarcely afford the regular hybrid or improved 
open-pollinated seeds.
    It is well documented that yield can be increased two- or three-
fold in most of sub-Saharan Africa and other tropical areas through 
increased use of fertilizers (both organic and inorganic), weed 
control, IPM and utilization of already developed and available 
varieties, in other words, many of the ``soft,'' or ``old,'' 
biotechnologies. The black bean example in Mexico is proof that 
sustainable agriculture can also be productive.
    You may say that we need to prime the pump, and get the farmers out 
of the vicious circle. Yes, that could have been done 25 years ago, if 
it were feasible. The problem is the lack of policies and will, at 
government level, to put agriculture at the top of the agenda. Tgvs 
will not change that. The tgv concept is based on the profit motive of 
seed and agrochemical companies, not on the welfare of farmers and 
consumers and the need to develop a sustainable and self-reliant 
production strategy. Tgvs will not feed the hungry, they will make them 
poorer, if the Green Revolution is an indicator of what we can expect.
    What Africa needs now is not tgvs, it is a progressive policy 
environment, in which farmers are given the necessary credit 
facilities, a tool box with manageable solutions to their agronomic 
problems and access to markets. They must be given the chance to 
purchase, through micro-credit schemes, the right inputs at reasonable 
prices, and on time! Without micro-credit, no technology, either 
traditional or biotech-based, can be introduced.
    There is, however, little indication that governments in the South 
are revising their budget allocations and giving agriculture in concert 
with health the importance they merit. Agriculture and health need to 
go hand in hand if there is to be any hope of achieving the growth in 
productivity necessary to keep pace with population increase.
    The solution lies not with tgvs, but in a different approach, an 
approach which developing countries and their farmers alike can afford. 
Such an approach would give priority to training farmers in the basics 
of plant growth; nutrient uptake and application; organic fertilizer 
production and application; pre- and post-harvest pest management; farm 
management; and farmers' cooperative development, among others. It is 
essential that a holistic approach to training in the farmers' field 
schools (FFS) be implemented. Farmers' training and credit facilities 
may indeed be the fastest way forward towards the goal of food 
security. If an example is needed, the programme pioneered by Sasakawa-
Global 2000 may well fit, even though it is not yet perfect (it lacks 
an integrated production approach).
    The funds now being invested by the public sector in developing and 
deploying new tgvs would go a long way towards educating farmers in the 
application of presently available and under-utilised technologies, and 
could fund research and development of truly sustainable and affordable 
solutions to crop production. Some promising solutions to achieving 
food security without incurring heavy financial burdens and the 
uncertain negative ecological impact of tgvs have been identified by 
the Conference of the Parties of the CBD. They lie in increasing our 
knowledge of the dynamics of soil microorganisms, their roles in 
fertility conservation and restoration, and of the impact of 
pollinators on the yield of food and horticultural crops.
    Africa in particular needs investment and technical know-how in the 
production of natural, or soft-biotech, integrated pest management 
(IPM) products such as pathogens, predators and parasitoids, 
semiochemicals and botanicals. Many of these technologies are currently 
available in China, India and Brazil, and should be transferred under 
South-South cooperation schemes.
    There is also a mounting body of research and evidence that shows 
all is not well with the use of tgvs (see a few emerging issues in 
Annex 1) when it comes to side effects and threats to biodiversity. I 
have been lobbying over the last several years for increased research 
support for environmental impact studies in Africa, but have found only 
deaf ears! I am wondering what the donors expect from the small sums of 
money (a few tens of millions of dollars) they now spend on research on 
tgvs, compared to the hundreds of millions of dollars spent by 
industry! I am trying to promote the idea that public money, i.e. 
taxpayers' money, should be spent on assessing the impact of tgvs on 
the environment, on the wild relatives of genetically engineered crops, 
on the general ecosystem functioning, as well as their effects on human 
health. At present, these aspects are looked at only marginally or to 
fulfil the regulatory process, but do not address the long-term 
implications of tgv use, as ought to be the case. Such research would 
also help the biotech industry, by providing solutions for a more 
efficient deployment of tgvs, thus increasing the ``life span'' of such 
products! For instance, it has already been shown that insects will 
develop resistance to tgvs within a few generations, therefore negating 
years of research. Also, the industry is misleading the farmers by 
promoting insect resistance. It is noteworthy to explain, that the 
resistance so far available covers only lepidoptera and coleoptera 
pests, but not most sap sucking insects or mites, which are also major 
pests. In short, although the farmer may have a Bt maize, she/he may 
still have to spray against other pests. A famous plant breeder, Dr. 
N.W. Simmonds, has called the genetic engineering of food crops ``a pie 
in the sky'' or ``most spectacular con trick in crop improvement,'' and 
is very critical of what he calls the collapse of decent science in the 
face of biotechnology.
    On the critical biosafety issue, who will develop the necessary 
regulations, not so much from the developed nations' point of view, but 
from the developing countries' vantage point? There may well be 
differences between the two, given their different ecological, social 
and economic environments. In many developing countries, steps are 
being undertaken to formulate such regulations based on those already 
available from developed countries. The costs for these activities in 
terms of scarce human and financial resources is a matter for concern. 
There are many other more important tasks at hand for African 
scientists and other professionals than these ``imposed'' tasks, which 
will primarily allow the agro-industry to get the legislation in place 
to test and sell their goods--goods which are of doubtful priority, 
unfinished as yet, and most certainly not affordable by the average 
farmer. The more science is driven by intellectual property rights, the 
more the issues being tackled will be the ones were profit can be made. 
Dr. Ismail Serageldin mentions as example the pharmaceutical industry, 
largely driven by private sector investments with proprietary science. 
Despite the fact that malaria is the worlds most important disease, 
there is hardly any investment in malaria control options (with 
exception for the U.S. military). So we can well imagine the private 
sector using the genetic material from the South, for yield improvement 
mostly in the developed countries. The developing ones will hardly be 
able to afford to pay for the technology, and furthermore, this 
technology may not be ecologically adapted to their needs in the first 
instance. In a continent with 40 to 45% of its population living in 
absolute poverty, and in need for a job, industrialised agriculture is 
not the solution. There are numerous example of very successful organic 
agriculture in the North. This type of agriculture requires more labor, 
and yields higher profits. Would that not be the better path to follow?
    With the tightening of the rules on biotech activities in Europe, 
Africa is now being targeted by many biotech companies for the testing 
of tgvs under the pretense that Africa needs these solutions 
immediately (the EC has plans to spend 206 million Ecus on 152 projects 
related to biotechnology). The truth is that Africa can double, or 
treble its production without any tgvs, but that Africa represents an 
ideal, yet almost regulation free test ground.
    Africa is the home (centre of origin) of several major food crops. 
The wild relatives of these crops are now in danger of becoming bio-
contaminated with stray genes from their genetically modified 
cultivated relatives. This scenario is real, and represent, next to the 
loss or bio-contamination of land races, the most serious issue facing 
the deployment of gtvs. In order to asses the potential threat, there 
is a need to urgently undertake research one gene flow, of sorghum, 
cowpeas, coffee, cucurbits etc. Unless such detailed studies are done 
and the results made available, no field testing nor deployment of tgv 
should be allowed. This research could yield on the one hand the data 
to make informed decisions on the way to proceed, and on the other 
provide the training ground for specialists to control tgv experiments. 
The testing of tgvs, without proper information on potential for 
unwanted gene flow, is yet the biggest threat to biodiversity, and in 
particular the diversity of our food crop relatives, from which our 
children will need new genes to overcome new pest and disease problems, 
as we did do it ourselves. Are we right in denying them this right by 
not acting quickly and seriously?
    There is a need to change the tone of the dialogue, and to start 
demanding that the public sector continues to invest in research for 
the South. That the South also starts to invest seriously in 
agricultural, health and environmental research. Africa cannot afford 
to follow the bandwagon of the biotech lobby of the North if it want's 
to survive and develop a strong, ecologically and environmentally sound 
and sustainable food security system, that includes agriculture, health 
and the environment, and which it can afford. Africa wil double its 
population over the next 25 years, so there is no room for complacency, 
or mis-directed investments. Hunger is caused by poverty, and therefore 
any research and training programme must tackle this issue in tandem 
with the other three elements in sustainable development. Food 
security, health and environmental (water) issues are interconnected 
and need a holistic problem solving approach. New partnerships, serious 
and problem solving partnerships, need to be established and funded to 
bring about the solutions required to overcome the urgent problems of 
today and the ones looming in the years ahead.
                              conclusions
    In summary, I do not see the likelihood of tgvs making a major 
impact on food security in Africa within the next 15 to 20 years, or 
until such time as the general economic climate has improved, supported 
by new agricultural policies. However, there will still remain the 
questions of economic and environmental viability of the technology. 
Looking at the investment pattern by industry and the public sector, 
the chance that we are going to end up with the same mess as with the 
current pesticide treadmill is just around the corner. We shall have 
learned nothing since Rachel Carson's The Silent Spring was published 
over 30 years ago. What a shame!
    In a recent article concerning the biosafety protocol for the 
management of threats posed by living modified organisms, UNEP's 
Director General, Dr. Klaus Topfer writes: ``We need a bio-safety 
regime that does not hinder biotechnology innovations, but also one 
that can prevent misuse, escapes and accidents that could have 
irreversible consequences.''
    I fully agree, and this statement reflects my thinking and confirms 
my concerns. I hope my message will reach the decision-makers who can 
influence the allocation of public, and also private sector, funds to 
the ``other side of the coin'' and to the sustainable soft 
biotechnologies, this to assure that the poor also can grow crops and 
buy food.
    As for Africa, the quest for a new strategy to assure food security 
at continental, regional, national and household levels at the dawn of 
the new millennium is and should be a matter of priority. If I can make 
a few suggestions on what is required, I would sum up as follows:

          1. Africa needs new investment policies and means for 
        research, capacity and institution building and development in 
        the areas of agriculture, health and the environment as a 
        matter of priority, in particular as they relate to 
        alternatives to the high development and input cost 
        technologies offered by developed countries industry.

          2. The research in conventional, and advanced, technologies 
        should focus on the needs, realistic financial means and the 
        technical absorption capacities of the farmers and rural 
        populations of the research outputs. It also needs to be 
        flexible and adapted to the very diverse ecological conditions, 
        and therefore requirements for site specific solutions.

          3. Africa needs positive economic and social development, 
        fostered through social and political reforms. Agriculture 
        should be the area of first priority when it comes to 
        investment, as it provide employment, generates income, and 
        stimulate non-farm activities.

          4. Africa needs to consider its available resources as a 
        starting point for technological improvements, not only the 
        available technologies from the developed countries.

          5. Trade and fiscal policies and decisions need to be shifted 
        from benefiting Governments to benefiting the agricultural 
        sector, as it is agriculture which is the engine of sustainable 
        development.

          6. African Governments need to invest or support and promote 
        private investments in farmers training via specialised schools 
        and in-microcredit schemes.

                                 Annex

    ``genetically engineered crops may threaten beneficial insects''
    Three recent studies point to troubling and unexpected effects of 
genetically engineered insect-resistant crops on beneficial insects. 
These studies highlight the need for testing of impacts on non-target 
species before genetically engineered crops are approved for widescale 
use.
    Scientists from the Swiss Federal Research Station for Agroecology 
and Agriculture in Zurich, conducted two studies that looked at the 
effects of Bt toxin \1\ on green lacewing insects. In nature, these 
insects feed on the (major) pest targeted by Bt corn, the European corn 
borer. Lacewings, which are known for their appetite for aphids and 
other soft bodied insects, play an important role in maintaining the 
equilibrium of insect populations. They are also important for organic 
farming pest control strategies.
---------------------------------------------------------------------------
    \1\ Bt (Bacillus thuringiensis) is a naturally occurring soil 
bacterium used as a biological pesticide that can be cloned and 
inserted into a crop plant. The plant then produces its own toxin in 
most if not all, parts of the plant.
---------------------------------------------------------------------------
    In one study, recently published in the Journal of Environmental 
Entomology, researchers found that the mortality rate of lacewing 
larvae increased significantly after eating Bt-toxin similar to that 
found in genetically engineered corn produced by Novartis Green 
lacewing larvae fed with Bt-toxin from transgenic organisms showed a 
significantly higher rate of mortality (57%) than a control group of 
insects (30%). The larvae were fed purified Bt-toxin produced by 
genetically engineered E. coli bacteria. The bacteria produce toxin 
similar to that found in Novartis corn.
    An earlier study produced even more disturbing results--
demonstrating the potential indirect impacts of Bt crops on beneficial 
insects. Researchers compared the mortality and developmental rate of 
two groups of lacewings--one that had been fed European corn borers 
reared on engineered Bt corn and another reared on corn borers fed non-
Bt corn (the control group). The experiments revealed that green 
lacewings fed corn borers that had eaten Bt corn had a higher death 
rate and delayed development compared to the control group.
    More than 60% of the lacewings fed Bt-corn-reared corn borers died 
compared with fewer than 40% of the control group. The researchers 
suggest that the higher mortality is directly associated with [Bt]-
related factors. Among surviving lacewings, those feeding on Bt-corn-
reared corn borers required an average of three more days to reach 
adulthood than the control group.
    In a third study, Scottish Crop Research Institute scientists found 
that ladybird beetles fed aphids reared on transgenic potatoes 
experienced reproductive problems and failed to live as long as 
ladybirds fed aphids from ordinary potatoes (the control group). The 
potatoes were engineered to produce insecticidal lectins--proteins from 
the snowdrop plant that bind to the surface of insect cells causing 
them to clump and stop functioning.
    The researchers found that egg production of female ladybirds fed 
transgenic-potato-reared aphids was reduced by more than one-third, 
compared with the control group. Nearly three times as many fertilized 
eggs from fed engineered-potato-reared aphids died before hatching 
compared with fertilized eggs from the control group. In addition, 
female ladybirds fed aphids from transgenic plants lived only half as 
long as females from the control group.
    None of these studies have been extended to field situations so it 
is far from clear whether these laboratory results reflect what might 
happen outdoors. However, if field results show similar effects, wide-
scale use of some transgenic plants could diminish populations of 
beneficial insects or render some herbicides useless to control weeds.
    Sources: ``New Evidence on Bt-Corn Disputes Companies Claims of 
Safety''. Greenpeace Press Release. August 21, 1998. The Gene Exchange, 
Summer 1998.
Other references read and used in this paper:
    Lori Ann Thrupp, 1997. Linking Biodiversity and Agriculture: 
Challenges and Opportunities for Sustainable Food Security. WRI, Issue 
and Ideas.
    Ismail Serageldin, 1998. Interview ``Can we Feed our World?'', 
Newsweek, August 24, 1998.
    Indur M. Goklany, 1998. Saving Habitat and Conserving Biodiversity 
on a Crowded planet. BioScience Vol. 48 No. 11, 941-953.
    Merlinda D. Ingco, Donald O. Mitchell and Alex F. McCalla, 1996. 
Global Food Supply prospects. World Bank Technical Paper No. 353.
    N. W. Simmonds, 1997. Pie in the Sky. Planter 73, 615-616, 619-623, 
1997.
    G. Edward Schuh, 1998. Acriculture as an engine of economic 
development. Paper presented at the World Food Prize Symposium in 1998.

                                 ______
                                 

                     [Sustainable Science Audit #1]

                          The ``Golden Rice''

                  an exercise in how not to do science

    Evaluating science and technology for sustainability and social 
                             accountability

                   (Institute of Science in Society)

ISIS Mission Statement
To promote science responsible to civil society and the public good, 
independent of commercial and other special interests, or of government 
control.

          Science is intrinsically honest, open and pluralistic, and 
        disagreements must be openly and democratically debated.

          Science should be unbiased and accessible to all, regardless 
        of gender, age, race, religion or caste.

          To ensure public participation in decision-making, accurate 
        information should be promptly accessible to the public in 
        unbiased and uncensored forms.

To develop a science that can help make the world sustainable, 
equitable and life-enhancing for all its inhabitants.

          Science should be based on a holistic, ecological perspective 
        that takes proper account of the complexity, diversity and 
        interdependence of all nature.

          It is consonant with the holistic perspectives of diverse 
        indigenous sciences across the world.

          It is in accordance with the precautionary principle: when 
        there is reason to suspect threats of serious, irreversible 
        damage, lack of scientific evidence or consensus must not be 
        used to postpone preventative action.

To integrate science in society and promote its highest moral values.

          Science should contribute to the physical and spiritual well-
        being of all societies.

          It must promote equity, justice, democracy and freedom from 
        oppression for all.

    ISIS believes science as much as scientists should be socially and 
ecologically accountable, and has launched a sustainable science audit 
project jointly with the Third World Network. This is the first in the 
series.
                      executive summary--june 2000
    The ``golden rice''--a GM rice engineered to produce pro-Vitamin 
A--is being offered to the Third World as cure for widespread vitamin A 
deficiency.
    The audit uncovers fundamental deficiencies in all aspects, from 
the scientific/social rationale to the science and technology involved. 
It is being promoted in order to salvage a morally as well as 
financially bankrupt agricultural biotech industry.
    The scientific/social rationalization for the project exposes a 
reductionist self-serving scientific paradigm that fails to see the 
world beyond its own narrow confines. The ``golden rice'' is a useless 
application. Some 70 patents have already been filed on the GM genes 
and constructs used in making the ``golden rice.'' It is a drain on 
public resources and a major obstruction to the implementation of 
sustainable agriculture that can provide the real solutions to world 
hunger and malnutrition.
    ``Golden rice'' is not a ``second generation'' GM crop as has been 
claimed. It involves standard first generation technology, and carries 
some of the worst features in terms of hazards to health and 
biodiversity. Rockefeller Foundation, the major funder of the project 
by far has withdrawn support from it. The project should be abandoned 
altogether.
    Key Words: ``Golden rice,'' vitamin A deficiency, Green Revolution, 
sustainable science, GM technology, gene patents, GM constructs.
                       a gift-horse for the poor
    A report in Financial Times \1\ states that the creators of 
``golden rice'' have struck ``a ground-breaking deal'' with corporate 
giant AstraZeneca to give Third World farmers free access to the grain 
while allowing it to be commercially exploited in the developed world. 
The company will oversee the production of stable GM line(s) and 
patenting, and take the lines through field trials and commercial 
approval. While farmers in developed countries will have to pay 
royalties, those in the Third World earning less than US$10,000 will 
not. But will Third World farmers be allowed to save the seeds for 
replanting? It did not say.
---------------------------------------------------------------------------
    \1\ Financial Times (London) May 16, 2000.
---------------------------------------------------------------------------
    This ``golden rice,'' not yet available, is already worth its 
weight in diamonds. The project was funded from four sources of public 
finance totaling US$100 million: the philanthropic Rockefeller 
Foundation, whose mission is to support scientific research that 
specifically benefit the poor, the Swiss Federal Institute of 
Technology, the European Community Biotech Program and the Swiss 
Federal Office for Education and Science.
    The announcement failed to mention that there are already 70 patent 
claims on the genes, DNA sequences, and gene constructs used to make 
the golden rice.\2\ Will the cost of paying royalties for the previous 
70 patent claims be added to the cost of the golden rice? Which of the 
royalties on the seventy-odd patents would the Third World farmers be 
absolved from paying? Rockefeller Foundation, the major funder by far, 
has reportedly abandoned the project to ``shift its agricultural 
funding focus to support research that will have a more direct benefit 
to subsistence farmers'' \3\
---------------------------------------------------------------------------
    \2\ Revealed by authoritative sources within the Rockefeller 
Foundation.
    \3\ Normile D. 1999. Rice biotechnology: Rockefeller to end network 
after 15 years of success. Science 286:1468-1469.
---------------------------------------------------------------------------
             the scientific/social rationale is fallacious
    Many have commented on the absurdity of offering ``golden rice'' as 
the cure for vitamin A deficiency when there are plenty of alternative, 
infinitely cheaper sources of vitamin A or pro-vitamin A, such as green 
vegetables and unpolished rice, which would be rich in other essential 
vitamins and minerals besides.\4\ To offer the poor and malnourished a 
high-tech ``golden rice'' tied up in multiple patents, that has cost 
US$100 million to produce and may cost as much to develop, is worse 
than telling them to eat cake.
---------------------------------------------------------------------------
    \4\ Koechlin, F. (2000) The ``golden rice''--a big illusion? Third 
World Resurgence #114/115, 33-35.
---------------------------------------------------------------------------
    ``Golden rice'' was engineered to produce pro-vitamin A or beta-
carotene (the substance that makes carrots orange) in the endosperm, 
i.e., the part of the rice grain that remains after it has been 
polished.\5\ The scientific paper started with a review of the 
literature to rationalize why such GM rice is needed and of benefit for 
the Third World. The paper was accompanied by an unusually long news 
feature entitled, ``The Green Revolution Strikes Gold,'' \6\ which 
reinforced the rationalization for the project, explaining the 
remarkable feat of technology involved and stated that the scientists 
intend to make the ``golden rice'' ``freely available to the farmers 
who need it most.'' The last sentence in this glowing report, however, 
gave the game away: ``One can only hope that this application of plant 
genetic engineering to ameliorate human misery without regard to short-
term profit will restore this technology to political acceptability.''
---------------------------------------------------------------------------
    \5\ Ye, X., Al-Babili, S., Kloti, A., Zhang, J., Lucca, P., Beyer, 
P. and Potrykus, I. (2000). Engineering the provitamin A (beta-
carotene) biosynthetic pathway into (carotenoid-free) rice endosperm. 
Science 287, 303-305.
    \6\ Guerinot, M.L. (2000). The Green Revolution strikes gold. 
Science 287, 241-243.
---------------------------------------------------------------------------
    What were the reasons for the scientists to embark on the project? 
It is important to know, as these reasons may have been used to 
persuade funders to support the project in the first place, and funders 
ought to bear as much of the responsibility.
    The first reason given is that the aleurone layer (in unpolished 
rice) is usually removed by milling as it turns rancid on storage, 
especially in tropical areas; and the remaining endosperm lacks pro-
vitamin A. The researchers are tacitly admitting that at least some 
varieties of unpolished rice will have pro-vitamin A. The reason rice 
is milled is to prolong storage for export, and to suit the tastes of 
the developed world. So why not give the poor access to unpolished 
rice? A proportion of every rice harvest could be kept unpolished and 
either given freely to the poor, or sold at the cheapest prices. But 
the scientists have not considered that possibility. Unpolished rice is 
fact part of the traditional Asian diet until the Green Revolution when 
aggressive marketing of white polished rice created a stigma of 
unpolished rice. However, most rural communities still consume 
unpolished rice and now that consumers have become aware of its 
nutritional value, unpolished rice is becoming sought after.
    ``Predominant rice consumption,'' the researchers claim, promotes 
vitamin A deficiency, a serious health problem in at least 26 
countries, including highly populated areas of Asia, Africa, and Latin 
America. Some 124 million children worldwide are estimated to be 
vitamin A deficient. (Actually, the latest figures quoted in a press 
release from the International Rice Research Institute (IRRI) is 250 
million preschool children.\7\) The scientists seem to be unaware that 
people do not eat plain rice out of choice. The poor do not get enough 
to eat and are undernourished as well as malnourished. The Food and 
Agricultural Organization (FAO) started a project in 1985 to deal with 
vitamin A deficiency using a combination of food fortification, food 
supplements and general improvements in diets by encouraging people to 
grow and eat a variety of green leafy vegetables. One main discovery is 
that the absorption of pro-vitamin A depends on the overall nutritional 
status, which in turn depends on the diversity of the food consumed.\8\
---------------------------------------------------------------------------
    \7\ IRRI press release 22 May, ``Human health and food that feeds 
half the world.''
    \8\ See Koechlin, 2000 (note 1).
---------------------------------------------------------------------------
    ``Predominant rice consumption'' is most likely to be accompanied 
by other dietary deficiencies. A recent study by the Global 
Environmental Change Programme \9\ concludes that predominant 
consumption of Green Revolution crops is responsible for iron 
deficiency in an estimated 1.5 billion, or a quarter of the world's 
population. The worst affected areas are in rice-growing regions in 
Asia and South-East Asia where the Green Revolution had been most 
successful in increasing crop yield.
---------------------------------------------------------------------------
    \9\ Geoffrey Lean, Independent, April 23, 2000.
---------------------------------------------------------------------------
    Research institutions such as IRRI have played the key role in 
introducing Green Revolution crops to the Third World. IRRI was founded 
in 1959 under an agreement forged by the Rockefeller and Ford 
Foundations with the Philippine government, and its lease for operation 
expires in 2003. At its recent 40th anniversary celebration, hundreds 
of Filipino rice farmers protested against IRRI for introducing GM 
crops, blaming IRRI, among other things, for promoting the Green 
Revolution and causing massive loss of biological diversity in rice 
paddies throughout Asia.\10\
---------------------------------------------------------------------------
    \10\ Press release 4 April, Los Banos, Philippines, MASIPAG/Farmer-
Scientist Partnership for Development.
---------------------------------------------------------------------------
    It is clear that vitamin A deficiency is accompanied by 
deficiencies in iron, iodine and a host of micronutrients, all of which 
comes from the substitution of a traditionally varied diet with one 
based on monoculture crops of the Green Revolution. The real cure is to 
re-introduce agricultural biodiversity in the many forms of sustainable 
agriculture already being practiced successfully by tens of millions of 
farmers all over the world.\11\
---------------------------------------------------------------------------
    \11\ See Altieri, M., Rosset, P. and Trupp, L.A. (1998). The 
Potential of Agroecology to Combat Hunger in the Developing World, 
Institute for Food and Development Policy Report, Oakland, California.
---------------------------------------------------------------------------
    As the scientists know, clinical deficiency can be dealt with by 
prescription of vitamin A pills, which are affordable and immediately 
available. ``Oral delivery of vitamin A is problematic,'' they state. 
Judging from the reference cited \12\ they may be referring to the 
well-known harmful effects of vitamin A overdose. But why would high 
levels of pro-vitamin A rice in a staple food that people generally 
consume in the largest amounts in a meal not also cause problems 
connected with overdose? In particular, vitamin A poisoning has been 
known to result from excessive beta-carotene intake in food.\13\
---------------------------------------------------------------------------
    \12\ Walter, P., Brubacher, G., and Stahelin, H. eds. (1989). 
Elevated Dosages of Vitamins: Benefits and Hazards, Hans Huber, 
Toronto, Canada
    \13\ Nagai, K., Hosaka, H., Kubo, S., Nakabayashi, T., Amagasaki, 
Y. and Nakamura, N. (1999). Vitamin A toxicity secondary to excessive 
intake of yellow-green vegetables, liver and layer. J. Hepatol 31,142-
148.
---------------------------------------------------------------------------
    Finally, why is it necessary to genetic engineer rice? ``Because no 
rice cultivars produce [pro-vitamin A] in the endosperm, recombinant 
technologies rather than conventional breeding are required.'' This is 
the conclusion to the whole fallacious reasoning process. It amounts to 
this: rice is polished, which removes pro-vitamin. A, therefore a 
hundred million dollars (much of it tax-payers' money) are needed to 
put pro-vitamin A into polished rice. A more likely explanation is that 
the geneticists are looking for funding to do their research, and have 
constructed, as best they could, a series of rationalizations for why 
they should be supported. Neither the scientists nor the funders have 
looked further beyond the technology to people's needs and aspirations, 
or to what the real solutions are.
        the science and technology is standard first generation
    It took ten years to engineer beta-carotene into polished rice 
because rice naturally does not have the metabolic pathway to make it 
in the endosperm, perhaps for good biological reasons. Immature rice 
endosperm makes the early precursor, geranylgeranyl-diphosphate (GGPP). 
In order to turn GGPP into beta-carotene, four metabolic reactions are 
needed, each catalyzed by a different enzyme. Enzyme 1, phytoene 
synthase converts GGPP to phytoene, which is colorless. Enzymes 2 and 
3, phytoene desaturase and xi-carotene desaturase, each catalyzes the 
introduction of two double-bonds into the phytoene molecule to make 
lycopene, which is red in colour. Finally, Enzyme 4, lycopene beta-
cyclase turns lycopene into beta-carotene. Hereafter, the enzymes will 
be referred to by numbers only. Thus, a total of four enzymes have to 
be engineered into the rice in such a way that the enzymes are 
expressed in the endosperm. Some very complicated artificial gene 
constructs have to be made. The gene constructs are made in units 
called expression cassettes (see Box 1).
    In order to select for the plant cells that have taken up the 
foreign genes and gene-constructs, ``golden rice'' makes use of a 
standard antibiotic resistance gene coding for hygromycin resistance, 
also equipped with its own promoter and terminator. All these 
expression cassettes have to be introduced into the rice plant cells. 
One simplification available is that the reactions catalyzed by two of 
the enzymes, 2 and 3, could be done by a single bacterial enzyme, let's 
call it enzyme 2-3, so a total of four expression cassettes have to be 
introduced, one for each of three enzymes and the fourth for the 
antibiotic resistance marker.

                                  BOX 1
------------------------------------------------------------------------

-------------------------------------------------------------------------
The ``gene expression cassette''--a unit of transgenic construct

The gene for each enzyme never goes in alone. It has to be accompanied
 by a special piece of genetic material (DNA), the promoter, which
 signals the cell to turn the gene on, i.e., to transcribe the DNA gene
 sequence into RNA. At the end of the gene, there has to be another
 signal, a terminator, to mark the RNA so it can be translated into
 protein. To target the protein to the endosperm, an extra bit of DNA, a
 transit sequence, is required. The resulting expression cassette for
 each gene is as follows:

------------------------------------------------------------------------

        promoter  --  transit sequence  --    gene    --  terminator

------------------------------------------------------------------------

Typically, each bit of the construct: promoter, transit sequence, gene
 and terminator is from a different source. Several expression cassettes
 are usually linked in series, or ``stacked'' in the final construct.
------------------------------------------------------------------------


    Unlike natural genetic material which consists of stable 
combinations of genes that have co-existed for billions of years, 
artificial constructs consist of combinations that have never existed, 
not in billions of years of evolution. Artificial gene-constructs are 
well-known to be structurally unstable, which means they tend to break 
and join up incorrectly, and with other bits of genetic material, 
resulting in new unpredictable combinations. This process of breaking 
and joining of genetic material is referred to as recombination. The 
more complicated the construct, the more it tends to break and 
rearrange or form new combinations. The instability of the construct 
means that it is seldom inserted into the plant genome in its intended 
form. The inserts are generally rearranged, with parts deleted, or 
repeated.
    In order to make many copies of the construct and to facilitate 
entry into plant cells, the construct is spliced into an artificial 
vector, which is generally made from genetic parasites that live inside 
cells. The artificial vector also enables the construct to be 
efficiently smuggled into the plant cell and to jump into the genome of 
the plant cell. The vector used in the case of the ``golden rice'' is 
the one most widely used since the beginning of plant genetic 
engineering. It is derived from the ``T-DNA,'' part of the tumor-
inducing (Ti) plasmid (a genetic parasite) of the soil bacterium, 
Agrobacterium. The Ti plasmid naturally invades plant cells, inserting 
the T-DNA into the plant cell genome, and causing the cell to develop 
into a plant tumor or gall. The artificial gene construct is spliced in 
between the left and right borders of the T-DNA vector. The borders of 
the T-DNA are ``hotspots'' for recombination, i.e., they have a 
pronounced tendency to break and join up, which is ultimately why the 
vector can invade the plant's genome and carry its hitch-hiker gene 
construct along with it.
    Three different constructs were made. The first consists of the 
expression cassettes of enzyme 1 from daffodils and enzyme 2-3 from the 
plant bacterial pathogen, Erwinia uredovora, together with the 
expression cassette of an antibiotic resistance marker gene that codes 
for hygromycin resistance. Another antibiotic resistance gene (coding 
for kanamycin resistance) is also present, albeit lacking a promoter. 
Hygromycin and kanamycin are both aminoglycoside antibiotics that 
inhibit protein synthesis. The resistance genes originate from bacteria 
and generally have specificities for more than one aminoglycoside 
antibiotic. This first construct is the most complicated, but it still 
does not have all the required enzymes. Enzyme 1 and the hygromycin 
resistance gene are both equipped with a promoter from the cauliflower 
mosaic virus (CaMV), which is especially hazardous (see below).\14\
---------------------------------------------------------------------------
    \14\ See Ho, M. W., Ryan, A. and Cummins, J. (1999). The 
cauliflower mosaic viral promoter--a recipe for disaster? Microbial 
Ecology in Health and Disease 11, 194-197; Ho, M. W., Ryan, A. and 
Cummins, J. (2000). Hazards of transgenic plants containing the 
cauliflower mosaic viral promoter. Microbial Ecology in Health and 
Disease (in press).
---------------------------------------------------------------------------
    The second construct consists of the expression cassettes of enzyme 
1 and enzyme 2-3 as in the first, but without any antibiotic resistance 
marker genes. The third construct consists of the expression cassette 
of enzyme 4, again from daffodil, stacked with the hygromycin-
resistance marker-gene cassette. The strategy of separating the genes 
for the enzymes and antibiotic resistance marker into two different 
constructs is that it overcomes some of the problems of structural 
instability: the more cassettes stacked, the more unstable is the 
construct.
    Each construct was spliced into a T-DNA vector, and two 
transformation experiments were carried out. In the first experiment, 
800 immature rice embryos were inoculated with the vector containing 
the first construct, and hygromycin was used to select for resistant 
plants that have taken up the vector, resulting in 50 GM plants. In the 
second experiment, 500 immature embryos were inoculated with a mixture 
of the vectors containing the second and third construct respectively. 
Selection with hygromycin gave rise to 60 GM plants that have taken up 
the third construct, but only twelve of these had taken up the second 
construct as well. The transformation process is well-known to be 
random, as there is no way to target the foreign genes to precise 
locations in the genome. There could be more than one site of insertion 
in a single cell. Furthermore, as mentioned earlier, the actual inserts 
are likely to be rearranged, or subject to deletions or 
repetitions.\15\ Hence each transformed cell will have its own 
distinctive pattern of insert(s), and each GM plant, which comes from 
the single transformed cell, will differ from all the rest.
---------------------------------------------------------------------------
    \15\ Reviewed by Pawlowski, W. P. and Somers, D. A. (1996). 
Transgene inheritance in plants genetically engineered by 
microprojectile bombardment. Molecular Biotechnology 6, 17-30.
---------------------------------------------------------------------------
    Note that the GM plants from the first experiment will not have the 
full complement of enzymes required to make beta-carotene, and should 
give red endosperm from the lycopene present. Only the GM plants from 
the second experiment which have taken up both vectors would possess 
all the enzymes needed, and give orange-colored endosperm.
uncontrollable technology and unpredictable outcomes raise questions on 
                                 safety
    Unexpectedly, transgenic plants from both transformation 
experiments gave orange polished grains. Chemical analyses confirmed 
that only beta-carotene, in varying amounts, was found in all lines, 
but no lycopene. This suggests that enzyme 4 may be present in rice 
endosperm normally, or it could be induced by lycopene, to turn all of 
the lycopene into beta-carotene. Lutein and zeaxanthin, two other 
products derived from lycopene, were also identified in varying amounts 
besides beta-carotene. All of these were absent from non-GM rice.
    In addition, many other uncharacterized, unidentified products were 
found, which differ from one line to another. What is the nutritional 
value of the other products? Are any of the known and unknown products 
harmful? Without thorough chemical analyses and toxicity tests, it is 
impossible to tell. This highlights the unpredictable, uncontrollable 
nature of the technology.
    Molecular analyses of the GM inserts were not done in any detail. 
Nevertheless, judging from the evidence presented, there are the usual 
signs of deletions, rearrangements and multiple repeats of the 
constructs inserted due to structural instability of the constructs and 
the tendency for recombination. There is no guarantee that any of the 
plants will give stable progeny in successive generations. The 
instability of GM lines is well-known,\16\ and is a continuing problem 
for the industry. Inserted genes can lose their activities or become 
lost altogether in subsequent generations. There is nothing in ``golden 
rice'' to distinguish it from standard first generation GM plants with 
all the well-known defects and hazards.
---------------------------------------------------------------------------
    \16\ Reviewed by Pawlowski and Somers, 1996 (see note 15) and 
others.
---------------------------------------------------------------------------
      ``golden rice'' is no technical improvement and more unsafe
    ``Golden rice'' exhibits all the undesirable, hazardous 
characteristics of existing GM plants, and in added measure on account 
of the increased complexity of the constructs and the sources of 
genetic material used.\17\ The hazards are highlighted below.
---------------------------------------------------------------------------
    \17\ See Ho, M. W. (1998, 1999). Genetic Engineering Dream or 
Nightmare? Third World Network, Gateway, Gill & Macmillan, Penang and 
Dublin; Ho et al, 1999, 2000 (note 6).

  <bullet> It is made with a combination of genes and genetic material 
        from viruses and bacteria, associated with diseases in plants, 
---------------------------------------------------------------------------
        and from other non-food species.

  <bullet> The gene constructs are new, and have never existed in 
        billions of years of evolution.

  <bullet> Unpredictable by-products have been generated due to random 
        gene insertion and functional interaction with host genes, 
        which will differ from one plant to another.

  <bullet> Over-expression of transgenes linked to viral promoters, 
        such as that from CaMV, exacerbates unintended metabolic 
        effects as well as instability (see below). There are at least 
        two CaMV promoters in each transgenic plant of the ``golden 
        rice,'' one of which is linked to the antibiotic resistance 
        marker gene.

  <bullet> The transgenic DNA is structurally unstable, leading to 
        instability of the GM plants in subsequent generations, 
        multiplying unintended, random effects.

  <bullet> Structural instability of transgenic DNA increases the 
        likelihood of horizontal gene transfer and recombination.

  <bullet> Instability of transgenic DNA is enhanced by the CaMV 
        promoter, which has a recombination hotspot,\18\ thereby 
        further increasing the potential for horizontal gene transfer.
---------------------------------------------------------------------------
    \18\ Kohli A, Griffiths S, Palacios N, Twyman RM, Vain P, Laurie 
DA, Christou P. Molecular Characterization of Transforming Plasmid 
Rearrangements in Transgenic Rice Reveals a Recombination Hotspot in 
the CaMV 35S Promoter and Confirms the Predominance of Microhomology 
Mediated Recombination. The Plant Journal 1999, 17: 591-601.

  <bullet> The CaMV promoter is promicuous in function and works 
        efficiently in all plants, in green algae, yeast and E. 
        coli.\19\ The spread of genes linked to this promoter by 
        ordinary cross-pollination or by horizontal gene transfer will 
        have enormous impacts on health and biodiversity. In 
        particular, the hygromycin resistance gene linked to it may be 
        able to function in bacteria associated with infectious 
        diseases.
---------------------------------------------------------------------------
    \19\ See Kohli, et al, 1999 (note 17) also, Ho et al, 1999; 2000 
(note 15).

  <bullet> Horizontal transfer of transgenic DNA from GM plants into 
        soil fungi and bacteria has been demonstrated in laboratory 
        experiments. Recent evidence suggests that it has also taken 
        place in a field-trial site for GM sugar-beets, in which 
        transgenic DNA persisted in the soil for at least two years 
        afterwards.\20\
---------------------------------------------------------------------------
    \20\ Gebhard, F. and Smalla, K. (1999). Monitoring field releases 
of genetically modified sugar beets for persistence of transgenic plant 
DNA and horizontal gene transfer. FEMS Microbiology Ecology 28, 261-
272.

  <bullet> Prof. Hans-Hinrich Kaatz from the University of Jena, has 
        just presented new evidence of horizontal gene transfer within 
        the gut of bee larvae.\21\ Pollen from GM rapeseed tolerant to 
        the herbicide glufosinate were fed to immature bee larvae. When 
        the microorganisms were isolated from the gut of the larvae and 
        examined for the presence of the gene conferring glufosinate 
        resistance, it was found in some of the bacteria as well yeast 
        cells.
---------------------------------------------------------------------------
    \21\ See Barnett, A. (2000). GM genes ``jump species barrier.'' The 
Observer, May 28.

  <bullet> All cells including those of human beings are now known to 
        take up genetic material.\22\ While natural (unmanipulated) 
        genetic material is simply broken down to supply energy, 
        invasive pieces of genetic material may jump into the genome to 
        mutate genes. Some insertions of foreign genetic material may 
        also be associated with cancer.
---------------------------------------------------------------------------
    \22\ See Ho, M.W., Ryan, A., Cummins, J. and Traavik, T. (2000b). 
Unregulated Hazards: ``Naked'' and ``Free'' Nucleic Acids, ISIS and TWN 
Report, London and Penang.

  <bullet> Horizontal transfer of genes and constructs from the 
        ``golden rice'' will spread transgenes, including antibiotic 
        resistance genes to bacterial pathogens, and also has the 
        potential to create new viruses and bacteria associated with 
        diseases.\23\
---------------------------------------------------------------------------
    \23\ See Ho et al, 2000b (note 11).
---------------------------------------------------------------------------
                               conclusion
    In conclusion, the ``golden rice'' project was a useless 
application, a drain on public finance and a threat to health and 
biodiversity. It is being promoted in order to salvage a morally as 
well as financially bankrupt agricultural biotech industry, and is 
obstructing the essential shift to sustainable agriculture that can 
truly improve the health and nutrition especially of the poor in the 
Third World. This project should be terminated immediately before 
further damage is done.
    The ``golden rice'' possesses all the usual defects of first 
generation transgenic plants plus multiple copies of the CaMV promoter 
which we have strongly recommended withdrawing from use on the basis of 
scientific evidence indicating this promoter to be especially 
unsafe.\24\ A growing number of scientists (318 scientists from 39 
countries to-date) are calling for a global moratorium on the 
environmental releases of GMOs until and unless they can be shown to be 
safe.\25\
---------------------------------------------------------------------------
    \24\ Ho et al, 1999, 2000b (note 9).
    \25\ See <www.i-sis.org>
---------------------------------------------------------------------------
                            acknowledgement
    I am grateful to Joe Cummins for helpful comments and for supplying 
key references in preparing this audit.

Dr. Mae-Wan Ho, Institute of Science in Society and Dept. of Biological 
Sciences, Open University, Walton Hall, Milton Keynes, MK7 6AA, UK

e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f2261386127200f203f2a21612e2c613a24">[email&#160;protected]</a>

    Senator Hagel. Mr. Halweil, thank you.
    Let me begin the questioning by asking each of our other 
two witnesses to respond, if they would like, in any way they 
would like, to what Mr. Halweil said. He brings up some 
interesting points, asks some relevant questions, challenges 
much of what we have heard here today. I would ask Ambassador 
Young if he would like to respond to anything that he heard.
    Ambassador Young. First, Africa is such an enormous 
continent and almost everything we have tried works, and he is 
probably right, where there is land reform there is improved 
results where people are allowed to own their land. We have 
done some things with cotton in South Africa that worked very, 
very well.
    We have done some land reform work under our AID, the 
Southern Africa Enterprise Development Fund. What we did in 
that instance was actually take a plantation in South Africa 
and turn it into an agribusiness and made the sharecroppers 
shareholders, and improved the housing, the school, and also 
built a processing plant on the land that people worked in. It 
works and they are shipping food all over southern Africa.
    So there are lots of inexpensive things that you can do. 
Most of those are politically controlled. I think one of the 
advantages of biotechnology is that it is largely in the hands 
of the private sector, and if it works and pays for itself it 
will continue, if it does not it will be abandoned. But that is 
a market reality which is true in this country as it is abroad.
    As soon as anybody in this country finds any negative 
effect to any of these seed technologies, I am sure there will 
not be any trouble calling in the FDA, the Congress, and 
everybody else. But up to now I think that the efforts that are 
applied to the African Continent, almost anywhere there is an 
effort of almost any kind it has been successful.
    Senator Hagel. Thank you.
    Dr. Beachy.
    Dr. Beachy. Yes, I have some differences of opinion from 
the presenter. If you look at the effects of the work that the 
Sassagawa Foundation has done in Tanzania and other places, 
that worked to enable--what they did was make small loans to 
small farmers, small shareholders. Those farmers used that 
money to buy fertilizer, to buy better seeds, and they repaid 
their loans very rapidly. Now, they used modern technology to 
repay the loans, got better loans and bigger loans the next 
year.
    The Sassagawa Foundation approach has been very important. 
It is small farmers being successful using a modern technology 
and access to capital. So in part I do not disagree at all. 
Poverty is the issue, accessibility to capital is the issue, 
but to use it in the best way is to use it in combination with 
technology.
    The second is there was a criticism raised of large 
corporations for not doing more. I really find that really 
quite remarkable when you consider that we have the impact that 
we have seen in the health industry for years not paying 
attention to the Third World. We now have an agriculture 
community that in less than 5 years after commercializing a 
technology wants to take it to the Third World. I find that 
really quite remarkable, that this can happen in such a short 
period of time in food and agriculture, which we have not been 
able to do in the biomedical side.
    So I think, rather than criticizing the industry, we ought 
to encourage the industry to do more of what they have already 
started to do. So those are the two things I would like to make 
those corrections on, because in fact there has been good 
success started in the last couple of years in this direction. 
Yes, poverty is the issue, but I do not believe that there is a 
way that we can avoid the solutions to those without employing 
the best of technology and the best of science when they are 
applicable to the problem. And in the case of food and 
nutrition and agriculture, science is relevant in addition to 
bringing up the best of what is in those countries in terms of 
their agriculture and knowledge of indigenous crops.
    Senator Hagel. Thank you.
    Staying on this issue for just a moment, Mr. Halweil, if I 
recall what you said correctly, you made the point that poverty 
rather than food shortage is the main cause of hunger. I guess 
my question to you is how do you fix poverty? Do you not get 
under poverty--to get people out of poverty through productive 
capacity? How do you fix poverty? How do you eliminate poverty?
    Mr. Halweil. The solutions to poverty are clearly going to 
be very diverse and site-specific. There is no one policy, no 
one intervention, that is likely to eliminate poverty. As you 
noted, for people who are farmers, for entire nations that are 
agriculturally based in terms of their economies, increases in 
agricultural productivity are going to be essential to reducing 
poverty. I am not arguing against that.
    All I am saying is that the vast majority of the research 
and applications that we have seen from biotechnology have not 
been designed for the developing world. Perhaps that is obvious 
if it is a technology controlled by the private sector. At the 
same time, we know that there is an entire range of 
agricultural technologies, some modern, some traditional, some 
hybrids of the two, that are readily available, that, as Mr. 
Young has noted, when they are supported and funded and 
implemented they tend to work.
    I think that the approach that I am advocating, that we do 
not get distracted from the many other ways to improve 
agricultural productivity and therefore reduce poverty, is more 
of a prudent or conservative approach, given that we have not 
seen any biotechnology creation yet that has a tremendous 
amount of relevance on the large scale for the developing 
world. Perhaps in several years we will and that is the hope, I 
think, of everyone in this room. But the bottom line is there 
are technologies, policies, interventions available now that 
can meet those same goals.
    Senator Hagel. Well, my time is up and I am going to hand 
it over to Senator Lugar. We may have time to get back to you. 
But I think that you are, in my opinion, off in a direction 
that will cause more poverty, if we would pursue your line of 
reasoning. But my time is up and thank you for your answer.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. Let me 
just as a point of personal privilege mention that Ambassador 
Young came before this committee in 1985, when he was U.N. 
Ambassador. We had hearings from the onset then on all the 
problems of the world. As I recall, Jeanne Kirkpatrick was here 
that day and maybe others who served in that capacity.
    I mention that because Ambassador Young in extraordinary 
ways as a preacher, as a mayor, as Ambassador, doing what you 
are doing now, has looked at this issue from many different 
perspectives, and brings an unusual wisdom to it. I appreciated 
your initial comment that Africa is so big that almost 
everything works.
    We spent most of the morning listening to Dick Holbrooke 
and others talking about horrendous problems, monumental 
difficulties on that continent. I would just say, the minutia 
of efforts that is coming from this country, the world, 
anybody, that can make any difference there is worrisome--you 
simply have an appalling feeling of enormous suffering and 
futility.
    So I think that a keynote that I see from this hearing, is 
that we should not talk past each other. Everybody at this 
table is of goodwill and the question is how any of us make any 
difference, even at the margin. In other words, to mention that 
somehow most of the biotech is going on in the United States, 
of course it is, most if it was discovered. Other people have 
found parts of it, but we had the capital to go ahead with it.
    Frequently people make the point to us, even when other 
countries spy on us or take away our technology, they do not 
have the capital to develop it. As a result, this makes our 
country unique. You mentioned Australia and some other 
countries, and they have capital as does Canada. And it is 
poverty, poverty of capital. All the capital available in 
Africa is very, very small.
    The question is how to get the world interested in this in 
any way or how to help some people in Africa develop more 
capital. One reason is through biotech. Those people who have 
had a chance to do some farming and make more money on what 
they are doing may produce more crops. It may be very limited, 
but nevertheless it is more for them. It can make a difference, 
and, in my judgment without harm.
    Believe me, Ambassador Young is right. The first one of 
these seeds that is found to go amiss, the fire bells will 
ring, the wrath of God will fall, and that will be the end of 
that company and that seed. This is very serious business in 
terms of all of our safety. But to go through all of the 
pyrotechnics with absolutely no evidence is very sad.
    Let me just say with regard to Dr. Beachy, I had the 
privilege of going out to St. Louis and visiting the Monsanto 
laboratories. They have replicated conditions of Africa in some 
of their laboratories. They have got the heat and the humidity 
and all of the devices that will indicate precisely what is 
going to happen. It is remarkable. I have spliced a soybean 
seed and understand how you do that and what it is likely to 
mean on my farm.
    I am one of these American farmers who would still say that 
it is probably useful for us to have a better crop. Unlike 
African farmers, we also have passed in the Senate crop 
insurance and risk management. If I have no crop, I get some 
money, because this is the way our wealth is distributed, so 
that we help people. Other countries could do the same.
    As you said, Ambassador, these big questions are political 
ones. I referenced the Sudanese who are starving each other, 
killing each other. Of course they are poor and some are kept 
deliberately poor. That is a very big issue, but it is well 
beyond biotech. I would say even in Sudan, where Dr. Frist 
traveled, if he was able to get some seed to any of those 
folks, that would be helpful to those particular people who 
might eat. We have really got to fundamentally understand this.
    I have become impatient with arguments that somehow, 
because poverty is the big issue, because there are several 
other things we could do--rearranging the conservation of a 
country, intervening in their governments and jerking them 
around and say, this is the way you do it. Of course things 
might turn out better, but it just seems to me it is very 
important, even with the modest efforts we are making, and they 
are modest, to do what we can.
    Having said all that, what are the prospects--Dr. Beachy--I 
ask you this because you have been involved in this science, 
you understand this, and obviously you are worried, as I am, 
about the marketing of these ideas. But how in the world do we 
turn this thing around from something that is perceived as 
purely a production agriculture matter? And I think that is 
important to American farmers and maybe Canadian farmers. It 
could be important to African farmers, too, that they get 
better yields, that they have safer food.
    But how do we begin to talk to American consumers that the 
products are better for them, quite apart from African 
consumers or anybody else?
    Dr. Beachy. I think industry has missed a tremendous 
opportunity to let the consumer know what he or she has 
benefited from. I take great offense when people say there is 
no consumer benefit. That is as if our two million farmers were 
not consumers, because they are the ones who are using less 
chemical insecticides. They are the ones whose children become 
ill. The people who pick the tomatoes are the ones who get sick 
because they get residue on their clothes that come from the 
tomatoes. Do not tell me that consumers do not benefit.
    What we have not had is the consumer realizing that what 
they have benefited is a cleaner environment with two million 
less gallons of insecticide. We have a potato--there is a 
potato variety that has been developed that does not require 
any insecticide to grow and produce large amounts of good 
potatoes. But no, the consumers have said, well, let us hold 
off and wait and still continue with our 12 to 15 spray 
applications per year to grow russet burbank potatoes.
    The technology exists for eliminating pesticide 
applications in potatoes. Ask me why it has not made it to the 
market and I do not know the answer. I am a scientist only. All 
I know is I was trained to get rid of chemical pesticides out 
of food. That is what my Ph.D. at Michigan State was about.
    At the same time, we are being told that these are not in 
consumer interest. I think if the consumer knew the value of 
the technology for the environment that would turn in some way, 
some small degree, a percentage of people to realizing that 
technology is relevant, not just the farmer to get the next 200 
bushels per acre up from your 140, but also for the benefit of 
the air and the water and the soil.
    So I think there is a consumer benefit; it is being 
described in a different way. There are other products that we 
have seen coming out of companies that are farther along than I 
think we realize, that will have nutritional benefit in 
addition to the vitamin A, and maybe that will make a 
difference.
    But I think consumers are sensitive to the environmental 
issues. I think the companies have not done a good job in 
telling us what those benefits are, because they are real, they 
are substantial, and they are long-lasting.
    Senator Hagel. Senator Bond.
    Senator Bond. Thank you, Mr. Chairman.
    Mr. Halweil, you have said you do not know of any instance 
where GMO's have helped farmers in underdeveloped areas. Are 
you familiar with the planting of B.t. cotton in Ubay Province 
in China?
    Mr. Halweil. Sure.
    Senator Bond. And what was the results of the use of the 
B.t. genetically engineered cotton seeds in China?
    Mr. Halweil. I think there were roughly 300,000 hectares of 
B.t. cotton planted in that province in China and the results 
for those farmers were largely the same as the results for 
American cotton growers, the other population of farmers that 
are planting B.t. cotton. You had some reductions, not total 
reductions, marginal reductions, in the pesticides sprayed for 
that complex of pests that was mentioned before, though it had 
no effect on other pesticides sprayed on cotton.
    To the extent that there was a saving in terms of 
production costs from that reduced spraying, that went into the 
farmer's pocket. But you have to subtract out of that the 
additional money that the B.t. cotton seed might have cost in 
addition to what the traditional cotton varieties cost before.
    Senator Bond. Well, my information, it increased the 
farmers' revenue by $200 per hectare. It seems to me that that 
reduces poverty. That keeps the farmer on the farm. That was 
the information that we learned, that farmers who are starving 
to death because they could not produce the cotton, because 
they could not afford the pesticides, with the use of B.t. 
cotton could make a living.
    Let me just ask. You said apparently--I sense this bias 
against corporations and I know that a lot of NGO's do not like 
corporations or profits or commercialization. You said that the 
people using genetically engineered seeds were the large 
industrial farms, people like Pam and Charlie Kruse's farm. I 
know these people. I live in the area where they work. They are 
a husband and wife who farm and produce. Is there something 
wrong with them producing crops more efficiently, with less 
pesticides, cutting back on the use of pesticides? Is there 
something wrong with the farms that we have in Missouri because 
they are efficient?
    Mr. Halweil. There is absolutely nothing wrong with that. 
All I thought was that this hearing was on the subject of 
biotechnology for combating hunger and poverty in developing 
nations.
    I would like to maybe followup on the second part of your 
question on pesticide use in the environment.
    Senator Bond. OK. I tell you what. I am running short of 
time and I am sure that the chairman would be happy to have a 
statement on it.
    But I do want to followup in the little time I have 
remaining to ask Dr. Beachy--Ambassador Young, I am sorry I do 
not have a chance to ask you questions--if you would comment, 
No. 1, on the fact on the donation by corporations of, say, the 
information on mapping the genome of rice. I believe there has 
been a major donation by a corporation who made profits by 
selling to the farmers in Missouri to donate that technology to 
developing countries.
    I also think it might be helpful for you to comment on the 
basis of the scientific regulatory scheme that we have in the 
United States to assure that when there is a problem such as a 
brazil nut gene included in a soybean which might cause an 
allergic reaction to someone allergic to peanuts, that the 
process stops that.
    Finally, you might want to comment on Mr. Halweil's 
assertion that there is a danger, ``the risky scheme'' I think 
is the current terminology, of biotechnology in possibly 
carryover transposing to other plants.
    Dr. Beachy. In the short time that I have, those are each 
good questions and comments you have made. One, major 
corporations are getting involved in donating information in 
addition to technology. Monsanto Company several weeks ago 
donated the genetic map, the full genetic blueprint of rice 
plants, of rice genome, for everyone in the world to have. This 
is a multinational attempt to characterize all the genes in 
rice.
    With the aid of the donation that Monsanto made, they will 
shorten by about 3 years the amount, the length of time it is 
going to take to put all the genes in order and all the 
sequences in order, much like the human genome mapping is going 
on now.
    We are very close, similarly, to a rabidopsis, which is our 
model dicot plant, with rice being the model monocot for corn 
and wheat and others. So there is a tremendous amount of effort 
being made.
    There is a second example of technology development or 
donation. I believe it is the Novartis Company that has donated 
some technology for their transformation technology to avoid 
using some of the selectable markers for antibiotic resistance 
and have donated another kind of technology for selection to 
everybody in the academic as well as in any public sector 
community.
    The basis of regulation is one that I participated in back 
in the eighties and was involved with the FDA in helping to 
establish part of the regulatory process that they have used to 
assure that foods are safe. That process has gone through a lot 
of revisions over the years and it will continue to go through 
more revisions as more data are gathered. But in fact it is an 
incredible process that we have never before applied foods to.
    You know, if somebody brings in a kiwi fruit from a new 
country and says that this kiwi fruit is good to eat, how do I 
know that? What is the regulatory process that tells me that 
that kiwi fruit is safe? We go back to that country and say: 
Has anyone gotten sick from it? How many have allergies?
    In the case of the FDA and the regulatory process and 
oversight of these foods, produced by a slightly different 
technology, we now have in place an examination of foods that 
has never before taken place. The decision tree is so filled 
with cross-lines that the chance of something getting from here 
down to here onto the marketplace is extremely minimal. And 
they have looked at all the scientific evidence that is 
presented before they make a decision that this gene trait that 
is introduced into strawberries or corn or soybeans or wheat 
now and in the future are well regulated and well designed and 
well overseen.
    The whole idea of risk management and how you do that has 
come about because of, in response to, a technology that is 
unique and perhaps it is necessary because it is unique. The 
risk management oversight by the USDA and the EPA are based on 
questions that are raised outside and then on the applications 
of good solid science to make sure the risks are minimized or 
eliminated.
    I remind you, never before have we put any of our 
agricultural products to the same examination and test. So we 
have done so with these crops in a way that I think convinces 
me, I know it convinces me, to say that the foods that are out 
there now derived from these crops are safe and that the 
plantings in the fields have little or no risk, certainly no 
greater risk than any of the existing crops.
    So it is the science that teaches me that, and I think if 
we diverge from the applications of the principles of 
evaluative science in the same way, if we diverse from that, I 
think we put ourselves at tremendous risk not only on the 
health side, but the environmental side as well. That is what 
we have. That is what we have done in this country, asked 
science to make our way for us.
    Senator Hagel. Thank you.
    Senator Ashcroft.
    Senator Ashcroft. Senator Hagel, thank you very much.
    The senior Senator from Missouri's humility prevented him 
from presenting an article he has written in Science magazine 
from February of this year, and I would like to submit it for 
its inclusion in the record, along with of course the item from 
the Washington Post.
    Senator Hagel. It will be included in the record, Senator.
    [The article referred to follows:]

              [From Science, Vol. 287, February 18, 2000]

           science's compass--scientists orienting scientists

              Politics, Misinformation, and Biotechnology

                      (By Christopher S. Bond \1\)
---------------------------------------------------------------------------

    \1\ The author is the senior Senator from Missouri in the U.S. 
Senate.
---------------------------------------------------------------------------
    In the past half century, the number of people fed by a single U.S. 
farmer has grown from 19 to 129. Despite this stunning advance, 
intractable health and nutrition problems remain. The world's 
population continues to grow even as available farmland shrinks. 
Preventable illnesses and malnutrition still claim the lives of many 
children in the developing world. As the new millennium gets under way, 
policy-makers, health care professionals, scientists, and others are 
searching for the tools to meet the increasing demands of a growing and 
changing world. Chief among these tools is biotechnology. Leading 
scientists have concluded that, although still in its infancy, 
biotechnology has breathtaking possibilities for improving human health 
and nutrition and that a satisfactory regulatory system is in place to 
govern its development.
    Despite this consensus, a vocal, aggressive--and in some cases, 
lawless--group of advocacy organizations seeks to discredit and 
eliminate biotechnology. At issue is the alleged risk that any 
genetically modified plant may pose to the environment. However, the 
issue of risk is by no means one-sided. Yes, we must understand whether 
transgenic corn poses more risk to the Monarch butterfly than does the 
existing practice of using synthetic chemicals. However, the greater 
risk, in my view is that without a scientific basis, the naysayers may 
succeed in their goal of subverting biotechnology and thus condemn the 
world's children to unnecessary malnutrition, blindness, sickness, and 
environmental degradation.
    Although positive change is to the collective long-term benefit of 
us all, it typically results in short-term difficulties, anxiety, and 
fear for some. Opposition of the sort I witnessed at firsthand while at 
the December 1999 World Trade Organization meeting in Seattle, 
Washington, has been driven variously by trade-protectionist and 
anticorporate sentiment, by competing food marketers such as the whole-
foods industry, and by scientifically unsubstantiated fears of change 
and technology. Some of those who seek to undermine biotechnology are 
not interested in seeking information or constructive dialogue. Some in 
Europe have adopted a constrained trade policy that consists of 
exporting little more than hysteria, which we can expect to energize 
the professional political ambulance-chasers here in the United States. 
Sadly, the actions of radicals such as those who recently vandalized 
test plots in California and set fire to research offices at Michigan 
State University are not harmless pranks; rather, such tactics lead to 
diminished public understanding of the benefits versus the risks of 
biotechnology.
    Diminished understanding is key to obstructing biotechnology. In 
discussions of fact, the scientific viewpoint will prevail. However, 
public education will remain challenging. Given the nature of the 
modern media, will scientists have to start dressing up as corncobs, as 
some protestors have done, to get media attention? During the past 2 
years, I have asked scientists to work with their local media 
representatives and public officials to help them separate fact from 
fiction. After the problems in Seattle, it is clear that much more must 
be done. We must work diligently to ensure that consumers, who drive 
food production, are adequately informed about the science supporting 
the uses of biotechnology. Input from the scientific community is 
vital, but we cannot count on the media to find scientists; scientists 
must actively seek to influence the media. As we work to counteract the 
naysayers, we should be encouraged that most Americans, and many others 
in developed countries, embrace technological advances and are 
generally receptive to the benefits that new technologies bring to 
their lives.
    A protocol for an international agreement regarding trade of 
genetically engineered products has just been released. Although full 
understanding of the implications of the agreement will not precede its 
implementation, we can all hope that it will serve to better inform all 
citizens and depoliticize the process in favor of science-based 
decision-making.
    The development of this technology is not recreational. Through 
biotechnology, scientists are attempting to solve the real-world 
problems of sickness, hunger, and resource depletion. The hysteria and 
unworkable propositions advanced by those who can afford to take their 
next meal for granted have little currency among those who are hungry. 
It will be up to the policy-makers, advocates for the needy, 
scientists, the media, and others to ensure that reason, not hype, 
prevails. <www.sciencemag.org>

    Senator Ashcroft. Dr. Beachy and Ambassador Young and 
members of the panel, thank you for your efforts and thank you 
for coming. Particularly, Dr. Beachy and Ambassador Young, I 
want to thank you for your efforts on sustainable agriculture 
and economic development. And I am pleased to have a Missourian 
here representing the Danforth Center and testifying before 
this committee, so I am grateful.
    Ambassador Young, I appreciate the many years of experience 
you have and that you bring before the committee as one 
actively involved in the betterment of developing nations, most 
notably on the Continent of Africa, but around the world.
    Both of you have been kind to send me letters of 
endorsement for Senate bill 2106, Advancing Global 
Opportunities for Biotechnology in Agriculture. Mr. Chairman, I 
would like to submit for the record additional letters of 
support from the dean of agriculture for the University of 
Missouri, from the president of Michigan State University from 
the director of Harvard Center for International Development. 
If you would receive those and include them in the record, I 
would be grateful.
    Senator Hagel. They will be included, Senator.
    [The letters referred to follows:]

              Donald Danforth Plant Science Center,
                            7425 Forsyth Blvd., Suite 3100,
                                     St. Louis, MO, March 15, 2000.

The Honorable John Ashcroft
Hart Senate Office Building,
Room 316,
Washington, DC.

    Dear Senator Ashcroft:

    I am writing to offer my full support of Senate Bill 2106 and to 
thank you for introducing it. This bill would provide technical support 
to train Scientists from developing countries in the areas of 
agricultural biotechnology and biosafety. It is obvious that many of 
our potential partners in developing countries have much to gain from 
the application of new technologies in agriculture, including 
biotechnology. It is clear, however, that many countries lack the 
scientific skills and policy expertise to evaluate safety of new 
products. This bill would make it possible to provide training for 
those countries to allow them to better evaluate the products of 
American agriculture and to begin to develop their own intellectual 
strengths in this important area of science.
    S. 2106 would help to facilitate the training of postdoctoral 
researchers and students at the Donald Danforth Plant Science Center. 
The Danforth Center has a highly successful research and training 
program called the International Laboratory for Tropical Agricultural 
Biotechnology (ILTAB). We expect that S. 2106 would help to support 
trainees at ILTAB and the Danforth Center, making it possible for us to 
reach more scientists from around the world who will play an important 
role in the research, development and biosafety of agricultural 
products in their home countries.
    I urge your continued support of this bill and look forward to 
visiting with you in the future so that we might discuss the Danforth 
Center and ILTAB at greater length.
            Sincerely,
                                 Roger N. Beachy, Ph.D., President.

                                 ______
                                 

                              GoodWorks International, LLC,
                                       Atlanta, GA, March 15, 2000.

Honorable John Ashcroft
Senate Hart Office Building,
Room 316,
Washington, DC.

    Dear Senator Ashcroft:

    It is with great pleasure that I write to you in support of S. 2106 
which supports capacity building for agricultural biotechnology 
applications in Africa and other emerging markets.
    As you may be aware, I have been involved in outreach to Africa in 
support of biotechnology for some time now, realizing the great 
potential for biotechnology to help solve problems of starvation, 
illness and environmental degradation in some of the world's poorest 
areas. I remain committed to biotechnology as an important tool for 
agricultural development, which will allow African nations to feed 
their growing populations through sustainable practices in the years 
ahead. Innovations such as Vitamin A-enriched maize will help protect 
future generations of Africa's children from debilitating illnesses 
such as river blindness, and could even work as a nutritional 
supplement in the fight against HIV/AIDS. Similarly, the development of 
virus-resistant sweet potato and cassava will increase yields for these 
important food security crops which are widely consumed in the 
developing world. These are only a few examples of how technologies 
developed in the U.S. can address the needs of a growing global 
population.
    Later this year, I hope to visit KwaZulu Natal, South Africa, where 
small farmers in the Makathini Flats area are successfully growing 
genetically enhanced cotton. I understand that field trials have been 
so successful that the number of small growers in the Makathini area 
using the genetically enhanced seed has grown from 60 during the 1998-
99 season to more than 600 in 1999-2000. This example of 
biotechnology's potential in Africa is particularly appealing to me in 
that small family growers make up the vast majority of producers on the 
continent, and any advantage to their productivity has an immediate 
impact on their quality of life. I believe this type of positive impact 
is what we want to achieve through foreign aid and scientific exchange 
with Africa and other emerging markets.
    But for biotechnology to take root in Africa, the U.S. and other 
countries promoting agricultural biotechnology must make significant 
investments in education and training abroad. This became apparent to 
me over the last year through my work on the Biosafety Protocol to the 
Convention on Biological Diversity. The ``Like Minded Group'' of 
developing country delegates to the Protocol negotiations, led by a 
bloc of African nations, took a strong stance against biotechnology. 
The reason for their position was due, in large part, to propaganda and 
misinformation distributed by environmental groups that promoted 
irrational fears among many delegates. In the absence of scientific 
knowledge and understanding about biotechnology, these fears threatened 
to close the door on the trade of genetically enhanced goods. The type 
of programs, supported by S. 2106, which will promote the sharing of 
technologies and expertise with the developing world will be extremely 
effective in building a basis for acceptance and support of 
biotechnology in critical areas of the world. This is vitally important 
in our struggle to help African nations achieve sustainable 
agricultural practices that provide food security for their people.
    Thank you for your time and consideration. Please call of me if I 
may be of assistance in promoting this important piece of legislation.
            Sincerely,
                                              Andrew Young.
                                 ______
                                 
                           Office of the President,
                                 Michigan State University,
                                  East Lansing, MI, March 16, 2000.

The Honorable John Ashcroft
Hart Senate Office Building,
Room 316,
Washington, DC.

    Dear Senator Ashcroft:

    I am writing you in support of Senate bill 2106, the Advancing the 
Global Opportunities for Biotechnology in Agriculture Act of 2000.
    Today, there are more than 840 million poople--a number exceeding 
the combined population of Europe, U.S., Canada and Japan--who do not 
have enough to eat. Every minute, some 30 people die of hunger in the 
developing world and half of these are infants and children. More than 
170 million preschool children are undernourished. More than a half-
million children go blind each year from lack of vitamin A, and iron 
deficiencies are responsible for anemia among many millions of women 
and children, making them vulnerable to a host of diseases.
    Millions of farmers worldwide eke out livelihoods under poor and 
risky growing conditions while suffering from poverty, hunger and poor 
health. Food production will likely have to double to feed an 
additional two billion people by 2025.
    To prevent a crsis, the world community must simultaneously 
confront the issues of poverty, food insecurity, environmental 
degradation, and erosion of genetic resources. The power of science, 
while not sufficient by itself, can assist in benefiting the world's 
poor. One area of science is biotechnology. Biotechnology can shorten 
the time and cut the costs required to develop new crop varieties. 
Biotechnology tools can introduce genes that counter soil toxicity, 
resist insect pests, and increase nutrient content in crops.
    The U.S. is the world leader in agricultural biotechnology. 
However, very little of this research effort has been directed at 
developing country agriculture. This is because the private sector, 
which has invested most in this new technology, does not see a viable 
market for their products in these underdeveloped markets. In addition, 
public sector efforts to use biotechnology on behalf of poor farmers 
and consumers have been uncoordinated and under-funded. Despite this, 
there are a number of exciting results awaiting widespread testing and 
dissemination, including:

          Genetically modified rice to provide more iron and vitamin A.

          Genetically modified rice that provides protection against 
        submersion in India.

          Use of cotton in China with resistance to insects.

    For most people in developing countries, a better standard of 
living depends on increasing productivity in agriculture. Modern 
biotechnology research, together with appropriate policies, better 
infrastructure and traditional research methods, can bring benefits to 
millions of poor farmers and consumers.
    The U.S. Agency for Internatioal Development (USAID) has been 
bringing biotechnology to developing countries via a program managed at 
Michigan State University (MSU) and involving scientists from other 
universities such as Cornell, University of Texas (Dallas) and Ohio 
State University. The Agricultural Biotechnology Support Program (ABSP) 
takes an integrated approach, providing developing countries with an 
opportunity to work in collaboration with public and private sectors in 
the U.S. on important agricultural problems to developing countries. 
This ``ownership'' of the technology provides an important impetus to 
develop regulatory systems that will permit the use of technology 
developed, in part, ``at home.'' ABSP provides technical assistance in 
the development of regulatory systems by using expert consultants from 
the U.S. public, private and government sector, and trains scientists, 
lawyers and policy makers in the drafting of regulations and in the 
implementation of science-based regulatory reviews.
    While this program is unquestionably successfully where it has 
operated, with functional regulatory systems in Indonesia, Kenya and 
Egypt, the program has been limited by low-levels of funding. S. 2106 
will help address this discrepancy, provide additional opportunities to 
promote biotechnology abroad, and will also provide a mandate for more 
coordination between the U.S. University community and the U.S. 
regulatory agencies.
    I urge the Committee on Foreign Relations to support S. 2106 in 
order to increase the benefits of this technology to those who need it 
most, to provide a framework for enhanced collaboration between the 
U.S. research and business community with partners in developing 
countries, and to promote increased and open trade in improved 
agricultural goods and services.
            Sincerely,
                                Peter McPherson, President.

                                 ______
                                 

   Center for International Development at Harvard 
                                        University,
                                 79 John F. Kennedy Street,
                                     Cambridge, MA, April 25, 2000.

Honorable John Ashcroft
U.S. Senate,
316 Senate Hart Office Building,
Washington, DC.

Dear Senator Ashcroft,

    We are writing in connection with the Senate Bill 2106 on 
``Advancing the Global Opportunities for Biotechnology in Agriculture 
Act of 2000.'' Agricultural biotechnology offers great potential to 
address many of the argricultural, nutritional, and health problems of 
developing countries, especially in Africa. Efforts to promote the use 
of biotechnology in developing countries are currently being undermined 
by inadequate international assistance to support scientific and 
technical cooperation, biotechnology education and diplomatic outreach. 
We therefore wish to support the Senate Bill 2106.
    We consider this bill to be a starting point in a more substantive 
effort that will bring the scientific and technological leadership of 
the United States to bear on global agricultural, nutritional health 
and environmental challenges.
            Yours sincerely,
                         Professor Jeffrey Sachs, Director.

                      Dr. Calestous Juma, Program Director,
                                Science, Technology and Innovation.

    Senator Ashcroft. I would like to call upon either 
Ambassador Young or Dr. Beachy to comment on how you feel that 
Senate bill 2106 can help developing countries in terms of 
making the kinds of decisions necessary for them to bring their 
situations into a setting where individuals are more survivable 
and more sustainable.
    Ambassador Young. If I might start, simply to say that I 
know it is incredible, but I view Africa as a place of 
tremendous opportunity. All that you say about the problems and 
the dangers is probably true, but I also know of literally 
hundreds of billions of dollars that are being invested in a 
variety of operations on the African Continent that very 
shortly are going to make Africa a center of attention.
    One of the things that they are going to have very shortly 
is some of the resources to deal--that will enable them to deal 
with the specific on the ground agricultural problems. I think 
to have the scientists already trained, to have them working to 
do, to think about the government policies--we are going to 
remove the land mines from Angola and from Mozambique, and that 
is wonderful arable land. But right now there is nobody that 
could tell you what to do with it.
    I hope that Dr. Beachy, with the help of your bill, will be 
training the scientists and agronomists that will be ready when 
Africa is ready to respond to these kinds of problems in their 
own way.
    Dr. Beachy. I guess the easiest way to answer your 
question, Senator, is to say that--is to remind us that we 
trained a number of people from Africa in ILTAB, our 
International Laboratory. We have received in the last 6 weeks 
or 8 weeks 12 applications with full CV's from scientists, from 
trainees, from Africa, from at least five different countries, 
who want to come to learn more about the technologies, who want 
to make themselves knowledgeable, who want to know about 
biosafety, who want to know about what the role these plants 
can play in sustainable agriculture.
    We cannot fund them. Any of the resources that are made 
available we want to compete for, because I think that there is 
an absolute need. How do we respond and how do we do it the 
best and who is the best place to do it, I think that question 
comes after the bill is passed. But I hope that bill is awarded 
and I hope that it is this year, because the needs are now.
    We have talked about, the needs are not--the needs were 
yesterday and every day that we delay is I think a miscarriage 
to humanity and the places of need.
    Senator Ashcroft. Mr. Chairman, I want to thank these 
individuals for coming. I have one other item I would relate, 
and this relates to the Pontifical Academy for Life and its 
pronouncements on biotechnology. Bishop Elio Isgreccia, Vice 
President of the Pontifical Academy for Life and Director of 
the Institute of Bioethics and the Sacred Heart, University of 
Rome, explained: ``There are no specific indications from the 
magisterium of the church on biotechnology. Because of this, I 
have stopped all those who demand the condemnation of these 
products.'' I think he further says: ``Following research in 
the biotechnology field could resolve enormous problems, as for 
example the adaptation of agriculture to arid land, thus 
conquering hunger. The biotechnological products must 
contribute to man's wellbeing, giving guarantees in the face of 
possible risks. Therefore, what is needed is honesty.''
    With that, I cease that quotation, but I think that 
reinforces and underscores the testimony of Secretary Sandalow 
and what we all know, is that we want to be involved in 
science-based evaluations and we want those with whom we deal 
to be involved in science-based evaluations. That is the 
underlying thrust of our assistance to these other countries, 
to allow them to make intelligent judgments based on facts and 
science.
    So it is with that, I thank the members of the panel and I 
thank you very much for convening this hearing. I think it has 
been most productive.
    Senator Hagel. Senator, thank you.
    Gentlemen, let me ask your indulgence for just a couple of 
minutes. Mr. Halweil, you kind of got left out of the last 10, 
15 minutes. I would offer you a couple of minutes if you would 
like to just summarize a couple of points. We will give you 2 
or 3 minutes if you would be interested. I just want to make 
this as fair as we can, and you did not get some last 
questions, so you have got 2 or 3 minutes.
    Mr. Halweil. Thank you, Mr. Chairman. I appreciate the 
opportunity. What I think I will take my time to do is answer 
the question which you asked me, which I think I answered very 
briefly, which is what I would do if I was in control to 
eliminate poverty, what I think would eliminate poverty and 
what I think this committee could do to eliminate poverty.
    The Committee on Foreign Relations has not always been so 
friendly to funding for international reproductive health care 
assistance. I think that is one place in which the committee 
can make a serious dent in poverty. There is very good evidence 
that access to reproductive health care is often the important 
first step in diverting attention from dealing with very large 
families to investing in those children that families already 
have. In that sense, family planning, access to family 
planning, is an important step in reducing poverty.
    I also think that, although many of the issues mentioned 
here today were described as solely political conflicts, the 
role in creating hunger, poverty's role in creating hunger, 
land distribution, that it is also a political issue to hope 
that some time in the future in some lab there will be research 
results, there will be research that results in a biotechnology 
that is cheap enough to mass disseminate to the world's poor 
and hungry populations.
    So I would encourage the committee and this Subcommittee on 
International Economic Policy to look at what we have called 
political issues, including phenomena like population growth, 
and see what inroads we might make into those sorts of issues.
    Thank you.
    Senator Hagel. Mr. Halweil, thank you.
    Ambassador Young, thank you. You are one of the preeminent 
public servants of our time, public-private. You continue to 
contribute to the betterment of mankind and we are grateful. 
Thank you, sir.
    Doctor, much success. We are grateful to you for what you 
have done and will continue to do.
    Thank you.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
